No. -XXXX

In the Supreme Court of the United States
UNITED STATES OF AMERICA, PETITIONER
v.
ZAYN AL-ABIDIN MUHAMMAD HUSAYN
A.K.A. ABU ZUBAYDAH, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

APPENDIX TO THE
PETITION FOR A WRIT OF CERTIORARI
JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
JEFFREY BOSSERT CLARK
Acting Assistant Attorney
General
EDWIN S. KNEEDLER
Deputy Solicitor General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney General
ANTHONY A. YANG
Assistant to the Solicitor
General
SHARON SWINGLE
H. THOMAS BYRON III
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

TABLE OF CONTENTS

Page
Appendix A

—

Appendix B

—

Appendix C

—

Appendix D —
Appendix E —
Appendix F

—

Exhibit A —

Appendix G

—

Court of appeals opinion
(Sept. 18, 2019) ........................................ 1a
District court order granting motion to
quash and motion to intervene
(Feb. 21, 2018) ....................................... 35a
District court order granting application for discovery (Sept. 7, 2017) ......... 61a
Court of appeals order denying
rehearing (July 20, 2020) ...................... 72a
Application for discovery order
(May 22, 2017) ..................................... 110a
Declaration and formal claim of state
secrets and statutory privileges by
Michael Pompeo, Director of the
Central Intelligence Agency
(Oct. 24, 2017) ...................................... 123a
Declaration and formal claim of state
secrets and statutory privileges by
Michael Pompeo, Director of the
Central Intelligence Agency
(Mar. 2, 2017) ....................................... 138a
Statutory provision ................................ 161a

(I)

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 18-35218
D.C. No. 2:17-cv-00171-JLQ
ZAYN AL-ABIDIN MUHAMMAD HUSAYN;
JOSEPH MARGULIES, PETITIONERS-APPELLANTS
v.
JAMES ELMER MITCHELL; JOHN JESSEN,
RESPONDENTS

UNITED STATES OF AMERICA, INTERVENOR-APPELLEE
Argued and Submitted: Mar. 5, 2019
Seattle, Washington
Filed: Sept. 18, 2019
Appeal from the United States District Court
for the Eastern District of Washington
Justin L. Quackenbush, District Judge, Presiding
OPINION

Before: RONALD M. GOULD and RICHARD A. PAEZ,
Circuit Judges, and DEAN D. PREGERSON,* District
Judge. 1

The Honorable Dean D. Pregerson, United States District Judge
for the Central District of California, sitting by designation.
*

(1a)

2a
PAEZ, Circuit Judge:
Zayn al-Abidin Muhammad Husayn (“Abu Zubaydah”) 1 is currently held at the U.S. detention facility in
the Guantanamo Bay Naval Base in Cuba. Abu Zubaydah was formerly detained as part of the Central Intelligence Agency (“CIA”)’s detention and interrogation
program, also commonly known as the post-9/11 “enhanced interrogation” or torture program. In 2017,
Abu Zubaydah and his attorney, Joseph Margulies (collectively “Petitioners”), filed an ex parte application for
discovery pursuant to 28 U.S.C. § 1782, which permits
certain domestic discovery for use in foreign proceedings. They sought an order to subpoena James Elmer
Mitchell and John Jessen for their depositions for use in
an ongoing criminal investigation in Poland about the
torture to which Abu Zubaydah was subjected in that
country. The district court originally granted the discovery application, but subsequently quashed the subpoenas after the U.S. government intervened and asserted the state secrets privilege.
The Supreme Court has long recognized that in exceptional circumstances, courts must act in the interest
of the country’s national security to prevent the disclosure of state secrets by excluding privileged evidence
from the case and, in some instances, dismissing the
case entirely. See Totten v. United States, 92 U.S. 105
(1875); see also United States v. Reynolds, 345 U.S. 1
(1953). This appeal presents a narrow but important
question: whether the district court erred in quashing
Abu Zubaydah’s birth name was Zayn al-Abidin Muhammad
Husayn but he is known as Abu Zubaydah in litigation and public
records.
1

3a
the subpoenas after concluding that not all the discovery
sought was subject to the state secrets privilege.
We have jurisdiction pursuant to 28 U.S.C. § 1291,
and we reverse. We agree with the district court that
certain information requested is not privileged because
it is not a state secret that would pose an exceptionally
grave risk to national security. We also agree that the
government’s assertion of the state secrets privilege is
valid over much of the information requested. We conclude, however, that the district court erred in quashing
the subpoenas in toto rather than attempting to disentangle nonprivileged from privileged information.
We have “emphasize[d] that it should be a rare case
when the state secrets doctrine leads to dismissal at the
outset of a case.” Mohamed v. Jeppesen Dataplan,
Inc., 614 F.3d 1070, 1092 (2010) (en banc); see also Reynolds, 345 U.S. at 9-10 (noting that “[ j]udicial control over
the evidence in a case cannot be abdicated to the caprice
of executive officers”). Here, the underlying proceeding is a limited discovery request that can be managed
by the district court, which is obligated “to use its factfinding and other tools to full advantage before it concludes that the rare step of dismissal is justified.” Mohamed, 614 F.3d at 1093. We therefore reverse the
district court’s judgment dismissing Petitioners’ section
1782 application for discovery and remand for further
proceedings. 2
Because the district court granted the motion to quash based on
the state secrets privilege, it did not address the government’s alternative arguments under the Central Intelligence Agency Act,
50 U.S.C. § 3507, and the National Security Act, 50 U.S.C. § 3024(i).
If relevant, the district court may consider these arguments on remand.
2

4a
I.
A.

In late March 2002, Pakistani government authorities, working with the CIA, captured Abu Zubaydah in
Pakistan. At the time, Abu Zubaydah was thought to
be a high-level member of Al-Qa’ida 3 with detailed knowledge of terrorist plans. A 2014 report by the Senate
Select Committee on Intelligence Study on the CIA’s
detention and interrogation program (“Senate Select
Committee Report”) later revealed this characterization
to be erroneous.
In the first four years of his detention, Abu Zubaydah
was held as an enemy combatant and transferred to various secret CIA “dark sites” for interrogation. Journalists, non-governmental organizations, and Polish
government officials have widely reported that one of
those sites was in Poland. In 2015, the European Court
on Human Rights (“ECHR”) found that Abu Zubaydah
was detained at a CIA site in Poland from December
2002 to September 2003.
Numerous sources also confirm that Abu Zubaydah
was subjected to so-called “enhanced interrogation” techniques while detained at these CIA sites. These techniques were proposed and developed by Mitchell and
Jessen, 4 who at that point were independent contractors for the CIA. They worked on “novel interrogation

For consistency, we employ the spelling used by the Senate Select Committee Report in this opinion.
4
Mitchell and Jessen are referred to as “SWIGERT” and “DUNBAR” in the Senate Select Committee Report, and have admitted to
their involvement with the CIA program in a separate lawsuit, Salim
3

5a
methods” intended to break down Abu Zubaydah’s resistance, including the use of insects—to take advantage
of his entomophobia—and mock burial. The details of
Abu Zubaydah’s treatment during this period are uncontroverted: he was persistently and repeatedly waterboarded; he spent hundreds of hours in a “confinement
box,” described as coffin-sized; he was subjected to various combinations of interrogation techniques including
“walling, 5 attention grasps, 6 slapping, facial hold, stress
positions, cramped confinement, white noise and sleep
deprivation”; his food intake was manipulated to minimize the potential of vomiting during waterboarding.
To use colloquial terms, as was suggested by the Senate
Select Committee Report, Abu Zubaydah was tortured.
The ECHR found that some of this torture took place
in Poland. Mitchell and Jessen traveled to the CIA black
site there at least twice to supervise the interrogations.
Declassified CIA cables confirm Mitchell’s and Jessen’s
involvement in Abu Zubaydah’s torture. Abu Zubaydah was eventually transferred to a succession of facilities outside of Poland before arriving in Guantanamo
Bay, where he remains today. Abu Zubaydah has allegedly sustained permanent brain damage and physical
v. Mitchell, No. 2:15-cv-286-JLQ, Answer to Complaint and Affirmative Defenses (E.D. Wash. June 16, 2016) (“Salim”).
5
According to a declassified U.S. Department of Justice Office of
Legal Counsel (“OLC”) memo, “walling” refers to when an individual is firmly pushed against a flexible false wall, hitting the shoulder
blades, to create the sensation of physical impact that is worse than
it is.
6
The same OLC memo describes “attention grasp” to consist of
grasping an individual with both hands, one hand on each side of
the collar opening, in a controlled and quick motion, drawing the
individual toward the interrogator.

6a
impairments, including over 300 seizures in the span of
three years and the loss of his left eye.
In 2010, Abu Zubaydah’s attorneys and certain humanitarian organizations filed a criminal complaint in
Poland on his behalf seeking to hold Polish officials accountable for their complicity in his unlawful detention
and torture. That investigation closed without any
prosecutions or convictions. In 2013, Abu Zubaydah’s
attorneys filed an application with the ECHR alleging
that Poland had violated the Convention for the Protection of Human Rights and Fundamental Rights and
failed to undertake a proper investigation. This resulted in the ECHR’s decision in Case of Husayn (Abu
Zubaydah) v. Poland, No. 7511/13, Eur. Ct. H.R. (2015).
The court found “beyond reasonable doubt” that Abu
Zubaydah was detained in Poland, that “the treatment
to which [he] was subjected by the CIA during his detention in Poland . . . amount[ed] to torture,” and
that Poland had failed to abide by its obligations under
the European Convention on Human Rights. The court
accordingly awarded damages to Abu Zubaydah.
After the ECHR issued its decision—finding, among
other things, that Poland failed to sufficiently investigate human rights violations related to Abu Zubaydah’s
treatment in Poland—Polish authorities reopened their
investigations into the violations, focusing on the culpability of Polish citizens and government officials in Abu
Zubaydah’s detention.
The Polish government requested evidence from the United States through the
Mutual Legal Assistance Treaty (“MLAT”) between the
two countries. The United States denied the Polish government’s request. Subsequently, Polish prosecutors

7a
followed up with Abu Zubaydah’s lawyers to ask for assistance with obtaining evidence necessary to pursue
the prosecution. 7
B.

Abu Zubaydah and his attorney, Margulies, filed an
ex parte application for discovery in the Eastern District of Washington pursuant to 28 U.S.C. § 1782. Section 1782 provides that “[t]he district court of the district in which a person resides or is found may order him
to give his testimony or statement or to produce a document or other thing for use in a proceeding in a foreign
or international tribunal.” Abu Zubaydah and his attorney sought a discovery order subpoenaing Mitchell
and Jessen to produce documents and give deposition
testimony for use in the ongoing criminal investigation
in Poland. 8 They requested that Mitchell and Jessen
provide, among other related items, documents concerning the detention facility in Poland, the identities of
Polish officials involved in the establishment or operation of the detention facility, the use of interrogation
techniques, conditions of confinement and torture of those
being held, and any contracts made between Polish government officials or private persons residing in Poland
and U.S. personnel for use of the property upon which
the detention facilities was located.

Under Polish law, victims of crimes under investigation, like
Abu Zubaydah, have a right to submit evidence through counsel to
aid in the Polish Prosecutor’s Office’s investigation.
8
Mitchell and Jessen co-founded Mitchell, Jessen & Associates,
which is headquartered in Spokane, Washington, and Jessen resides in Spokane. Hence, they both “reside[] or [are] found” in
the relevant district. 28 U.S.C. § 1782.
7

8a
The United States submitted a “Statement of Interest” arguing that the district court should not grant Abu
Zubaydah’s application based on the four factors outlined in Intel Corp. v. Advanced Micro Devices, Inc.,
542 U.S. 241 (2004). 9 The district court evaluated the
section 1782 application under the Intel factors and
found that the Intel factors weighed in favor of granting
the application for discovery. It noted that the government’s concerns regarding privilege and classification of
documents were hypothetical and could be raised at a
later point. The district court granted the application
and Petitioners served the subpoenas on Mitchell and
Jessen.

The four Intel factors are: (1) whether the person from whom
discovery is sought is a participant in the foreign proceeding;
(2) the nature of the foreign tribunal, the character of the proceedings underway abroad and the receptivity of the foreign government to U.S. federal-court assistance; (3) whether the discovery
request is an attempt to circumvent foreign proof-gathering restrictions or other policies of a foreign country or the United
States; and, (4) whether the discovery request is unduly intrusive
or burdensome. Intel, 542 U.S. at 264-65. The third Intel factor
allows the court to consider the potential for abuse of discovery for
use in the foreign court. Id. at 265. “Once the court has determined that such abuses are unlikely,” and grants the section 1782
application, “the ordinary tools of discovery management, including [Federal Rule of Civil Procedure] 26, come into play; and with
objections based on the fact that discovery is being sought for use
in a foreign court cleared away, section 1782 drops out.” Heraeus
Kulzer, GmbH v. Biomet, Inc., 633 F.3d 591, 597 (7th Cir. 2011)
(citing Ecuadorian Plaintiffs v. Chevron Corp., 619 F.3d 373, 37778 (5th Cir. 2010); Weber v. Finker, 554 F.3d 1379, 1384-85 (11th Cir.
2009)). In other words, once a section 1782 application is granted,
the ordinary rules of civil procedure relating to discovery shift into
place.
9

9a
After Mitchell and Jessen entered their appearance
in district court, 10 the U.S. government filed a motion to
intervene and a motion to quash the subpoenas. In
support of the latter motion, the government made three
arguments. First, it argued that the district court lacked
jurisdiction over the case under 28 U.S.C. § 2241(e)(2),
which strips jurisdiction for courts to hear or consider
any nonhabeas action against the United States or its
agents relating to any aspect of the detention, transfer,
treatment, trial or conditions of confinement of a designated enemy combatant outside the provisions of the
Detainee Treatment Act of 2005, 10 U.S.C. § 801. Second, the government argued that the discovery sought
is protected by the state secrets privilege, relying on
two declarations from then-CIA Director, Michael Pompeo. 11 Third, it argued that both the National Security
Act of 1947 and the Central Intelligence Agency Act of
1949 prohibit the discovery sought.
The district court granted the government’s motion
to intervene and motion to quash the subpoenas. The
court rejected the government’s first argument regarding the lack of jurisdiction, noting that the government
offered nothing to establish an agency relationship between Mitchell and Jessen and the United States. The
court then applied the three-part test outlined in Mohamed, 614 F.3d at 1080, to evaluate the government’s

Neither Mitchell nor Jessen opposed the discovery requested
in this case and have taken no position on the issues in this appeal.
11
Pompeo submitted a declaration addressing Petitioners’ section 1782 application and incorporated a prior declaration that he
submitted in the Salim lawsuit.
10

10a
assertion of the state secrets privilege. 12 First, it found
that the government had followed the procedural requirements for invoking the privilege. Second, it concluded that the fact of the CIA’s involvement with a facility in Poland was not a state secret that posed an exceptionally grave risk to national security. The court
agreed, however, that other information, such as the
roles and identities of Polish citizens involved with the
CIA site, is covered by the state secrets privilege.
Third, the court concluded that “[m]eaningful discovery
cannot proceed in this matter without disclosing information that the Government contends is subject to the
state secrets privilege,” and thus it granted the motion
to quash the subpoenas in their entirety and entered
judgment. Abu Zubaydah and Margulies timely appealed.
II.

“We review de novo the interpretation and application of the state secrets doctrine and review for clear error the district court’s underlying factual findings.”
Mohamed, 614 F.3d at 1077 (citing Al-Haramain Islamic Found., Inc. v. Bush, 507 F.3d 1190, 1196 (9th Cir.
2007)).

Although the state secrets doctrine encompasses a complete bar
under Totten, 92 U.S. at 107, and an evidentiary privilege under
Reynolds, 345 U.S. at 7-8, the district court correctly concluded that
the Totten bar does not apply in this case because the very subject
matter of the action—the CIA’s enhanced interrogation program—
is not a state secret. See Mohamed, 614 F.3d at 1085-89 (applying
Reynolds privilege analysis); see also El-Masri v. United States, 479
F.3d 296, 307-10 (4th Cir. 2007) (same).
12

11a
III.

Petitioners argue that the district court erred in
quashing the subpoenas in their entirety based on the
state secrets privilege. The parties essentially disagree over the proper analysis under steps two and three
under Reynolds. 13
A.

Before reviewing the district court’s decision, we provide some brief background on the state secrets privilege. The privilege derives from a common law doctrine that “encompasses a ‘privilege against revealing
military [or state] secrets, a privilege which is well established in the law of evidence.’ ” Mohamed, 614 F.3d
at 1079 (alterations in original) (quoting Reynolds, 345
U.S. at 6-7). “The privilege is not to be lightly invoked.”
Al-Haramain, 507 F.3d at 1196. “A successful assertion of privilege under Reynolds will remove the privileged evidence from the litigation.” Mohamed, 614
F.3d at 1079. “Unlike the Totten bar, a valid claim of
privilege under Reynolds does not automatically require

We are not persuaded by the government’s alternative argument that the district court’s decision can be affirmed as an exercise of discretion to deny section 1782 discovery requests. First,
the district court exercised its discretion to grant the section 1782
application after applying the Intel factors. That order is not on
appeal. Moreover, the order that was appealed was not a discretionary one. The district court concluded that it was required by
the state secrets privilege to quash the subpoenas. The government’s attempt to challenge the district court’s first order seeks to
avoid the discretion expressly given to district courts over section
1782 applications. See Intel, 542 U.S. at 255-61 (rejecting categorical limitations on section 1782’s reach based on the statute’s
text and legislative history giving discretion to the district court).
13

12a
dismissal of the case.” Id. Assertion of the state secrets privilege “will require dismissal [where] it . . .
become[s] apparent during the Reynolds analysis that
the case cannot proceed without privileged evidence, or
that litigating the case to a judgment on the merits
would present an unacceptable risk of disclosing state
secrets.” Id.
The Supreme Court identified and applied the state
secrets privilege in Reynolds, where three estates filed
wrongful-death suits against the government following
the untimely deaths of three civilian observers during a
test flight of a B-29 bomber. 345 U.S. at 3. In discovery, plaintiffs sought production of the Air Force’s official accident investigation report and the statements of
three surviving crew members. Id. The Air Force
refused to produce the materials, citing the need to protect national security and military secrets because the
aircraft and personnel on board “were engaged in a
highly secret mission,” id. at 4, and the material could
reveal information about the “development of highly
technical and secret military equipment,” id. at 5. The
district court ordered the government to produce the
documents in camera so that the court could determine
whether they contained privileged material. When the
government refused, the district court imposed sanctions and ruled against the government on the issue of
negligence. Id. The Court of Appeals affirmed. Id.
The Supreme Court reversed and sustained the government’s assertion of privilege after concluding, “from
all the circumstances of the case, that there [wa]s a reasonable danger that compulsion of the evidence will expose military matters which, in the interest of national

13a
security, should not be divulged.” Id. at 10. In reaching this conclusion, the Court noted “that this is a time
of vigorous preparation for national defense” and that
“air power is one of the most potent weapons in [the
United States’] scheme of defense.” Id. Rather than
dismissing the case, however, the Court noted that it
could be possible for the plaintiffs “to adduce the essential facts as to causation [in support of their tort claims]
without resort to material touching upon military secrets,” and remanded for further proceedings. Id. at
11-12.
Based on Reynolds, we identified three steps for analyzing claims of the state secrets privilege:
First, we must ascertain that the procedural requirements for invoking the state secrets privilege have
been satisfied. Second, we must make an independent determination whether the information is privileged. Finally, the ultimate question to be resolved
is how the matter should proceed in light of the successful privilege claim.
Mohamed, 614 F.3d at 1080 (internal alterations and
quotation marks omitted) (quoting Al-Haramain, 507
F.3d at 1202). The parties do not contest that the government fulfilled the first requirement by filing the declarations from then-CIA Director Pompeo, who formally
asserted the state secrets privilege with specificity in
this case. See Reynolds, 245 U.S. at 7-8 (“There must
be a formal claim of privilege, lodged by the head of the
department which has control over the matter, after actual personal consideration by that officer.”).
We
therefore proceed to the second and third steps of the
Reynolds test.

14a
B.

“When the privilege has been properly invoked, ‘we
must make an independent determination whether the
information is privileged.’ ” Mohamed, 614 F.3d at
1081 (quoting Al-Haramain, 507 F.3d at 1202). “The
court must sustain a claim of privilege when it is satisfied, ‘from all the circumstances of the case, that there
is a reasonable danger that compulsion of the evidence
will expose . . . matters which, in the interest of national security, should not be divulged.’ ” Id. (quoting
Reynolds, 345 U.S. at 10). “The state secrets privilege
has been held to apply to information that would result
in ‘impairment to the nation’s defense capabilities, disclosure of intelligence-gathering methods or capabilities, and disruption of diplomatic relations with foreign
governments, or where disclosure would be inimical to
national security.’ ” Fazaga v. Fed. Bureau of Investigation, 916 F.3d 1202, 1227 (9th Cir. 2019) (quoting
Black v. United States, 62 F.3d 1115, 1118 (8th Cir.
1995)). We have on more than one occasion commented
on the difficulty of defining what constitutes a “state secret.” Id. (noting “the ambiguity . . . at the outset”); Mohamed, 614 F.3d at 1082 (“We do not offer a
detailed definition of what constitutes a state secret.”).
Our guidance on evaluating the need for secrecy has
been contradictory. On the one hand, “we acknowledge the need to defer to the Executive on matters of
foreign policy and national security and surely cannot
legitimately find ourselves second guessing the Executive in this area.” Al-Haramain, 507 F.3d at 1203.
On the other hand, “the state secrets doctrine does not
represent a surrender of judicial control over access to
the courts.” Mohamed, 614 F.3d at 1082 (quoting El-

15a
Masri, 479 F.3d at 312). “Rather, ‘to ensure that the
state secrets privilege is asserted no more frequently
and sweepingly than necessary, it is essential that the
courts continue critically to examine instances of its invocation.” Id. (quoting Ellsberg v. Mitchell, 709 F.2d
51, 58 (D.C. Cir. 1983)). “We take very seriously our
obligation to review the [claim] with a very careful, indeed a skeptical, eye, and not to accept at face value
the government’s claim or justification of privilege.”
Al-Haramain, 507 F.3d at 1203. For instance, “an executive decision to classify the information is insufficient to establish that the information is privileged.”
Mohamed, 614 F.3d at 1082 (citing Ellsberg, 709 F.2d at
57). “Simply saying ‘military secret,’ ‘national security’ or ‘terrorist threat’ or invoking an ethereal fear
that disclosure will threaten our nation is insufficient to
support the privilege.” Al-Haramain, 507 F.3d at
1203.
Here, the government asserts the state secrets privilege over seven categories of information: (1) information that could identify individuals involved in the
CIA detention and interrogation program; (2) information regarding foreign government cooperation with
the CIA; (3) information pertaining to the operation or
location of any clandestine overseas CIA station, base,
or detention facility; (4) information regarding the capture and/or transfer of detainees; (5) intelligence information about detainees and terrorist organizations, including intelligence obtained or discussed in debriefing
or interrogation sessions; (6) information concerning
CIA intelligence sources and methods, as well as specific
intelligence operations; and, (7) information concerning
the CIA’s internal structure and administration.

16a
One of the Pompeo declarations asserts that the discovery sought by Petitioners “would tend to confirm or
deny whether or not [Mitchell and Jessen] have information about these categories as they pertain to whether
or not the CIA conducted detention and interrogation
operations in Poland and/or with the assistance of the
Polish Government.” Disclosure of the existence of
a clandestine intelligence relationship or the extent to
which a foreign government is covertly operating or
sharing intelligence would, according to Pompeo, cause
significant harm to national security because it would:
(1) breach the trust on which the relationship is based;
(2) compromise the CIA’s ability to obtain intelligence
information or secure cooperation in counterterrorism
operations; and (3) engender backlash from foreign governments. Furthermore, Pompeo asserts that the specific locations of CIA stations and information about former detention facilities are generally classified as “SECRET” and “TOP SECRET” respectively because acknowledging the location of covert facilities could endanger the safety of CIA officers and incite backlash
from the host country.
Reviewing the government’s documents, we note that
much of the concern animating the assertion of the state
secret privilege is that harm might result from the government’s disclosure of certain information—in particular, confirming or denying the location of a CIA black
site—rather than a concern that harm might result from
the spread of the information per se. This is not surprising, as substantial aspects of the information that

17a
the government insists are privileged are basically public knowledge. 14 The Pompeo declaration acknowledges that there have been allegations by the media,
nongovernmental organizations, and former Polish government officials of the CIA operating a detention facility in Poland. Pompeo explains that the government
cannot control what former foreign government officials
might choose to say, but that the absence of official confirmation from the CIA is the key to preserving an “important element of doubt about the veracity of the information.” 15
Even if we accept that logic, however, the government fails to explain why discovery here could amount
to such an “official confirmation.” The conclusion that
the existence of a CIA site in Poland is not a secret is
not equivalent to a finding, either by the district court
or this court, that the government has taken any official
We cannot agree with the dissent that Article III judges are “not
in a position” to reach conclusions with publicly available facts. Dissent at 31. Indeed, the dissent’s position appears to be inconsistent
with our essential obligation to review state secrets critically, with a
skeptical eye. See Mohamed, 614 F.3d at 1082 (quoting El-Masri,
479 F.3d at 312); Al-Haramain, 507 F.3d at 1203. We note further
that, in the context of preliminary proceedings such as those here,
we are not called upon to, and do not, render any final decision on
the merits.
15
The district court, we note, did not accept the government’s position, and did “not find convincing the claim that merely acknowledging, or denying, the fact the CIA was involved with a facility in
Poland poses an exceptionally grave risk to national security.” We
need not and do not address that determination because, regardless
whether governmental acknowledgment would implicate national security, as discussed below, nothing about the government’s participation in discovery would constitute governmental acknowledgement or
denial of the site’s existence.
14

18a
position on the existence of such a facility. Nothing in
this opinion should be read to suggest otherwise. As
the district court found, neither Mitchell nor Jessen are
agents of the government. 16 The government has not
contested—and we will not disturb—that finding. See
Mohamed, 614 F.3d at 1077 (noting clear error standard). As private parties, Mitchell’s and Jessen’s disclosures are not equivalent to the United States confirming
or denying anything.
Moreover, in light of the record, we agree with
the district court that disclosure of certain basic facts
would not “cause grave damage to national security.”
Al-Haramain, 507 F.3d at 1195. First, we agree with
the district court and Petitioners that in order to be a
“state secret,” a fact must first be a “secret.” In other
contexts where the state secrets privilege was applied,
the privilege was used to withhold information that was
not publicly accessible. See Mohamed, 614 F.3d at
1087 (“We are precluded from explaining precisely
which matters the privilege covers lest we jeopardize
the secrets we are bound to protect.”); id. at 1095 (Hawkins, J., joined by Schroeder, J., Canby, J., Thomas, J.,
and Paez, J., dissenting) (describing onerous procedure
undertaken to preserve a “ ‘cone of silence’ environment” for us to review the sealed record en banc); AlHaramain, 507 F.3d at 1203 (concluding that the
“Sealed Document is protected by the state secrets privilege” after reviewing it in camera); Kasza v. Browner,
Despite so concluding, the district court inconsistently determined at step three of the Reynolds analysis that the government’s
participation in discovery would constitute implicit governmental
acknowledgment of the program. As discussed herein, see infra
at n.18, we do not share that assessment.
16

19a
133 F.3d 1159, 1170 (9th Cir. 1998) (“Based on our in
camera review of both General Moorman’s and Secretary Widnall’s classified declarations, . . . [w]e are
convinced that release of such information would reasonably endanger national security interests.”). Insofar as the government asserts privilege over the basic
fact that the CIA detained Abu Zubaydah in Poland and
that he was subjected to torture there, this certainly
does not protect the disclosure of secret information, but
rather prevents the discussion of already disclosed information in a particular case.
We note that the discovery request here comes indirectly from current Polish authorities, specifically, prosecutors who have been tasked by the ECHR and the
Polish government to investigate the circumstances surrounding Abu Zubaydah’s detention in Poland. This is
significant for two reasons. First, it reaffirms our conclusion that the fact that the CIA operated in Poland and
possibly collaborated with Polish individuals over Abu
Zubaydah’s detention is not a secret that would harm
national security. Cf. Al-Haramain, 507 F.3d at 1200
(noting how details given through “voluntary disclosures made by various officials” are not state secrets).
Second, it undermines the asserted national security
risks outlined by Pompeo’s declarations, such as breaching trust with the cooperating country or generating
backlash in that country. While we recognize the legitimacy of these concerns, they appear less of a concern
when the other country—here, Poland—is investigating
criminal liability of the subject matter involved in this
discovery application.

20a
Last, we emphasize the importance of striking “an
appropriate balance . . . between protecting national
security matters and preserving an open court system.”
Id. at 1203. While it is essential to guard the courts from
becoming conduits for undermining the executive
branch’s control over information related to national security, these concerns do not apply when the alleged
state secret is no secret at all, but rather a matter that
is sensitive or embarrassing to the government. In
other words, the rationale behind the state secrets privilege is to protect legitimate government interests, not
to shield the government from uncomfortable facts that
may be disclosed or discussed in litigation. Protecting
the former is an unfortunate necessity in our complicated world of national and international affairs. Protecting the latter is inconsistent with the principle of an
independent judiciary.
Reviewing Petitioners’ request for documents, we
agree with the district court that much, although not all,
of the information requested by Petitioners is covered
by the state secrets privilege. For instance, documents,
memoranda, and correspondence about the identities and
roles of foreign individuals involved with the detention
facility, operational details about the facility, and any
contracts made with Polish government officials or private persons residing in Poland might implicate the
CIA’s intelligence gathering efforts. As explained in the
Pompeo declaration, disclosure of the identities of foreign nationals who work with the CIA risks damaging
the intelligence relationship and compromising current
and future counterterrorism operations.
Nonetheless, we also agree with the district court
that a subset of information is not—at least in broad

21a
strokes—a state secret, namely: the fact that the CIA
operated a detention facility in Poland in the early
2000s; information about the use of interrogation techniques and conditions of confinement in that detention
facility; and details of Abu Zubaydah’s treatment there.
These facts have been in the public eye for some years
now, and we find no reason to believe that Mitchell and
Jessen testifying about these facts “will expose . . .
matters which, in the interest of national security,
should not be divulged.” Reynolds, 345 U.S. at 10.
We therefore reject the government’s blanket assertion
of state secrets privilege over everything in Petitioners’
discovery request. See Fazaga, 1202 F.3d at 1228 (reiterating “caution[] that courts should work ‘to ensure
that the state secrets privilege is asserted no more frequently and sweepingly than necessary.’ ” (quoting Mohamed, 614 F.3d at 1082)).
C.

At step three of the Reynolds analysis, we face the
more difficult task of determining how the matter
should proceed in light of a successful claim of privilege. 17 Mohamed, 614 F.3d at 1082. We have held
As the dissent notes, our main disagreement is at the third Reynolds step. Dissent at 30. The dissent’s concern about “walking
close” to “the line of actual state secrets” simply does not reflect the
test from Mohamed, which requires that nonsensitive information
be released “whenever possible.” Compare Dissent at 31, with Mohamed, 614 F.3d at 1087-89. The dissent also asserts, without any
support, that the Reynolds step two analysis must also take into consideration the fact that the information sought here is ultimately
destined for a foreign tribunal in Poland. Dissent at 34. A state
secret, however, is a state secret in any forum, domestic or foreign.
The crux of the question is whether “there is a reasonable danger that
compulsion of the evidence will expose . . . matters which, in the
17

22a
that, “whenever possible, sensitive information must be
disentangled from nonsensitive information to allow for
release of the latter.” Id. (original alterations omitted)
(quoting Kasza, 133 F.3d at 1166; Ellsberg, 709 F.2d at
57). There are three limited circumstances in which a
successful claim of privilege requires outright termination of the case: (1) where the plaintiff cannot prove
the prima facie elements of the claim with nonprivileged
evidence; (2) where the privilege deprives that defendant of information that would have otherwise given the
defendant a valid defense to the claim; or (3) where the
claims and defenses might theoretically be established
without relying on the privileged evidence, but “it may
be impossible to proceed with the litigation because—
privileged evidence being inseparable from nonprivileged information that will be necessary to the claims or
defenses—litigating the case to a judgment on the merits would present an unacceptable risk of disclosing
state secrets.” Id. at 1083.
The district court properly identified the third circumstance as the only one potentially applicable to a discovery proceeding such as this case. We agree with
Petitioners, however, that it is not impossible to separate secret information, and that the district court was

interest of national security, should not be divulged.” Reynolds,
345 U.S. at 10. Moreover, the dissent’s analysis of Reynolds fails
to consider the district court’s authority to decide whether discovery
should be provided to Petitioners in the first instance. Only then
would Petitioners be able to provide any information to a foreign tribunal.

23a
too quick to quash the subpoenas and dismiss the case
in its entirety. 18
Unlike our prior cases, this case is a pure discovery
matter where there are no claims to prove or defenses
to assert. 19 See Mohamed, 614 F.3d at 1075, 1093 (dismissing suit against a U.S. corporation under the Alien

The district court determined that the government’s acknowledgment of the existence of a CIA facility in Poland would not implicate a state secret, a conclusion we need not address nor that we
necessarily share. See supra at n.15. The district court nonetheless proceeded to find dismissal appropriate under Reynolds step
three because, given that Petitioners made clear that they seek information about Poland, “the Government participating could be
viewed as implicit confirmation of operation of the Program in Poland.” As mentioned above, we reject that determination. See supra at n.16. The district court’s inconsistent and erroneous view of
the effect of the government’s participation in discovery was fundamental to the court’s conclusion that this case should be dismissed
outright. The district court found that implicit government acknowledgment, although “seemingly innocuous,” was intertwined with
state secrets. As we already noted, however, nothing about the government’s participation in this case would constitute official acknowledgment, implicit or otherwise. Thus, the district court’s Reynolds
step three conclusion was based entirely upon a faulty predicate.
19
For this reason, the dissent’s reliance on Mohamed, AlHaramain, and Kasza is off-base. In those cases, plaintiffs sought
information that belonged to what the courts deemed a “classified
mosaic.” Kasza, 133 F.3d at 1166. The courts were able to reach
that conclusion because they all underwent the process of reviewing
the contested material to determine that there was privileged information that could not be disentangled. See Mohamed, 614 F.3d at
1095; Al-Haramain, 507 F.3d at 1203; Kasza, 133 F.3d at 1170.
That was an essential predicate to the courts’ dismissal at step three
of the Reynolds analysis. See, e.g., Mohamed, 614 F.3d at 1087
(“We have thoroughly considered plaintiffs’ claims, several possible
defenses and the prospective path of this litigation. We also have
18

24a
Tort Statute based on its alleged involvement in the CIA
extraordinary rendition program); Al-Haramain, 507
F.3d at 1205 (dismissing lawsuit against the United
States because plaintiffs could not show standing without privileged document); Kasza, 133 F.3d at 1162-63
(affirming dismissal of citizen suits against the U.S. Air
Force and Environmental Protection agency). Section
1782 provides the district court discretion to order an
individual to give deposition testimony or produce documents for use in a foreign proceeding provided it does
not violate “any legally applicable privilege.” 28 U.S.C.
§ 1782(a). The government does not challenge the district court’s exercise of that discretion or application of
the Intel factors. See supra at n.13. By the terms of
the statute, Petitioners can pursue any nonprivileged
discovery within the parameters set by the district
court. 20

carefully and skeptically reviewed the government’s classified submissions . . . We rely heavily on these submissions, which describe the state secrets implicated here, the harm to national security that the government believes would result from explicit or implicit disclosure and the reasons why, in the government’s view, further litigation would risk that disclosure.”).
Conversely, here, neither the district court nor we have had any
occasion to review the contested material to reach that threshold
question. Given the limited factual record, the dissent repeats the
same error that the district court made by assuming the truth of the
government’s assertions—that it would not be possible to disentangle the privileged from nonprivileged—without first invoking available discovery tools as required by Mohamed. See 614 F.3d at
1089.
20
We agree with Petitioners that, to the extent the district court
denied discovery because disclosure of some information “would not
seem to aid the Polish investigation,” the district court erred by im-

25a
Moreover, the record suggests that Petitioners can
obtain nonprivileged information from Mitchell and
Jessen. At the district court, Petitioners argued:
[W]e are here in order to understand the story
around [Abu Zubaydah’s claims in Poland] . . .
You know, what was the narrative, what sort of treatment was Mr. Zubaydah subjected to, what was the
feeding regime, how was he held, what medical care
was he given, and of course, yes, we want to know if
locals were involved in that and to what extent.
. . .
Now, ideally, Your Honor, because we think that
these are not state secrets at this point in time, we
would prefer that Mitchell and Jessen be permitted
to testify as to the identities of people and where it
occurred. But the prosecutor already knows where
the events occurred and my suspicion is he has a good
idea, although I’m not privy to the specifics of his investigation, of who, you know, who his targets are.
Even if Mitchell and Jessen are restricted from disclosing state secrets such as the identities of individuals involved with the detention facility, the non-secret information in their possession could provide context to
Polish prosecutors or corroborate prosecutors’ independent investigations.
More importantly, we conclude that the district court
did not adequately attempt to disentangle the privileged

posing an extraneous requirement upon Petitioners. Whether discoverable information may or may not be “useful” in foreign proceedings has no bearing on whether the information is privileged.

26a
from nonprivileged information. 21 As we noted in Mohamed, “the standards for peremptory dismissal are
very high and it is the district court’s role to use its factfinding and other tools to full advantage before it concludes that the rare step of dismissal is justified.” 614
F.3d at 1092-93; see also Reynolds, 345 U.S. at 11-12 (remanding for further proceedings where plaintiffs potentially could pursue their tort action without using material touching upon military secrets); cf. Heraeus, 633
F.3d at 597 (noting that once the district court grants a
section 1782 application, “the ordinary tools of discovery
management . . . come into play”).
Mitchell and Jessen have already provided nonprivileged information similar to that sought here in the
Salim lawsuit before the district court, illustrating the
viability of this disentanglement. Excerpts of those
depositions were included in the record and reflect how
depositions could proceed in this case, such as with the
use of code names and pseudonyms, where appropriate. 22 While this no doubt imposes a burden on the government to participate in discovery and object, where
See supra at n.18. This is an essential point that the dissent overlooks: where Reynolds privilege is successfully asserted at steps one
and two, the default at step three is nonetheless to “whenever possible . . . disentangle[] [the sensitive information] from nonsensitive information to allow for the release of the latter.” Kasza, 133
F.3d at 1166 (quoting Ellsberg, 709 F.2d at 57); see also Mohamed,
614 F.3d at 1089 (“Dismissal at the pleading stage under Reynolds
is a drastic result and should not be readily granted.”). The dissent
would flip the default to dismissal, unless Petitioners met a newly imposed burden to demonstrate a specific plan for disentanglement.
22
The dissent attempts to distinguish the situation in Salim and
faults Petitioners for not presenting a viable disentanglement plan
to the district court. Dissent at 32-33. Again, this disregards the
21

27a
appropriate, 23 we have stressed that cases should be
dismissed only “in the[] rare circumstances” that the
district court is not able to employ protective procedures to prevent disclosure of state secrets.
Mohamed, 614 F.3d at 1089. We are not convinced that
those rare circumstances exist here. On remand, the
district court may use the Pompeo declarations as a
guide while employing tools such as in camera review,
protective orders, and restrictions on testimony, see id.,
in tailoring the scope of Mitchell’s and Jessen’s deposition and the documents they may be required to produce.
IV.

We have grappled with the state secrets privilege on
only rare occasions. Given that the district court had
only Kasza, Al-Haramain and Mohamed as guides in
conducting its Reynolds analysis, we can understand
why the district court was so quick to dismiss the proceedings at the third step. The court’s hasty dismissal,
however, overlooked our “special burden to assure
. . . that an appropriate balance is struck between
protecting national security matters and preserving an
open court system,” Mohamed, 614 F.3d at 1081 (quoting Al-Haramain, 507 F.3d at 1203).
Our holding is a limited one: if, upon reviewing disputed discovery and meaningfully engaging the panoply
of tools at its disposal, the district court determines that
fact that the district court never engaged in any disentanglement
process or assessed what protective measures could be utilized to
accomplish disentanglement.
23
Eight U.S. government attorneys or experts were present at
the depositions of Mitchell and Jessen in Salim to ensure that nothing confidential or privileged would be disclosed.

28a
it is not possible to disentangle the privileged from nonprivileged, it may again conclude that dismissal is appropriate at step three of the Reynolds analysis. However, the district court may not skip directly to dismissal
without doing more. “[A]s judges, we strive to honor
all of these principles [of justice, transparency, accountability and national security],” and while “there are
times when exceptional circumstances create an irreconcilable conflict between them,” id. at 1073—on the
limited record before us, this is not one of those times.
The world has moved on since we discussed the state
secrets privilege in Mohamed. In the near decade that
has passed, we have engaged in a public debate over the
CIA’s conduct during the early years of the war on terror. The district court correctly recognized that the
state secrets privilege did not cover all the discovery
sought by Petitioners, but failed to recognize that complete dismissal based on the state secrets privilege is reserved only for “rare cases.” Id. at 1092.
REVERSED and REMANDED for further proceed-

ings.

29a
GOULD, Circuit Judge, dissenting:
I respectfully dissent. The majority jeopardizes
critical national security concerns in the hope that the
district court will be able to segregate secret information from public information that could be discovered. In this case, I would defer to the view of thenCIA Director and now Secretary of State Michael Pompeo that the disclosure of secret information in this proceeding “reasonably could be expected to cause serious,
and in many instances, exceptionally grave damage to
U.S. national security.”
I

A major source of my disagreement with the majority
concerns Section III.C of the opinion, with its analysis
of step three of the United States v. Reynolds test.
The majority and I agree with the district court that information about foreign nationals cooperating with the
CIA, “operational details about the facility,” and details
about Poland’s intelligence cooperation with the CIA are
subject to the state secrets privilege. We part ways with
respect to how to proceed with carving this kind of information out of Petitioners’ broad discovery requests.
Our circuit has previously contemplated a situation in
which, in the face of the government’s successful claim
of state secrets privilege, “it may be impossible to proceed with the litigation because—privileged evidence
being inseparable from nonprivileged information . . .
—litigating the case . . . would present an unacceptable
risk of disclosing state secrets.” Mohamed v. Jeppesen
Dataplan, Inc., 614 F.3d 1070, 1083 (9th Cir. 2010) (en
banc). I would hold that this is such a proceeding and
affirm the district court.

30a
I also note that, while step three is a major concern
in dissent, I am not in a position as an Article III judge
to make a conclusion that it is agreed that Abu Zubaydah was detained and tortured in Poland. Doubtless
there is much media comment and some reasoning of the
European Court of Human Rights that looked at this
matter suggesting that conclusion. But while the District Court findings suggest that there was some facility
in Poland, I do not read the District Court findings to
acknowledge that Abu Zubaydah was in fact tortured,
and the definition of torture was highly disputed in our
country and not ultimately decided by the U.S. Supreme
Court in the context of this case. For purposes of my
dissenting analysis, it is sufficient if at step three of the
Reynolds’ test it appears that walking close to the line
of actual state secrets may result in someone overstepping that line to the detriment of the United States. I
would not need to go further than that to accept the position of the CIA in its intervenor role in this case that
the discovery should not proceed.
The majority remands this case so that Petitioners
can pursue details about Abu Zubaydah’s treatment that
it believes are no longer secret, tasking the district court
with disentangling that information from closely related
topics that are indisputably subject to the state secrets
privilege. The majority opinion characterizes this remaining information as information that Petitioners
could provide as part of a “context to Polish prosecutors” under § 1782. However, our circuit has recognized that even otherwise innocuous information that
provides a more coherent and complete narrative should
not be produced where it may risk exposing a broader
picture. See Kasza v. Browner, 133 F.3d 1159, 1166

31a
(9th Cir. 1998) (holding that “if seemingly innocuous information is part of a classified mosaic, the state secrets
privilege may be invoked to bar its disclosure and the
court cannot order the government to disentangle this
information from other classified information”). This
is the risk presented by the residual information that
Petitioners will seek on remand. In combination with
the circumstances of the proceeding and facts already
made public, an attempt to disentangle the details of
Abu Zubaydah’s treatment in Poland could expose a
broader mosaic of clandestine “intelligence activities,
sources, or methods.” Mohamed, 614 F.3d at 1086.
The majority recognizes that Petitioners’ discovery
requests could potentially pose a “risk of disclosing state
secrets” such as details about the CIA’s involvement
with locations, individuals, and governments overseas
because this kind of information may be closely tied to
nonprivileged information. Id. at 1083. The majority
responds to this concern by advising that “depositions
could proceed in this case, with the use of code names
and pseudonyms” in order to protect privileged details
of CIA operations. Code names and pseudonyms had
been used in a prior lawsuit to enable Mitchell and
Jessen to be deposed without revealing sensitive information about a CIA black site.
But the district court judge in this case, who also
heard that prior lawsuit, understood exactly why those
tools would be ineffective in this circumstance. Because the entire premise of the proceeding and the basis
for our jurisdiction concerns Polish prosecutorial efforts, the district court was correct to reason that
“[a]llowing the matter to proceed with a code word, such

32a
as ‘detention site blue’ to replace Poland seems disingenuous.” As the government argued, “regardless of
what pseudonyms or fictitious words [Petitioners] would
propose to use as a substitute, there’s no escaping the
fact that everything [they are] asking would relate to allegations about things that occurred in Poland, people
that were there, [and] activities that allegedly occurred
there.” Like the approach of the district court in AlHaramain, the majority’s instruction to use code names
opens the door to secret information being “revealed
through reconstruct[ion]” even if it is not directly produced. Al-Haramain Islamic Found., Inc. v. Bush,
507 F.3d 1190, 1204 (9th Cir. 2007). The Al-Haramain
court rejected this sort of approach as the “worst of both
world[s].” Id. Petitioners have not demonstrated
that the use of code words could meaningfully restrict
the information ultimately made public through these
discovery requests, and the majority should not, therefore, suggest that national security would be protected
by their use.
In brief, although the majority is right to emphasize
our “special burden to assure . . . that an appropriate balance is struck between protecting national security matters and preserving an open court system,” the
majority does not recognize some of the ways in which
this particular case presents unique challenges for step
three of the Reynolds analysis. Mohamed, 614 F.3d at
1081. Because of the circumstances presented by a
§ 1782 proceeding, the information Petitioners seek is
inextricably linked with particular intelligence missions
and particular foreign intelligence contacts. Details
about “the use of interrogation techniques and conditions of confinement in that detention facility . . .
[and] Abu Zubaydah’s treatment there” will inevitably

33a
be placed in the context of a Polish prosecution seeking
to discover aspects of the CIA’s presence in Poland and
any foreign nationals working with the CIA there, topics
the majority recognizes to be privileged. Without a
more specific and plausible plan for obtaining that nonprivileged information and not risking the exposure of a
broader picture of national security material, I would
defer to then-Director Pompeo’s assessment of the risks
presented in allowing the discovery proceeding to go
forward. For that reason, I must respectfully dissent
from the majority’s application of step three of the
United States v. Reynolds test. These concerns apply
to any case in which the Reynolds test is applied and
step three of that test must be addressed.
II

Also, there are aspects of this case peculiar to the
context of § 1782 and consideration of the Reynolds test
when the sought information will be produced for a foreign country under § 1782. I find it very troubling that
the majority’s analysis of the extent of the Reynolds
privilege in section III.B of the opinion does not acknowledge and evaluate the consequences of the fact that the
information sought in a discovery proceeding here under § 1782 is ultimately destined for a foreign tribunal
in Poland. Determining the extent of the state secrets
privilege is a task that always aims at assuring “that an
appropriate balance is struck between protecting national security matters and preserving an open court
system.” Mohamed v. Jeppesen Dataplan, Inc., 614
F.3d 1070, 1081 (9th Cir. 2010) (en banc) (citing AlHaramain Islamic Found., Inc. v. Bush, 507 F.3d 1190,
1203 (9th Cir. 2007)). Reynolds itself contemplated
balancing the legitimate rights of survivors to sue about

34a
the deaths of their loved ones against concerns of potential harm from disclosing military secrets. See United
States v. Reynolds, 345 U.S. 1, 9 (1953) (holding that the
state secrets privilege is guided by a “formula of compromise”). But how is that balance to be struck here
where the information is sought for potential prosecutions in Poland of Polish citizens who may have worked
in Poland with the Respondents?
I would hold that the Reynolds balance should recognize that information produced in domestic proceedings
remains under the supervision of the United States
court system in a way that information produced in discovery for overseas tribunals does not. Reynolds makes
clear that it is our domestic national security concerns
that create a privilege against disclosure of information
that may harm our country. Id. at 10. This country’s
judicial system stands to gain little from providing information to Polish prosecutors, while it is this country’s
national security that is being risked. Although it is
true that § 1782 authorizes discovery for the benefit of
foreign proceedings, it is also true that the Reynolds
privilege requires a balancing test that can take into account that the sought discovery will be shipped overseas
for the benefit of another country’s judicial system, and
at that point, totally out of control of a domestic court.
III

For the reasons set forth above, I respectfully dissent.

35a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WASHINGTON

No. 2:17-CV-0171-JLQ
IN RE APPLICATION OF ZAYN AL-ABIDIN MUHAMMAD
HUSAYN (ABU ZUBAYDAH) AND JOSEPH MARGULIES,
PETITIONERS

[Filed:

Feb. 21, 2018]

ORDER RE: MOTION TO QUASH
AND MOTION TO INTERVENE

BEFORE THE COURT is the Motion to Intervene
(ECF No. 29) and Motion to Quash (ECF No. 30) filed
by the United States of America (hereafter “Government”). Petitioners filed a Response (ECF No. 31) to
the Motion to Quash, but no response to the Motion to
Intervene was filed. The court heard telephonic oral
argument on November 28, 2017. Andrew Warden appeared for the Government. John Chamberlain, David
Klein, and Jerry Moberg represented the Petitioners.
Chris Tompkins appeared for Respondents James
Mitchell and John Jessen.
I.

Background and Procedural History

On May 22, 2017, Petitioners Zayn Al-Abidin Muhammad Husayn (“Abu Zubaydah”) and Joseph Margulies filed an “Ex Parte Application for Discovery” (ECF
No. 1) pursuant to 28 U.S.C. § 1782, requesting this

36a
court to issue subpoenas to James Elmer Mitchell and
John Jessen (collectively “Respondents”) to produce
documents and give testimony for use in an ongoing
criminal investigation in Krakow, Poland. Although
denominated “ex parte” the Application stated advance
notice and a copy of the Application was provided to
counsel for Mitchell and Jessen. (ECF No. 1, p. 2).
Petitioner Abu Zubaydah is allegedly detained at
Guantanamo Bay, Cuba. Petitioner Joseph Margulies
is his attorney. Zubaydah alleges he was detained by
the United States Government in March 2002, and has
been in U.S. custody ever since. (ECF No. 1, p. 3-4).
Relevant to this action, Zubaydah alleges he was detained at various CIA black sites, including at “Detention Site Blue” in Poland, from December 2002 to September 2003. (ECF No. 1, p. 6). Petitioners allege
there is an ongoing criminal investigation in Poland into
Polish official’s alleged complicity in claimed unlawful
detention and torture of Zubaydah. (ECF No. 1, p. 67). Specifically, Petitioners state: “The Polish criminal investigation is charged with examining whether
Polish officials violated domestic law by opening, operating, and conspiring with the United States to detain
and mistreat prisoners, including Abu Zubaydah.” (Id.
at 7). Zubaydah alleges he has the right to submit evidence in that matter and claims he has been invited by
the Polish prosecutor to do so.
On May 31, 2017, the Government filed a Notice of
Potential Participation (ECF No. 7) and requested 30
days to evaluate the matter and determine whether to
file a Statement of Interest. On June 30, 2017, the Government filed a Statement of Interest (ECF No. 11)

37a
wherein it opposed Petitioners’ Application for a Discovery Order pursuant to 28 U.S.C. § 1782. On July 21,
2017, Petitioners filed a Response (ECF No. 16) to the
Government’s Statement of Interest. Thereafter, on
August 4, 2017, Petitioners filed a “Motion for Leave to
Serve Subpoenas, or, in the Alternative, to Set Hearing
Date.” (ECF No. 19). The Motion for Leave argued
issuance of the subpoenas is the “beginning of a process”
and any objections are properly raised via motion to
quash after issuance of the subpoena.
The court granted the Application for Discovery on
September 7, 2017. (ECF No. 23). A Notice of Appearance (ECF No. 25) on behalf of Respondents was
filed on October 16, 2017, but Respondents did not challenge the Application for Discovery nor did they file a
motion to quash. The court issued an Order requiring
any motion to quash or for protective order be filed no
later than October 25, 2017. (ECF No. 28). The Government filed a Motion to Intervene and Motion to
Quash on October 24, 2017. The Motion to Quash asserts the state secrets privilege.
II.

Discussion
A.

Motion to Intervene—The Government asserts

the right to intervene in this matter pursuant to Fed. R.
Civ. P. 24(a). Petitioners have filed a response to the
Motion to Quash, but have not filed a response to the
Motion to Intervene. Failure to file a response may be
deemed consent to the entry of an adverse order. Local
Rule 7.1(d). The court has reviewed the Motion and determined the Government has met the requirements for
intervention. See Mohamed v. Jeppesen Dataplan, 539
F. Supp. 2d 1128, 1133 (N.D. Cal. 2008). The Motion to
Intervene (ECF No. 29) is GRANTED.

38a
B.

Motion to Quash—The Government advances

three arguments: 1) the court lacks subject matter jurisdiction due to 28 U.S.C. § 2241(e)(2), the Military
Commissions Act; 2) the state secrets privilege bars the
requested discovery; and 3) the CIA Act and NSA Act
protect disclosure of the requested information. Petitioners contest all these assertions.
1. The Military Commissions Act—The relevant
statutory provision, 28 U.S.C. 2241(e)(2) provides:

(2) Except as provided in paragraphs (2) and (3) of
section 1005(e) of the Detainee Treatment Act of 2005
(10 U.S.C. 801 note), no court, justice, or judge shall
have jurisdiction to hear or consider any other action
against the United States or its agents relating to any
aspect of the detention, transfer, treatment, trial, or
conditions of confinement of an alien who is or was
detained by the United States and has been determined by the United States to have been properly detained as an enemy combatant or is awaiting such determination.
The Ninth Circuit Court of Appeals has established a
five element test for determining whether the court lacks
jurisdiction under the MCA: 1) the action is against the
“United States or its agents”; 2) the action relates to
“any aspect of the detention, transfer, treatment, trial
or conditions of confinement of an alien who is or was
detained by the United States”; 3) the action relates to
an alien who was “determined by the United States to
have been properly detained as an enemy combatant” or
an alien awaiting such a determination; 4) the action is
other than an application for writ of habeas corpus; and
5) the action does not qualify for an exception under the

39a
Detainee Treatment Act.
990, 995 (9th Cir. 2013).

Hamad v. Gates, 732 F.3d

The Government argues the MCA applies and strips
the court of jurisdiction. Petitioners argue the MCA
does not apply for three reasons: 1) this is a nonadversarial proceeding and not an “action” as contemplated by the MCA; 2) the action is not against the
United States or its agents, as the Government has not
established Mitchell and Jessen are “agents”; and 3) the
Government has not proven that either Petitioner is an
“enemy combatant.” (ECF No. 31, p. 6-7).
The Government’s argument the court lacks jurisdiction is asserted in a short and limited manner. The Government devotes just a page and a half of its 25-page
brief to the jurisdictional argument, which if accepted,
would be dispositive. Counsel for the Government, Mr.
Warden, was also counsel in Salim v. Mitchell, 15-286JLQ, and is aware a similar jurisdictional argument was
advanced in Salim. The Government is aware the court
rejected the argument in Salim for two reasons: 1) Defendants in Salim did not establish Mr. Mitchell and Mr.
Jessen were “agents of the United States”; and 2) Defendants had not established Plaintiffs were “enemy
combatants.” (ECF No. 135 in Case No. 15-CV-286JLQ). Petitioners herein argue the Government offers
nothing to establish an agency relationship between
Mitchell and Jessen and the United States.
The MCA does not deprive the court of jurisdiction
over this matter. The court rejects Petitioners’ argument this legal proceeding is not an “action”, but the
court does agree it is not “against the United States or
its agents.” The United States was not named in this
action, and is not a respondent to the subpoenas. The

40a
court, in Salim v. Mitchell, 15-286-JLQ, previously analyzed the agency issue and found an agency relationship
between Mitchell and Jessen and the United States was
not established. The determination in Salim was based
on a more fulsome evidentiary record than has been presented in this matter.
The Government, as the party asserting agency, has
the burden of establishing it. See Atrium of Princeton
v. NLRB, 684 F.3d 1310, 1315 (D.C. Cir. 2012) (“The
party asserting that a relationship of agency exists generally has the burden in litigation of establishing its existence”); and Karl Rove & Co. v. Thornburgh, 39 F.3d
1273, 1296 (5th Cir. 1994) (“Agency is never to be presumed; it must be shown affirmatively.”). In Salim the
court discussed how the contracts between the CIA and
Mitchell and Jessen referred to Mitchell and Jessen as
“independent contractors.” Defendants are referred to
as “independent contractors” in their contracts with the
Government and not as “agents”. (For more detailed
discussion see court’s Order of January 27, 2017 at ECF
No. 135 in Case No. 15-286). However, “whether a relationship is characterized as an agency in an agreement
between parties or in the context of the industry or popular usage is not controlling.” Restatement (Third) of
Agency § 1.02 (2006). Rather, “agency”, as defined at
common law, “posits a consensual relationship in which
one person, to one degree or another or respect or another, acts as a representative of or otherwise acts on
behalf of another person with power to affect the legal
rights and duties of the other person.” Id. at § 1.01,
Comment (c). The Restatement states “the common
term ‘independent contractor’ is equivocal in meaning
and confusing in usage because some termed independent contractors are agents while others are nonagent

41a
service providers.” Id. The Ninth Circuit, albeit in a
different context, has agreed the term is equivocal:
“Unlike employees, independent contractors are not ordinarily agents.” United States v. Bonds, 608 F.3d 495,
505 (9th Cir. 2010). However, independent contractor
status “does not preclude a finding the speaker is also
an agent for some purposes.” Id.
The MCA does not strip the court of subject matter
jurisdiction over this proceeding concerning an application for discovery under 28 U.S.C. § 1782. This matter
was not filed “against” the United States. The Government has not established Mitchell and Jessen are or
were agents of the United States, and even as to “enemy
combatant” status the record is sparse. Although it
may be commonly known that Abu Zubaydah has been
categorized as an “enemy combatant,” Petitioners pointed
out in their Response the Government had failed to provide such evidence. (ECF No. 31, p. 7). The Government then belatedly filed additional factual material
with its Reply brief supporting the assertion that Abu
Zubaydah is an “enemy combatant.” It is generally not
appropriate to introduce new factual material with a reply brief. For all the aforesaid reasons, the Government’s argument the court lacks jurisdiction is rejected.
2.

The State Secrets Privilege—The Government

argues the court should quash the subpoenas and issue
a protective order prohibiting the requested depositions
and all document discovery. (ECF No. 30, p. 7). The
Government argues the requested discovery is “predicated on a singular allegation that the United States can
neither confirm nor deny without risking significant
harm to national security—that is, whether or not the
CIA conducted detention and interrogation operations

42a
in Poland or with the assistance of the Polish Government.” (Id.). The Government contends the “entire
line of inquiry is prohibited” (Id.) and the discovery
must be precluded in its entirety.
Petitioners counter stating the discovery need not be
precluded in its entirety. Petitioners argue the Government has already allowed Mitchell and Jessen to testify and produce evidence in Salim v. Mitchell, and they
did so with reference to “Detention Site Cobalt” without
acknowledging its location, even though it is widely believed to have been in Afghanistan. (ECF No. 31, p.
22). Similarly, Petitioners argue Mitchell and Jessen
can testify in regard to “Detention Site Blue” without
testifying to the location of the site or the cooperation of
any foreign government. Petitioners contend: “Valuable discovery may proceed without requiring Respondents to confirm either the location of any particular site,
or the cooperation of any particular government.”
(ECF No. 31, p. 16).
The state secrets doctrine encompasses two applications: 1) complete bar to adjudication of claims premised on state secrets (the ‘Totten bar’, Totten v. United
States, 92 U.S. 105 (1876)); and 2) an evidentiary privilege that excludes privileged evidence from the case and
may result in dismissal of a claim (the ‘Reynolds privilege’, United States v. Reynolds, 345 U.S. 1 (1953)).
The Totten bar does not apply in this case. This is not
an action where “the very subject matter of the action is
a matter of state secret.” Mohamed v. Jeppesen Dataplan, Inc., 614 F.3d 1070, 1078 (9th Cir. 2010) (en banc).
In fact, Mohamed, dealt with the CIA’s rendition, detention, and interrogation program and applied the Reynolds privilege analysis. Similarly, in El-Masri v. United

43a
States, 479 F.3d 296 (4th Cir. 2007), plaintiff claimed he
was rendered, detained, and interrogated by the CIA in
2004. The court applied a Reynolds analysis rather
than the Totten bar. In both El-Masri and Mohamed
the court found application of the Reynolds privilege required dismissal of the case.
Both El-Masri and Mohamed were opinions issued
years before the Senate Select Committee on Intelligence (“SSCI”) issued its report in 2014 on the CIA enhanced interrogation program. In Mohamed the Ninth
Circuit specifically stated: “we do not hold that the existence of the extraordinary rendition program is itself
a state secret.” Id. at 1090. The Circuit also stated,
“partial disclosure of the existence and even some aspects of the extraordinary rendition program does not
preclude other details from remaining state secrets if
their disclosure would risk grave harm to national security.” Id. at 1090. The Totten bar does not apply.
(a) The Reynolds Privilege—In the case United
States v. Reynolds, 345 U.S. 1 (1953), the plaintiffs were
the widows of three civilian observers who died in an airplane crash where onboard the aircraft the military was
testing “secret electronic equipment.” In discovery,
Plaintiffs in Reynolds sought an Air Force official accident report and the statements of three survivors. The
Government asserted a national security interest in not
disclosing the information. The court stated: “The
privilege belongs to the Government and must be asserted by it; it can neither be claimed nor waived by a
private party. It is not to be lightly invoked.” Id. at
532.

44a
The court stated in determining if the privilege applies: “Judicial control over the evidence in a case cannot be abdicated to the caprice of executive officers.
Yet we will not go so far as to say that the court may
automatically require a complete disclosure to the judge
before the claim of privilege will be accepted in any
case.” Id. at 9-10. If there is “a reasonable danger that
compulsion of the evidence will expose military matters
which, in the interest of national security, should not be
divulged,” then the privilege applies. Id. at 10. The
greater the showing of necessity for the information will
determine how far the court must probe in determining
if the privilege applies, “but even the most compelling
necessity cannot overcome the claim of privilege if the
court is ultimately satisfied that military secrets are at
stake.” Id. at 11. In Reynolds, the court remanded
for further proceedings because “it should be possible
for respondents to adduce the essential facts as to causation without resort to material touching upon military
secrets.” Id.
(b) Mohamed v. Jeppesen Dataplan, Inc., 614 F.3d

1070, 1077 (9th Cir. 2010) (en banc), is the leading authority on the state secrets doctrine in the Ninth Circuit
and application of the Reynolds privilege. It sets forth
a three-step analysis:
1) First, the court must “ascertain that the procedural requirements for invoking the state secrets privilege have been satisfied”;
2) Second, the court must make an independent determination whether the information is privileged; and

45a
3) Third, the court must determine how the matter
will proceed in light of a successful privilege claim. Id.
at 1080.
The procedural component requires “a formal claim
of privilege, lodged by the head of the department which
has control over the matter, after actual personal consideration by the officer.” Id. The second step of the
Reynolds analysis “places on the court a special burden
to assure itself that an appropriate balance is struck between protecting national security matters and preserving an open court system.” Id. at 1081. Third, the
court must determine how the matter will proceed if the
privilege applies. There are three circumstances, discussed further infra, when the Reynolds privilege may
justify terminating the case.
(c) Step 1: Procedural Requirements

In this case, a formal claim of the state secret privilege requires the claim be made by the director of the
CIA. The Government has made this claim, supported
by the Declaration of CIA Director Michael Pompeo
(ECF No. 30-1). The Government states it also utilized
the Executive Branch guidance issued in 2009 by Attorney General Holder which requires assertion of the privilege be approved by the Attorney General. (ECF No.
30, p. 11) The Government did not file a Declaration
from Attorney General Sessions, but states the guidance
memo was followed, including “personal consideration
of the matter by the Attorney General and authorization
by him to defend the assertion of the privilege.” (Id.).
In Mohamed, the Ninth Circuit stated it was “informed at oral argument that the current Attorney General Eric Holder, has also reviewed and approved the

46a
ongoing claim of privilege.” 614 F.3d at 1080. The
Mohamed court stated, “although Reynolds does not require review and approval by the Attorney General
. . . such additional review by the executive branch’s
chief lawyer is appropriate and to be encouraged.” Id.
Petitioners do not challenge that the Government has
fulfilled the procedural requirements for invoking the
state secrets privilege. (ECF No. 31, p. 10).
The claim of state secrets privilege “must be presented in sufficient detail for the court to make an independent determination of the validity of the claim of
privilege and the scope of the evidence subject to the
privilege.” Mohamed at 1080. The Pompeo Declaration states through the exercise of his official duties he
has become familiar with this lawsuit and the claims
therein. (ECF No. 30-1, ¶ 4). Director Pompeo states
he is aware of the European Court of Human Rights’ decision and the award of money damages to Abu Zubaydah. (Id.). He states he is asserting the state secrets
privilege after “careful and personal consideration
. . . to protect and preserve national security information, the disclosure of which reasonably could be expected to cause serious, and in many instances, exceptionally grave damage to U.S. national security.” (Id.
at ¶ 2).
Director Pompeo states he is asserting the privilege
over various categories of information, including: 1) information identifying individuals involved with the Program; 2) information regarding foreign government cooperation with CIA; 3) information concerning the operation and location of clandestine overseas CIA facilities;
4) information regarding capture and transfer of detain-

47a
ees; 5) intelligence information about detainees and terrorist organizations, including intelligence obtained
from interrogations; 6) information concerning intelligence sources and methods; and 7) information concerning the CIA’s internal structure and administration.
(Id. at ¶6). Of most import to the subpoenas at issue
are the two categories concerning the operation and locations of overseas CIA facilities and information regarding foreign government cooperation with the CIA.
Pompeo states: “whether or not the CIA conducted
detention and interrogation operations in Poland and/or
with the assistance of the Polish Government—remains
a classified fact that cannot be divulged without risking
significant damage to national security.” (Id. at ¶ 8).
The court finds the Government has fulfilled the procedural requirements for invoking the privilege.
(d) Step Two—Evaluation of the Claim of Privilege—

The second step of the Reynolds analysis “places on
the court a special burden to assure itself that an appropriate balance is struck between protecting national security matters and preserving an open court system.”
Mohamed v. Jeppesen Dataplan, 614 F.3d 1070, 1081
(9th Cir. 2010). The Ninth Circuit stated: “In evaluating the need for secrecy we acknowledge the need to
defer to the Executive on matters of foreign policy and
national security and surely cannot legitimately find ourselves second guessing the Executive in this arena.
But the state secrets doctrine does not represent a surrender of judicial control over access to the courts.” Id.
at 1081-82. The Ninth Circuit instructs courts to view
claims of state secrets privilege with a “skeptical eye”
and not accept at “face value” claims of privilege, but

48a
cautions “too much judicial inquiry into the claim of privilege would force disclosure of the thing the privilege
was meant to protect.” Id. at 1082.
At the second step of the Reynolds analysis, the court
must sustain a claim of privilege if “it is satisfied from
all the circumstances of the case, that there is a reasonable danger that compulsion of the evidence will expose
matters which, in the interest of national security, should
not be divulged.” Mohamed at 1081. The court states
“we do not offer a detailed definition of what constitutes
a state secret . . . We do note, however, that an executive decision to classify information is insufficient to establish the information is privileged.” Id. at 1082 (em-

phasis added). Although classification may be some support for a determination of privilege, it is not conclusive.
Id.
In Mohamed, the Government asserted the privilege
over four categories of evidence: 1) information that
would tend to confirm or deny whether Defendant or another private entity assisted the CIA with clandestine
intelligence activities; 2) information about whether any
foreign government cooperated with the CIA in clandestine activities; 3) information about the scope or operation of the CIA detention and interrogation program;
and 4) any other information concerning CIA clandestine intelligence operations that would reveal activities,
sources, or methods. Id. at 1086. The Ninth Circuit
stated: “These indisputably are matters that the state
secrets privilege may cover.” Id. These categories
are similar, or in some instances, identical to the categories of information at issue herein.
Petitioners argue the Government has not provided a
convincing argument harm to national security would

49a
result from responding to the discovery. The Government argues identifying foreign cooperating governments would make them less likely to cooperate in the
future, or embarrass the foreign government, damage
relations, etc. Petitioners argue the alleged threat to
national security in this case is “illusory”. (ECF No.
31, p. 12). Petitioners point out the Polish government
itself has requested some of the information now being
sought through MLAT requests, and the Polish criminal
proceeding seeks such information now.
Petitioners also rebut the argument that if the Government acknowledges Poland cooperated, Poland might
be at greater risk from terrorists or other bad actors.
Petitioners state: “If the Government’s fears have any
foundation, the harm the Government warns of has already come to pass.” (Id. at 13). Petitioners argue the
European Court of Human Rights (“ECHR”) has already found, based on a standard of proof beyond a reasonable doubt, that the CIA operated a facility at Stare
Kiejkuty, Poland. (Citing to ECHR Opinion at ¶ 419;
ECF No. 12-1). Petitioners convincingly argue, “given
the notoriety of these facts, there must logically come a
point at which they have become so widely and credibly
recognized as true that confirmation or denial cannot exacerbate the harm already done.” (ECF No. 31, p. 14).
Petitioners stated at oral argument that in order to
be a “state secret” a fact must first be a “secret.” The
Government contended at the hearing the CIA has
never officially acknowledged any foreign government
assisted with the CIA’s Detention and Interrogation Program and the names of foreign governments were redacted from the Senate Select Committee’s Report issued in 2014. The Government also argued the Ninth

50a
Circuit, in Jeppesen Dataplan, had addressed the same
argument—that the fact some information about the Detention and Interrogation Program was being publicly
reported in the media, did not mean the Government
could not assert the privilege. The Ninth Circuit has
also recently stated: “National security concerns can,
of course, provide a compelling reason for shrouding in
secrecy even documents once in the public domain.”
Ground Zero Center v. United States Navy, 860 F.3d
1244, 1262 (9th Cir. 2017). However, in assessing the
compelling reason, the court stated it would consider the
allegation of harm to national security and also “the extent to which the information [the documents] contain
already has been publicly disclosed.” Id.
The Second Circuit, in the context of a Freedom of
Information Act (“FOIA”) request, also rejected the argument that because some of the withheld information
was so general in relation to previously disclosed information of the CIA, it could not compromise national security. ACLU v. Department of Justice, 681 F.3d 61, 71
(2nd Cir. 2012). The court stated, “even if the redacted
information seems innocuous in the context of what is
already known by the public, minor details of intelligence information may reveal more information than
their apparent insignificance suggests because, much
like a piece of a jigsaw puzzle, each detail may aid in
piecing together other bits of information even when the
individual piece is not of obvious importance itself.” Id.
The court found it was both “logical and plausible” disclosure of the information could jeopardize the CIA’s
work with foreign intelligence liaison partners. Id. The
Second Circuit was also quite deferential to the Government’s assertion that harm to national security may re-

51a
sult: “We have consistently deferred to executive affidavits predicting harm to the national security, and have
found it unwise to undertake searching judicial review.”
Id. at 70.
The Government herein relies heavily on Jeppesen
Dataplan, a 6-to-5 en banc decision of the Ninth Circuit
Court of Appeals. The decision was rendered in 2010,
when more aspects of the CIA’s Detention and Interrogation Program were secret. In 2014, the Senate Select Committee made public portions of its report, revealing additional information about the Program, but
also still withholding many specific details. However,
as this court stated in Salim, the fact that some details
have been made public by the Government or otherwise
reported by the media, does not compel the Government
to release other classified information concerning the
Program. Although the Government has, over the years,
made public certain details about the Program, others
remain classified. It is generally not for this court to
second-guess such determinations. See Al-Haramain
Islamic Foundation, Inc. v. Bush, 507 F.3d 1190, 1203
(9th Cir. 2007) (“we acknowledge the need to defer to
the Executive on matters of foreign policy and national
security and surely cannot legitimately find ourselves
second guessing the Executive in this arena”). The
court is not aware of there being any mention of Poland
in the over 500-page Executive Summary to the SSCI
Report concerning the Detention and Interrogation
Program that the Senate Select Committee released to
the public. The Petitioners contend references to “Detention Site Blue” in the Report refer to Poland, but the
Government has not officially acknowledged Poland’s
cooperation or assistance with the Program.

52a
The Government argues official acknowledgment
is an important concept and is distinct from information simply being reported in the media or by nongovernmental sources. Courts, at least in the context of
FOIA requests, have largely agreed with the Government’s argument concerning official acknowledgment.
See for example ACLU v. U.S. Dept. of Defense, 628
F.3d 612 (D.C. Circuit 2011). Therein, the D.C. Circuit
applied a three criterion test for determining whether
the information requested had been officially acknowledged: 1) the information requested must be as specific as the information previously released; 2) the information requested must match the information previously disclosed; and 3) the information requested must
already have been made public through an official and
documented disclosure. Id. at 621. The D.C. Circuit
further cited favorably to the Fourth Circuit’s statement: “It is one thing for a reporter or author to speculate or guess that a thing may be so or even, quoting
undisclosed sources, to say that it is so; it is quite another thing for one in a position to know of it officially to
say that it is so.” Id. at 621-22.
Viewing the Government’s claim of privilege with a
“skeptical eye,” the court does not find convincing the
claim that merely acknowledging, or denying, the fact
the CIA was involved with a facility in Poland poses an
exceptionally grave risk to national security. The fact
has been the subject of governmental investigations in
Poland and Europe going back to 2005 and 2007. According to the parties’ briefs, in 2014, the former President of Poland, Kwasniewski, who was President from
2000 to 2005, acknowledged the cooperation with CIA,
but claimed he did not have knowledge of “torture”.
The European Court of Human Rights has found by

53a
proof beyond a reasonable doubt the CIA operated a facility in Poland. The fact has also been fairly widely reported in media.
However, compelling Mitchell and Jessen to address
the mere fact of whether they were part of CIA operations conducted in Poland, or whether they interrogated
Zubaydah in Poland, would not seem to aid the Polish
investigation. The Polish investigators already have a
ECHR Opinion finding that Poland was complicit “in
that it enabled the US authorities to subject the applicant [Abu Zubaydah] to torture and other ill treatment
on its territory.” (ECF No. 2-3, p. 14). Petitioners
seek to obtain more detail as to what occurred and who
was involved. At oral argument, counsel for Petitioners stated they were particularly interested in the involvement of the locals, Polish citizens. However, directing Mitchell and Jessen to answer questions about
the presence of Polish citizens, their identities if known,
and their involvement with the Detention and Interrogation Program legitimately could jeopardize national
security. The ECHR cites the 2007 Marty Report, presented to the Parliamentary Assembly, which states:
“The secret detention facilities in Europe were run directly and exclusively by the CIA. To our knowledge,
the local staff had no meaningful contact with the prisoners and performed purely logistical duties such as securing the outer perimeter.” (ECF No. 2-3, p. 7). Disclosing operational details concerning the staffing and
securing of the sites, which would confirm or refute what
has been unofficially reported, could reasonably be expected to pose a risk to national security, as averred to
by Director Pompeo.

54a
This case is different from Salim in an important respect because in Salim discovery was on-going for several months before the Government then asserted various privileges as to specific documents. Here, the Government seeks to preclude all discovery. Additionally,
in Salim, Mitchell and Jessen were both deposed at
length. Petitioners argue that even if the court upholds
the privilege and allows the Government to neither confirm or deny the CIA operated a facility in Poland, Petitioners can still obtain useful information from the written discovery and depositions.
In Jeppessen Dataplan, the Ninth Circuit allowed
the Government to assert the Reynolds privilege at an
early stage: “We also conclude that the government
may assert a Reynolds privilege claim prospectively,
even at the pleading stage, rather than waiting for an
evidentiary dispute to arise during discovery or trial.”
614 F.3d 1070, 1081 (9th Cir. 2010). This court could allow depositions to go forward, have the Government object, and resolve specific objections, however that would
likely prove futile as the Government objects to any evidence or acknowledgment that a site for the Detention
and Interrogation Program was operated in Poland.
This situation is analogous to that presented in Salim by
the request for deposition of Gina Haspel. Although
there were numerous media reports that Ms. Haspel,
who is currently the Deputy Director of the CIA, had
previously managed a “black site” in a foreign country,
the Government had never officially acknowledged she
had any role. As the Government would not confirm or
deny she had any role with the Program, this court did
not allow the Haspel deposition to proceed. See (Order
of May 31, 2017, Case No. 15-286, ECF No. 188, p. 1618).

55a
Petitioners argue that depositions were conducted in
Salim, and the detention site was just referred to by its
code name “Detention Site Cobalt”, without anyone confirming or denying it was in Afghanistan. Petitioners
argue they should be allowed to pursue discovery in this
case about “Detention Site Blue”, and then others can
decide whether there is sufficient evidence Detention
Site Blue is the Stare Kiejkuty, Poland site. (ECF No.
31, p. 21). As to the document requests, 12 of the 13
requests mention “Poland” or “Polish,” and the one
which does not is an overbroad request for “all documents, memoranda and correspondence concerning Petitioner Abu Zubaydah.” (ECF No. 1-2). The Government argues Petitioners “cannot avoid the application of
the state secrets privilege by asking this court to rewrite his subpoenas to seek non-privileged information.”
(ECF No. 34, p. 8). The Government is wrong on that
contention. The court can modify or limit the scope of
the subpoena. The Supreme Court in Intel specifically
stated “unduly intrusive or burdensome requests may
be rejected or trimmed.” Intel Corp. v. AMD, Inc., 542
U.S. 241, 265 (2004). The Government argues that because this proceeding is discovery in aid of a foreign proceeding in Poland, no modification of the subpoenas or
use of code names can “escape the fact the discovery he
seeks is focused entirely on alleged events in Poland.”
(ECF No. 34, p. 9).
The Government has asserted the privilege over aspects of the Detention and Interrogation Program and
over matters which the Ninth Circuit has previously
stated are “indisputably” matters which the privilege
may cover. As set forth herein, the court particularly
finds operational details concerning the specifics of cooperation with a foreign government, including the roles

56a
and identities of foreign individuals, to be covered by the
claim of state secrets privilege.
(e) Step Three—How Should the Matter Proceed

Third, the court has determined the Government’s
assertion of privilege is valid, and must determine how
the matter will proceed. The Government argues the
court should uphold the privilege, quash the subpoenas,
and dismiss the case. Generally, there are three circumstances when the Reynolds privilege justifies terminating the case:
1) if the plaintiff cannot prove the prima facie elements of his claim with nonprivileged evidence;
2) if the privilege deprives the defendant of information that would otherwise give the defendant a valid
defense to the claim; and
3) litigating the case on the merits would present
an unacceptable risk of disclosing state secrets because
the privileged and nonprivileged evidence is “inseparable”. Id. at 1083.
The first two circumstances are not applicable here,
as this is purely a discovery proceeding. Petitioners argue discovery can proceed, as discussed supra, even
without the Government confirming or denying operation of a detention facility in Poland. The court disagrees. As stated supra, 12 of the 13 document requests
specifically reference Poland, and Petitioners stated at
oral argument they wanted to garner information on the
role of foreign (Polish) nationals. Allowing the matter
to proceed with a code word, such as “detention site
blue” to replace Poland seems disingenuous, and the
Government participating could be viewed as implicit
confirmation of operation of the Program in Poland.

57a
Even this seemingly innocuous fact can be protected by
the privilege. See Kasza v. Browner, 133 F.3d 1159, 1166
(9th Cir. 1998) (“If seemingly innocuous information is
part of a classified mosaic, the state secrets privilege
may be invoked to bar its disclosure and the court cannot order the government to disentangle this information from other classified information.”). Meaningful
discovery cannot proceed in this matter without disclosing information the Government contends is subject to
the state secrets privilege. Proceeding with discovery
would present an unacceptable risk of disclosing state
secrets.
3.

The CIA Act

The Government also relies on the CIA Act, 50 U.S.C.
§ 3507, in resisting the requested discovery and argues
the Act prohibits the requested discovery. The Act
provides, in part: “In the interests of the security of
the foreign intelligence activities of the United States
. . . the Agency shall be exempted from . . . the
provisions of any other law which require the publication or disclosure of the organization, functions, names,
official titles, salaries, or numbers of personnel employed by the Agency.” The Ninth Circuit has stated
this statute provides the Director of the CIA shall “protect intelligence sources and methods from unauthorized disclosure.” Minier v. CIA, 88 F.3d 796, 801 (9th
Cir. 1996). The court stated the statute provides
“broad authority” and the statutory mandate is “only a
short step from exempting all CIA records from FOIA.”
Id. The court held the statute “authorizes the CIA’s refusal to confirm or deny the existence of an employment
relationship between itself and [an alleged agent]”.

58a
Petitioners argue the CIA Act does not apply by its
plain terms because it “exempts the CIA—not private
individuals” from provisions of law which require the
publication or disclosure of “the organization, functions,
names, official titles, salaries, or numbers of personnel
employed by the Agency.” 50 U.S.C. § 3507. (ECF
No. 31, p. 24). Petitioners argue the CIA Act does not
reach facts such as the location of a foreign detention
site, nor does it apply to private citizens such as Mitchell
and Jessen who are not CIA employees.
The CIA Act does protect disclosure of the names
and functions of officers and protects intelligence
sources and methods. The court need not elaborate on
the Act’s operation here, having found the state secrets
privilege applies.
4.

The NSA Act

The Government also cites to the NSA Act, 50 U.S.C.
3024(I) in support of its Motion to Quash. However, the
Government devoted less than 1-page of its 25-page
brief to arguing both the CIA and NSA Act. The NSA
Act provides: “The Director of National Intelligence
shall protect intelligence sources and methods from unauthorized disclosure.” In Berman v. CIA, 501 F.3d
1136, 1140 (9th Cir. 2007) the Ninth Circuit stated,
“courts are required to give great deference to the CIA’s
assertion that a particular disclosure could reveal intelligence sources or methods.”
Petitioners argue the NSA Act does not apply because it specifically states the “Director of National Intelligence” shall protect sources and methods and here
we have no Declaration from the Director of National

59a
Intelligence. Further, Petitioners argue the location of
a foreign detention site is not a “source or method.”
(ECF No. 31, p. 23-24). The court finds it unnecessary
to resolve this issue given its findings and conclusion the
state secrets privilege applies.
III. Conclusion

The Government’s argument that merely confirming
a detention site was operated in Poland would pose a
grave risk to national security is not convincing. The
fact of such operation has been widely reported, has
been acknowledged by the individual who was President
of Poland at the time the site allegedly operated, and has
been found by proof beyond a reasonable doubt by the
European Court of Human Rights. However, compelling Mitchell and Jessen to answer as to the mere fact of
whether operations were conducted in Poland would not
seem of much, if any, assistance to a Polish investigation. Rather, counsel for Petitioners said it would be
useful if Mitchell and Jessen could identify if there were
foreign (Polish) officials at the detention site, and the
nature of their roles at the site. In regard to these particulars, after review, the court defers to the CIA Director’s assertion that the release of such information could
reasonably pose a grave risk to national security.
Upholding the state secrets privilege serves the interests of national security, an important and compelling interest. The Ninth Circuit in Jeppessen Dataplan
recognized that sometimes honoring the importance of
the national security interest, comes at the detriment of
other important interests: transparency, accountability, and justice. 614 F.3d at 1073. The Ninth Circuit
stated the court strives to honor all these important

60a
principles but “there are times when exceptional circumstances create an irreconcilable conflict between
them.” Id. The court then stated it must “reluctantly
conclude” the case was one in which the national security interests, and assertion of the state secrets privilege required dismissal of the case. Id. The court further acknowledged the case presented “a painful conflict
between human rights and national security.” Id. at
1093. Similarly, this court concludes the CIA Director’s assertion of the Government’s national security interests and assertion of the state secrets privilege necessitates dismissal of the action.
IT IS HEREBY ORDERED:

1. The Government’s Motion to Intervene (ECF
No. 29) is GRANTED.
2. The Government’s Motion to Quash (ECF No.
30) is GRANTED.
3. The Clerk is directed to enter Judgment dismissing the Application for Discovery (ECF No. 1) and
close the file.
IT IS SO ORDERED.

The Clerk shall file this Order,
enter Judgment, and furnish copies to counsel.
Dated this 21st day of February, 2018.
/s/

JUSTIN L. QUACKENBUSH
JUSTIN L. QUACKENBUSH
SENIOR UNITED STATES DISTRICT JUDGE

61a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WASHINGTON

No. CV-17-0171-JLQ
IN RE APPLICATION OF ZAYN AL-ABIDIN MUHAMMAD
HUSAYN (ABU ZUBAYDAH) AND JOSEPH MARGULIES,
PETITIONERS

Filed:

Sept. 7, 2017

ORDER GRANTING APPLICATION FOR DISCOVERY
I.

Introduction and Background

On May 22, 2017, Petitioners Zayn Al-Abidin Muhammad Husayn (“Abu Zubaydah”) and Joseph Margulies filed an “Ex Parte Application for Discovery” (ECF
No. 1) pursuant to 28 U.S.C. § 1782, requesting this court
issue subpoenas to James Elmer Mitchell and John
Jessen to produce documents and give testimony for use
in an ongoing criminal investigation in Krakow, Poland.
Although denominated “ex parte” the Application stated
advance notice was provided to counsel for Mitchell and
Jessen and a courtesy copy of the Application was provided. (ECF No. 1, p. 2). Mitchell and Jessen have not
appeared in this action and have not challenged the Application for Discovery.
On May 31, 2017, the United States of America (hereafter “Government”) filed a Notice of Potential Participation (ECF No. 7) and requested 30 days to evaluate

62a
the matter and determine whether to file a Statement of
Interest. On June 30, 2017, the Government filed a
Statement of Interest (ECF No. 11) wherein it opposes
Petitioners’ Application for a Discovery Order pursuant
to 28 U.S.C. § 1782. Alternatively, the Government argues if the Application is granted, the court should establish a return date on the subpoenas at least 60 days
after service.
On July 21, 2017, Petitioners filed a Response (ECF
No. 16) to the Government’s Statement of Interest.
Thereafter, on August 4, 2017, Petitioners filed a “Motion for Leave to Serve Subpoenas, or, in the Alternative, to Set Hearing Date.” (ECF No. 19). This Motion
was redundant, as the original Application seeks permission to serve the subpoenas. The Motion acknowledges this redundancy: “The Application itself seeks
the Court’s leave to serve subpoenas.” The Motion further argued issuance of the subpoenas is the “beginning
of a process” and any objections are properly raised via
motion to quash after issuance of the subpoena.
The Government and Petitioner have now filed response and reply briefs concerning the August 4, 2017
Motion. The Government states the issues are ripe for
decision. (ECF No. 21). Neither the original Application or the subsequent Motion was set for hearing with
oral argument, although the Motion did request argument in the alternative. The court has determined oral
argument is not necessary. Local Rule 7.1(h)(3)(B)(iv)
(“Court may decide that oral argument is not warranted
and proceed to determine any motion without oral argument.).

63a
II.

Discussion

Petitioners bring their request for discovery pursuant to 28 U.S.C. § 1782, which provides in part:
(a) The district court of the district in which a
person resides or is found may order him to give his
testimony or statement or to produce a document or
other thing for use in a proceeding in a foreign or international tribunal, including criminal investigations
conducted before formal accusation. The order may
be made pursuant to a letter rogatory issued, or request made, by a foreign or international tribunal or
upon the application of any interested person and
may direct that the testimony or statement be given,
or the document or other thing be produced, before a
person appointed by the court . . . To the extent
that the order does not prescribe otherwise, the testimony or statement shall be taken, and the document or other thing produced, in accordance with the
Federal Rules of Civil Procedure.
The Supreme Court has instructed the statute “authorizes but does not require, a federal district court to provide assistance to a complainant.” Intel Corp. v. AMD,
Inc., 542 U.S. 241, 255 (2004).
Petitioner Abu Zubaydah is allegedly detained by the
United States at Guantanamo Bay, Cuba. Petitioner
Joseph Margulies is his attorney. Zubaydah alleges he
was detained by the United States in March 2002, and
has been in U.S. custody ever since. (ECF No. 1, p. 34). Relevant to this action, Zubaydah alleges he was
detained at various CIA black sites, including at “Detention Site Blue” in Poland, from December 2002 to September 2003. (ECF No. 1, p. 6). Petitioners state

64a
there is an ongoing criminal investigation in Poland into
Polish official’s alleged complicity in the unlawful detention and torture of Zubaydah. (ECF No. 1, p. 6-7).
Specifically, Petitioners state: “The Polish criminal investigation is charged with examining whether Polish
officials violated domestic law by opening, operating,
and conspiring with the United States to detain and mistreat prisoners, including Abu Zubaydah.” (Id. at 7).
Zubaydah alleges he has the right to submit evidence in
that matter and has been invited by the Polish prosecutor to do so.
Petitioners state that because Zubaydah is being detained at Guantanamo Bay he cannot give direct testimony in the Poland proceeding. Petitioners state this
is a “paradigmatic case for judicial assistance,” and other
attempts by Polish investigators to obtain similar discovery have failed. (ECF No. 1, p. 10). Petitioners
argue the § 1782 statutory requirements are satisfied.
Petitioners contend Jessen resides in this District and
Mitchell can be “found” here, as evidenced by his participation in Salim et al. v. Mitchell et al., 15-286-JLQ.
Petitioners contend they are “interested persons” under
the statute as Zubaydah is the complaining victim in the
Polish criminal investigation and has procedural rights
in that matter, including the right to submit evidence.
Lastly, Petitioners state the requested discovery is for
use in foreign proceedings, and § 1782 specifically references “criminal investigations conducted before formal
accusation.” (ECF No. 1, p. 13). Petitioners argue
granting the Application is a proper exercise of the
court’s discretion and argue the four Intel factors weigh
in Petitioners’ favor.

65a
A.

Government’s Statement of Interest

The United States Government argues it has a “substantial interest in the proper construction of 28 U.S.C.
§ 1782” and it opposes Zubaydah’s Application. (ECF
No. 11, p. 1-2). The Government contends the Application is an attempt to circumvent established treaty procedures. The Government argues the United States
and Poland have established treaty procedures “specifically providing for the exchange of evidence for criminal
investigations”. However, the United States has repeatedly denied Poland’s requests for information in regard to this investigation. (ECF No. 11, p. 3). The
Government further asserts that some of the information may be privileged or classified and the Government
“has an interest in preventing Dr. Mitchell and Dr.
Jessen from confirming or denying Zubaydah’s allegations to the extent any such responses would harm national security or foreign relations.” (Id. at 3-4). The
Government concedes Zubaydah has “satisfied the minimum statutory elements” under § 1782, but argues the
court should exercise its discretion to deny the Application. (ECF No. 11, p. 8).
B.

The Intel Factors

The Supreme Court in Intel Corp. v. AMD, Inc., 542
U.S. 241, 264 (2004), stated: “A district court is not required to grant a § 1782(a) discovery application simply
because it has the authority to do so.” Id. at 264. The
court then set forth four factors to be considered:
1) whether the person from whom discovery is
sought is a participant in the foreign proceeding;
2) the nature of the foreign tribunal, the character
of the proceedings underway abroad, and the receptivity

66a
of the foreign government to U.S. federal-court assistance;
3) whether the discovery request is an attempt to
circumvent foreign proof-gathering restrictions or other
policies of a foreign country or the United States;
4) whether the discovery request is unduly intrusive or burdensome.
Id. at 264-65.
Mitchell and Jessen are not participants in the Polish
criminal investigation, therefore the first factor weighs
in favor of Petitioners. Id. at 264 (“Nonparticipants in
the foreign proceeding may be outside the foreign tribunal’s jurisdictional reach; hence, their evidence, available in the United States, may be unobtainable absent
§ 1782(a) aid.”). The Government concedes Mitchell
and Jessen are not participants in the Polish criminal
investigation, but argue “the MLAT 1 provides the Government of Poland with a legal procedure through which
it can request documents and testimony from them,
through the United States.” (ECF No. 11, p. 14). This
argument is fallacious. The Government’s own brief
states the United States has on numerous occasions rejected Poland’s request for assistance in this matter.
As to the second factor, the nature and character of
the foreign proceeding, it is a criminal investigation “being conducted by the Organized Crimes Division of the
Regional Public Prosecutor’s Office in Krakow.” (ECF
No. 2, ¶ 34). Petitioners allege the criminal investigation was re-opened after the European Court of Human
Rights issued a ruling in favor of Abu Zubaydah, and
1

Mutual Legal Assistance Treaty

67a
found Polish officials had been complicit in his detention
and torture in Poland. (Id. at ¶ 32-33). Petitioners allege the Polish government’s receptivity to assistance is
demonstrated by the prosecutor inviting counsel for
Zubaydah to submit information. The Government’s
argument again focuses solely on the treaty process and
is not convincing. The fact the Polish government has
sought information through the treaty process, and
been denied by the United States Government further
demonstrates the Polish government would be receptive
to receiving the information. The second factor weights
in favor of granting the Application.
The third factor—whether the discovery request is
an attempt to circumvent foreign proof-gathering restrictions or other policies of a foreign country or the
United States—cuts both ways. There is nothing in
the materials filed with the court to indicate the Application seeks to circumvent Poland’s proof-gathering restrictions or policies of Poland. Rather, Zubaydah, as
the Government concedes, has been invited to participate in the foreign proceeding. See Government’s Statement of Interest (ECF No. 11, p. 8) (“Zubaydah has been
granted ‘injured person’ status by the Polish Government under Poland’s Code of Criminal Procedure, which
grants injured persons various procedural and participatory rights in pending criminal investigations.”) Further, the Polish government’s repeated treaty requests
indicate granting the Application would not offend the
policies of Poland, but rather, would be welcome. The
Government argues this factor weighs in favor of denying the Application because granting the Application
would offend the policies of the United States because
the United States “has denied Poland’s repeated MLAT

68a
requests for assistance in connection with pending criminal investigation regarding alleged CIA activities.”
(ECF No. 11, p. 10).
The fourth factor—whether the discovery request is
unduly intrusive or burdensome—is contested and its
determination premature. Petitioners argue the discovery sought is restricted to Mitchell and Jessen’s “oral testimony and documents within their personal possession.” (ECF No. 1, p. 16). Petitioners argue the relatively de minimus burden on Respondents’ time and resources is outweighed by the potential benefit to Polish
prosecutorial authorities. (ECF No. 1, p. 16). The Government argues addressing the issues of classification
and privilege will be unduly burdensome. In Reply,
Petitioners counter the “Government cannot assert an
undue burden on Respondents’ behalf ” and the burden
on the Government is “tangential”. (ECF No. 16, p. 3).
Addressing the issues of classification and privilege
is premature at this time. See for example In re Letter
Rogatory from Tokyo, 539 F.2d 1216, 1219 (9th Cir.
1976) (in the context of § 1782: “Similarly, it is not now
appropriate to consider the possibility that they may
claim their Fifth Amendment privileges against testifying, as no witness has yet made any claim of privilege.”).
The Government has only broadly invoked these concerns and has not asserted state secrets privilege. Respondents Mitchell and Jessen are not yet before the
court. Section 1782(a) provides the Federal Rules of
Civil Procedure apply unless otherwise ordered. Therefore, Respondents may challenge the scope of the subpoena via a motion for protective order, motion to quash,
etc. See In re Letter Rogatory from Tokyo, 539 F.2d
1216, 1219 (9th Cir. 1976) (in the context of § 1782:

69a
“The witnesses can and have raised objections and exercised their due process rights by motions to quash the
subpoenas.”). The Supreme Court in Intel stated that
“unduly intrusive or burdensome requests may be rejected or trimmed.” 542 U.S. at 265. Thus Respondents, if they believe the requests are overly burdensome,
may raise that issue with the court.
At this stage in the proceedings, the United States
Government, a third-party, is seeking to preemptively
raise these issues when no request for discovery from
the Government is pending. The Government itself
may not be subject to a § 1782 request. See Al Fayed
v. C.I.A., 229 F.3d 272 (D.C. Cir. 2000) (holding federal
government was not a “person” subject to subpoena under § 1782). From a review of the subpoenas (ECF No.
1-2 & 1-4) it is possible Respondents will have nothing
responsive as to certain categories of information. For
example, it may seem doubtful Respondents have documents concerning the Polish detention site’s “access to
Polish amenities such as water and electricity.” (ECF
No. 1-2, Request #9). It is not unduly burdensome to
proffer a negative response. If Respondents do have
responsive documents, any objection to their production
can be raised when Respondents are before the court.
It is the court’s recollection from Salim et al. v. Mitchell
et al., 15-286-JLQ, Respondents claimed to not be in possession of many of the documents pertaining to the Enhanced Interrogation Program and thus Respondents
sought the documents from the Government via subpoena. Respondents argued it was not unduly burdensome for the Government to undertake the various privilege and classification reviews necessary to produce the
documents. There may be objections to be made concerning the scope of the subpoena, and those objections

70a
may be appropriately addressed by Respondents. For
example, the temporal scope of the subpoena may be
overbroad. Documents are sought over a five-year period from 2001 to 2005, yet it is alleged Abu Zubaydah
was in Poland for a 9 or 10-month period in 2002 and
2003. However, the issue of temporal scope has not
been briefed and argued. The court has no conclusion
at this juncture as to the appropriate scope.
III. Conclusion

The Government agrees the minimum statutory prerequisites under § 1782 are met. The Government contends application of the Intel factors should lead the
court to exercise its discretion and deny the Application
for Discovery. The court has exercised its discretion
and determined the Intel factors favor granting the Application for Discovery. The objections raised by the
Government are premature at this point, as no discovery
is being requested from the Government. Similarly,
the Government has only raised unspecified hypothetical concerns regarding privilege and classification of
documents.
IT IS HEREBY ORDERED:

1.

The Application for Discovery (ECF No. 1) is
GRANTED. The Motion for Leave to Serve Subpoenas
(ECF No. 19), which is somewhat duplicative, is also
GRANTED as set forth herein.
2. Petitioners may serve the proposed subpoenas
on Respondents John Jessen and James Mitchell. The
return date shall be no earlier than 28 days after the date
of service. Any motion to quash, motion for protective
order, or motion to modify directed to the subpoenas

71a
shall be filed no later than 21 days after the date of service.
3. Petitioners shall serve a copy of this Order with
the subpoena.
4.

Petitioners shall file proof of service within 7

days of serving the subpoenas.
IT IS SO ORDERED.

The Clerk shall enter this Order and provide copies to counsel.
Dated this 7th day of September, 2017.
/s/

JUSTIN L. QUACKENBUSH
JUSTIN L. QUACKENBUSH
SENIOR UNITED STATES DISTRICT JUDGE

72a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 18-35218
D.C. No. 2:17-cv-00171-JLQ
ZAYN AL-ABIDIN MUHAMMAD HUSAYN;
JOSEPH MARGULIES, PETITIONERS-APPELLANTS
v.
JAMES ELMER MITCHELL; JOHN JESSEN,
RESPONDENTS

UNITED STATES OF AMERICA, INTERVENOR-APPELLEE
Filed:

July 20, 2020
ORDER

Before: Ronald M. Gould and Richard A. Paez, Circuit Judges, and Dean D. Pregerson,*1District Judge.
Order; Concurrence by Judge PAEZ; Dissent by
Judge BRESS
The full court was advised of the petition for rehearing en banc. A judge requested a vote on whether to
rehear the matter en banc. The matter failed to receive a majority of the votes of the non-recused active
The Honorable Dean D. Pregerson, United States District Judge
for the Central district of California, sitting by designation.
*

73a
judges in favor of en banc consideration. 1 Fed R. App.
P. 35. The petition for rehearing en banc is denied.
Attached are a concurrence to and dissent from the
denial of rehearing en banc.
PAEZ, Circuit Judge, joined by FLETCHER and BERZON,
Circuit Judges, concurring in the denial of rehearing en
banc:
I concur in the decision not to rehear this case en
banc and write to emphasize why rehearing was not warranted.
I.

I begin with what the majority opinion does not do.
It does not require the government to disclose information, and it certainly does not require the disclosure
of state secrets. See Husayn v. Mitchell, 938 F.3d
1123, 1137-38 (9th Cir. 2019). It does not compel the
government to confirm or even acknowledge any alleged
malfeasance abroad. See id. at 1133, 1135 n.18. And,
critically, it does not direct the district court to compel
discovery on remand if the court determines that nonprivileged materials cannot be disentangled from privileged materials. See id. at 1137-38.
Instead, the majority opinion stands solely for the
narrow and well-settled proposition that before a court
dismisses a case on state secret grounds, it must follow
the three-step framework set forth in Reynolds—a procedure we have followed for decades and reaffirmed as
Judges Miller and Collins did not participate in the deliberations or vote in this case.
1

74a
recently as 2010. See Mohamed v. Jeppesen Dataplan,
Inc., 614 F.3d 1070, 1080 (9th Cir. 2010) (en banc); see
also Husayn, 938 F.3d at 1136-37. The district court
never conducted the third step of that process, which requires a court to determine whether the contested materials contain nonprivileged information and, if so,
whether there is any feasible way to segregate the
nonprivileged information from the privileged information. Mohamed, 614 F.3d at 1082. Only after exhausting this effort can a district court contemplate dismissal. Id. The district court, however, never undertook that process. It instead dismissed Petitioners’
discovery application outright, without ever “us[ing] its
fact-finding or other tools to full advantage before . . .
conclud[ing] that [this] rare step . . . [was] justified.” Id. at 1093. We thus remanded with a simple instruction: use the panoply of tools at the court’s disposal to identify nonprivileged information and determine whether that information can be disclosed without
risking national security, as our precedent requires.
Husayn, 938 F.3d at 1137-38.
It may be that, on remand, the district court will ultimately reach the same result and determine that the
government’s motion to quash should be granted and
that the proceeding must end. But rather than let the
matter proceed as it should under our precedent, Judge
Bress’s dissent seeks to eliminate the required analysis,
without providing any factual or legal basis for doing so.
The dissent mischaracterizes the district court proceedings and the majority opinion’s holding. It also disregards the law of this circuit. For those reasons, en
banc review is inappropriate.

75a
II.

This matter began with Petitioners’ application for
discovery under 28 U.S.C. § 1782, which authorizes district courts to assist litigants in foreign tribunals in obtaining discovery. 1 The district court applied the relevant factors under Intel Corp. v. Advanced Micro Devices, Inc., 542 U.S. 241, 244-45 (2004), 2 considered the
government’s opposition to Petitioners’ application, and
granted the application for discovery. The government did not appeal the district court’s § 1782 ruling.
The government later moved to quash the resulting
subpoenas for depositions and documents. It first argued the district court lacked jurisdiction under 28
U.S.C. § 2241(e)(2), which deprives courts of jurisdiction
over actions against the “United States or its agents” for
the confinement of alien enemy combatants. 28 U.S.C.
§ 2241(e)(2); see also Hamad v. Gates, 732 F.3d 990, 995
(9th Cir. 2013). The district court rejected that argument, concluding that there was no evidence of an agency
relationship between the government and James Elmer
Mitchell and John Jessen. The government did not appeal this determination.

1
Because the majority opinion lays out the relevant facts and
procedures, there is no need to repeat them in full here.
2
A court considering whether to grant a § 1782 request may consider “the nature of the foreign tribunal”; “the character of the proceedings underway abroad and the receptivity of the foreign government to U.S. federal-court assistance”; “the receptivity of the foreign government, court, or agency to federal-court judicial assistance”; “whether the . . . request conceals an attempt to circumvent foreign proof-gathering limits or other policies of a foreign
country or the United States”; and whether the request is “unduly
intrusive or burdensome.” Intel Corp., 542 U.S. at 264-65.

76a
The government also argued that the information
was privileged as a state secret under Reynolds. The
district court ostensibly applied the Reynolds framework, which sets forth a three-step inquiry to analyze
claims of state secrets privilege. At the second step,
the court concluded that some, but not all, of the information sought by Petitioners was privileged. Although
our caselaw requires that non-sensitive information be
disentangled from privileged material and disclosed
“whenever possible,” Mohamed, 614 F.3d at 1082, the
district court did not follow this precedent, and it did not
make any attempt to disentangle the non-sensitive information. Instead, the court quashed the subpoenas
and dismissed the petition in its entirety without conducting the required analysis, speculating that any
nonprivileged information “would not seem to aid the
[foreign] investigation.”
III.

As stated above, the majority opinion does not require the disclosure of information. It does not require
the court to reach any specific conclusion about whether
dismissal is warranted. It simply reemphasizes our requirement to conduct a proper, three-step Reynolds
analysis in the first instance. The district court has not
yet done so, having dismissed the entire matter without
using any discovery tools at its disposal. Our decision
in Mohamed is clear: “[I]t is the district court’s role to
use its fact-finding and other tools to full advantage before it concludes that the rare step of dismissal is justified.” 614 F.3d at 1092-93. Accordingly, the majority
opinion instructs the district court to “employ[]” those
tools to “tailor[] the scope of Mitchell’s and Jessen’s dep-

77a
osition and the documents they may be required to produce.” Husayn, 938 F.3d at 1137. The majority opinion recognized that, even after doing so, the district
court may still determine dismissal is appropriate:
“[I]f, upon reviewing disputed discovery and meaningfully engaging the panoply of tools at its disposal, the
district court determines that it is not possible to disentangle the privileged from nonprivileged, it may again
conclude that dismissal is appropriate at step three of
the Reynolds analysis.” Id.
IV.

Judge Bress’s dissent appears to raise three distinct
arguments: (1) the majority opinion erred in holding
that Abu Zubaydah’s detention at a CIA black site in Poland is not a state secret, despite widespread acknowledgment of this fact; (2) the majority opinion did not sufficiently defer to former CIA Director Michael Pompeo’s assertion that any disclosures sought by Petitioners pose national security risks, even though a court has
never independently reviewed the disclosures to confirm this representation; and (3) our instruction to attempt to disentangle privileged and nonprivileged information is an “impossible task” for district courts to undertake, even though our precedent requires it, and
even though we did so in Mohamed.
To begin, the dissent characterizes the majority as
disregarding the danger certain information poses to
national security. The majority opinion does no such
thing, and this argument is a red herring. The majority opinion acknowledges that some facts can be embarrassing to the government. 938 F.3d at 1134. The
purpose of the state secrets privilege, however, is not to

78a
insulate the government from criticism: the fundamental threshold question is whether certain facts are secrets. Only then can the privilege possibly apply. 3
The dissent’s haphazard citations to Mohamed do not
support the argument that the facts the Petitioners are
seeking to discover, despite being public knowledge, are
sufficiently “secret” to warrant application of the privilege. Dissent at 29-31. Indeed, in Mohamed, the en
banc court, after “thoroughly and critically review[ing]
the government’s public and classified declarations,”
concluded “that at least some of the matters” that the
government sought to protect were privileged, 614 F.3d
at 1086, but publicly available information was not, id.
at 1090. The dissent’s citations to Mohamed are drawn
not from the court’s Step 2 discussion of whether any of
the information sought was subject to the state secrets
privilege, but rather from the discussion of Step 3 of the
Reynolds analysis, i.e., whether the case could proceed
without implicating privileged material. See Dissent at
29-31 (citing Mohamed, 614 F.3d at 1089-90). Mohamed
recognized that even though publicly available information was not privileged, any effort to defend against
the plaintiffs’ case “would unjustifiably risk disclosure
of state secrets.” 614 F.3d at 1090. This is the precise
analysis that has never been conducted by any court in
this case—the analysis that the majority opinion instructed the district court to conduct on remand. 4
Besides, “[s]imply . . . invoking an ethereal fear that disclosure will threaten our nation is insufficient to support the privilege.”
Al-Haramain Islamic Found. v. Bush, 507 F.3d 1190, 1203 (9th Cir.
2007).
4
Mohamed’s “observation” that certain undisclosed details about a
publicly known project may themselves qualify as secrets is not
3

79a
More troubling is the dissent’s seemingly willful
blindness to established facts. Given the overwhelming, publicly available evidence that Abu Zubaydah was
detained at a black site in Poland, it is difficult to take
seriously the suggestion that media outlets are untrustworthy and that the standards applied by other judicial
bodies are inadequate. Good grief, the President of
Poland publicly acknowledged in 2012 that, during his
presidency, Abu Zubaydah was detained in Poland by
the CIA. 5 As the majority opinion recognizes, to be “a
‘state secret,’ a fact must first be a secret.” Husayn,
938 F.3d at 1133. Although it is not the court’s role to
compel the government to recognize these facts officially, it need not stand in thrall, in blithe disregard of
the record and what the rest of the world has already
acknowledged. The majority opinion does not require
the government to take an official position on anything
and agrees with the government’s assertion of state secrets over other sensitive categories of information.
Id. (“Nothing in this opinion should be read to suggest
[that the government has taken any official position on
the existence or location of such a facility].”); id. at 1135
controversial, and it certainly does not stand for the proposition
that any as-yet undisclosed information is privileged as a matter of
course. See 614 F.3d at 1089-90.
5
See, e.g., Case of Husayn (Abu Zubaydah) v. Poland, Section
VI(D)(3), European Ct. of Human Rights (Feb. 16, 2015) (“Of course,
everything took place with my knowledge. The President and the
Prime Minister agreed to the intelligence co-operation with the
Americans, because this was what was required by national interest.”), available at: https://tinyurl.com/ybs7wane; “The hidden history of the CIA’s prison in Poland,” WASHINGTON POST (Jan. 23,
2014), available at: https://tinyurl.com/ybowwp8p; “Inside the
CIA’s Secret Polish Torture Site,” THE ATLANTIC (Jan. 24, 2014),
available at: https://tinyurl.com/y98n7x86.

80a
n.18 (“[N]othing about the government’s participation in
this case would constitute official acknowledgment, implicit or otherwise.”); id. at 1134 (listing categories of
privileged information).
The dissent nonetheless takes up the government’s
belatedly raised argument, never presented to the panel,
that any participation by Mitchell and Jessen would be
tantamount to an official acknowledgment of certain
facts. As an initial matter, the government’s argument, to the extent it is grounded in an agency relationship, was presented to, and rejected by, the district
court. Again, the government did not appeal that determination.
In any event, the dissent reads the majority opinion’s
treatment of Mitchell and Jessen as contractors far too
broadly. The dissent asserts that no court “has held
the state secrets privilege is removed or diminished
when the discovery is directed to a government contractor,” and warns that a “contrary rule” would free litigants from the constraints of the privilege against the
disclosure of state secrets. Dissent at 32. The majority opinion does not say otherwise. It does not hold or
suggest that the nature of a secret is lessened if transmitted to or by a contractor. It states only that the
government failed to explain why discovery by Mitchell
or Jessen would amount to an official confirmation.
Husayn, 938 F.3d at 1133. Most importantly, the government can still argue on remand that it should not disclose any information from Mitchell and Jessen that
would amount to an official confirmation.
And, contrary to the dissent’s assertion, Mohamed
did not “[hold] that the state secrets privilege applied in

81a
a suit against a government contractor because the contractor could ‘reveal[] information about how the United
States government does or does not conduct covert operations.’ ” Dissent at 32 (quoting Mohamed, 614 F.3d
at 1089) (emphasis added). Rather, we discussed the
potential effects of a contractor’s testimony in the context of Reynolds Step 3—not Step 2. See Mohamed,
614 F.3d at 1089. Our discussion had nothing to do
with whether the privilege applied to the contractor’s
statements at Step 2, let alone whether the contractor’s
statements could be imputed to the government.
Notably absent from the government’s petition for
rehearing en banc and the dissent is any mention of the
Salim litigation, 6 in which the same respondents, Mitchell and Jessen, disclosed similar information to that
sought here, with the government’s full participation in
the discovery process. In fact, in that litigation, eight
U.S. government attorneys or experts were present at
the depositions of Mitchell and Jessen to ensure that
nothing confidential or privileged would be disclosed.
Husayn, 938 F.3d at 1137 n.23. As the majority opinion recognizes, the fact that Mitchell and Jessen have
provided nonprivileged information like that sought
here illustrates that disentanglement is viable. Id. at
1137.
Last, a word about deference. Rather than focus on
“our obligation to review the [government’s claims] with
a very careful, indeed a skeptical, eye,” see Mohamed,
614 F.3d at 1082, the dissent urges we owe “some level
of deference,” Dissent at 27. As an initial matter, the

6

Salim v. Mitchell, No. 2:15-cv-286-JLQ (E.D. Wash. 2016).

82a
majority opinion did give “some deference” to the government and did not dispute that official acknowledgment of certain facts might harm national security.
The dissent, however, asks for a level of deference that
is nothing short of unquestioning. The mere existence
of information, absent any indication that it has been
recognized by the United States government, is not an
acknowledgment by the United States of anything.
The majority opinion is clear on this point. Husayn,
938 F.3d at 1133.
The dissent urges deference not only to the government’s assertion that official acknowledgment would be
harmful, but also to the government’s expansive definition of “official acknowledgment” itself. Indeed, the
government takes the argument a step further, contending that Mitchell’s and Jessen’s actual relationship to
the government is irrelevant because foreign governments might perceive their participation as official U.S.
acknowledgment of the facts to which Mitchell and
Jessen testify. Gov’t Pet. for Reh’g En Banc at 12.
This contention lays bare the philosophy underpinning
the position advocated by the government and the dissent. It does not matter whether Mitchell and Jessen
speak for the government, or indeed whether the government “officially” acknowledges anything. All that
matters is that the government says it matters. Under
the dissent’s approach, courts are left with nothing to do
but accept the government’s assertions at face value.
Such an approach, besides contradicting Supreme Court
precedent, is antithetical to democratic governance and
will inevitably breed abuse and misconduct.

83a
Although the majority opinion holds only that the district court failed to conduct a proper Reynolds Step 3
analysis, the dissent does not discuss Step 3 until page
33. The dissent asserts that it would be an “impossible
task” to disentangle classified information from nonprivileged material, and that dismissal is therefore appropriate. Dissent at 35. But we have conducted this
analysis often, without difficulty. See, e.g., Kasza v.
Browner, 133 F.3d 1159, 1166, 1170 (9th Cir. 1998); Mohamed, 614 F.3d at 1095; Al-Haramain, 507 F.3d at
1203. Unlike the en banc court in Mohamed, where we
reviewed the contested material and then determined
that disentanglement was not feasible, see 614 F.3d at
1087-89, the district court has yet to undertake this full
Step 3 analysis. The district court, without using a single tool at its disposal, such as in camera review, protective orders, or restrictions on testimony, summarily determined that any nonprivileged information that might
be disclosed could not be disentangled from privileged
information and therefore dismissed the discovery application. 7
For similar reasons, the dissent’s references to other
cases we have decided are simply inapt in this context.
As the majority opinion explains, those cases determined that nonprivileged information was enmeshed in
a “classified mosaic,” but only after reviewing specific,
contested material and considering the role of that material in drawn-out litigation. Husayn, 938 F.3d at
1135 n.19 (citing Kasza, 133 F.3d at 1166; Mohamed, 614
As discussed above, the district court also inserted a “usefulness” requirement of its own design into the Reynolds Step 3 analysis and dismissed the entire matter because any non-privileged information “would not seem to aid the Polish investigation.”
7

84a
F.3d at 1095; Al-Haramain, 507 F.3d at 1203). Here,
however, the court is presented with a pure discovery
matter—unencumbered by the “inherently complex and
unpredictable” nature of typical adversarial litigation.
See Mohamed, 614 F.3d at 1089. More importantly,
however, and as discussed above, no material has yet
been disclosed, let alone reviewed. 8
Finally, the majority anticipates that in some circumstances it may indeed be impossible to disentangle nonprivileged information from privileged material. The
opinion states that the district court may, after fulfilling
The dissent insists that “[in camera] review is not necessary to
enforce the privilege,” but this point is irrelevant for two reasons.
Dissent at 36. First, Reynolds did not prohibit in camera review
altogether. See 345 U.S. at 10 (refusing only to impose an “automatic[]” disclosure requirement under certain circumstances).
Other courts, including ones cited by the dissent, recognize that in
camera review may not only be appropriate but required. Doe v.
CIA, 576 F.3d 95, 105 (2d Cir. 2009) (“Sometimes, however, review
may require examination of the classified material itself.”); Sterling v. Tenet, 416 F.3d 338, 345 (4th Cir. 2005) (“There may of
course be cases where the necessity for evidence is sufficiently
strong and the danger to national security sufficiently unclear that
in camera review of all materials is required to evaluate the claim
of privilege.”). In any event, these limitations on in camera review, if they exist, come at Reynolds Step 2—not Step 3. See
Reynolds, 345 U.S. at 10 (“Yet we will not go so far as to say that
the court may automatically require a complete disclosure to the
judge before the claim of privilege will be accepted in any case.”)
(emphasis added); Doe, 576 F.3d at 104-05; Sterling, 416 F.3d at
344. Here, the majority opinion agreed with the district court’s
assessment that at least some of the information Petitioners sought
was not a state secret. Husayn, 938 F.3d at 1134. Thus, we simply
reminded the district court that, during its attempt at disentanglement, it could use many tools at its disposal, including in camera
review, to conduct a full Reynolds Step 3 analysis. Id. at 1137-38.
8

85a
its role in the discovery process, so conclude. But the
possibility that disentanglement will not be feasible does
not justify the failure to make the attempt. Our precedent requires the district court to make every effort at
disentanglement. Mohamed, 614 F.3d at 1082.
The dissent concludes with an entreaty to overhaul
seventy years of precedent and kneecap Reynolds to
limit its application in section 1782 proceedings. Dissent at 35-37. This proposal, which not even the government advocates, is not only extreme; it is unnecessary. The overwrought concerns about abuse by foreign litigants are addressed by section 1782 and the Intel factors. See Intel, 542 U.S. at 265 (“[A] district
court could consider whether the § 1782(a) request conceals an attempt to circumvent foreign proof-gathering
restrictions or other policies of a foreign country or the
United States. Also, unduly intrusive or burdensome
requests may be rejected or trimmed.”). It appears
the dissent’s true problem is not with Reynolds, but with
the district court’s initial decision to grant Petitioners’
section 1782 application. The government appears to
share that distaste. It could have appealed, but it did
not. En banc proceedings would not have been the appropriate remedy for that error.
For these reasons, I concur in the court’s decision to
deny rehearing this case en banc.

86a
BRESS, Circuit Judge, joined by GOULD, CALLAHAN, M.
SMITH, IKUTA, BENNETT, R. NELSON, BADE, LEE, HUNSAKER, BUMATAY, and VANDYKE, Circuit Judges, dissenting from the denial of rehearing en banc:
Over formal objections from the Director of the CIA,
a divided panel in this case rejected the United States’
assertion of the state secrets privilege, potentially allowing discovery into the CIA’s overseas interrogation
of a suspected terrorist. The panel issued this ruling
in the context of a discovery application under 28 U.S.C.
§ 1782, enabling any resulting documents and testimony
to be used in a foreign tribunal—here, a quasi-criminal
proceeding in Poland over which we lack any visibility
and whose entire purpose is to expose U.S.-led counterintelligence operations conducted abroad.
The majority’s decision is premised on grave legal errors, conflicts with governing precedent, and poses a serious risk to our national security. I therefore respectfully dissent from our decision not to hear this important
case en banc.
I
A
Zayn al-Abidin Muhammad Husayn (“Abu Zubaydah”) is a suspected Al Qaeda-associated terrorist. See
Ali v. Obama, 736 F.3d 542, 543 (D.C. Cir. 2013) (Kavanaugh, J.). He was captured in Pakistan in 2002 and
detained by the CIA as part of its former detention and
interrogation program; since 2006, the Department of
Defense has held him at Guantanamo Bay. Prior to his
transfer there, Abu Zubaydah claims he was tortured at
a CIA “black site,” which he alleges was located in Poland.

87a
In 2013, Abu Zubaydah’s attorneys filed an application in the European Court of Human Rights (“ECHR”),
alleging that Polish officials had been complicit in his
unlawful detention and mistreatment. See Husayn
(Abu Zubaydah) v. Poland, App. No. 7511/13, Eur. Ct.
H.R. (2015). The Polish government declined to confirm or deny these claims but informed the ECHR that
it had previously opened an investigation in 2008 into allegations that Polish officials had cooperated with the
CIA. Id. ¶¶ 125-35, 370-71. As part of that investigation, Poland had requested information from the United
States under a mutual legal assistance treaty (“MLAT”)
between the two countries. Id. ¶ 132. Citing reasons
of national security, the United States repeatedly refused to provide information on the CIA’s operations.
Id. ¶¶ 132, 143.
Based in part on the negative inferences it drew from
Poland’s refusal to confirm or deny CIA operations
within its borders, the ECHR determined that the CIA
had tortured Abu Zubaydah with the complicity of the
Polish government. Id. ¶¶ 370-71, 395-96, 414-15, 43135. As a result, Poland renewed its inquiry, which Abu
Zubaydah represents is a “Polish criminal investigation” that “is charged with examining whether Polish officials violated domestic law by opening, operating, and
conspiring with the United States to detain and mistreat
prisoners, including Abu Zubaydah,” at a U.S.-run CIA
facility in Poland. To aid its investigation, Poland
again requested assistance under its MLAT with the
United States. The United States again refused to surrender details concerning the CIA’s activities—even after discussions between high-level officials from both
governments. The Polish prosecutor’s office then turned
to Abu Zubaydah’s counsel to identify alternative ways

88a
to obtain the information, in this case through United
States courts.
In May 2017, Abu Zubaydah and his attorney filed an
application in federal district court under 28 U.S.C.
§ 1782, seeking discovery related to the CIA’s covert activities in Poland. Section 1782 permits a district court
to order discovery “for use in a proceeding in a foreign
or international tribunal, including criminal investigations.” 28 U.S.C. § 1782(a). Abu Zubaydah’s application sought documents and testimony from Dr. James
Elmer Mitchell and Dr. John “Bruce” Jessen, two former CIA contractors who “proposed and developed” the
CIA’s enhanced interrogation techniques, “supervise[d]”
Abu Zubaydah’s interrogations, and were “involve[d]
in” his alleged torture. Husayn v. Mitchell, 938 F.3d
1123, 1127 (9th Cir. 2019).
Abu Zubaydah’s § 1782 application was expansive,
seeking a broad range of information relating to “the
crimes committed against Abu Zubaydah on Polish soil,”
the involvement of Polish and United States officials in
his detainment, and details about the CIA black site
where the alleged interrogation and torture occurred.
Abu Zubaydah represented that given their “central
role in the interrogation program and their presence at
the Polish black site,” Mitchell and Jessen could also
provide information on “the identities of other witnesses
to the crimes against Abu Zubaydah” and “agreements
between Polish and U.S. officials.” According to Abu
Zubaydah’s application, all this information would be
used to “aid the Polish prosecutors in their understanding of Polish civilian and governmental complicity in the
operation.”

89a
After the district court initially granted Abu Zubaydah’s application, the United States moved to intervene
and quash the subpoenas. In its motion to quash, the
United States formally invoked the state secrets privilege and supported its assertion with two declarations
from then-CIA Director and now Secretary of State Michael Pompeo. Director Pompeo’s declarations outlined seven categories of information over which the
United States asserted the privilege:
[1] Information that could identify individuals involved in the program;
[2] Information regarding foreign government cooperation with the CIA;
[3] Information pertaining to the operation or location of any clandestine overseas CIA station, base, or
detention facility;
[4] Information regarding the capture and/or transfer of detainees;
[5] Intelligence information about detainees and
terrorist organizations, to include intelligence obtained or discussed in debriefing or interrogation
sessions;
[6] Information concerning CIA intelligence sources
and methods, as well as specific intelligence operations; and,
[7] Information concerning the CIA’s internal structure and administration.
As the CIA Director explained, Abu Zubaydah’s requested discovery “would tend to confirm or deny whether
or not [Mitchell and Jessen] have information about
these categories as they pertain to whether or not the

90a
CIA conducted detention and interrogation operations
in Poland and/or with the assistance of the Polish Government.”
The Director warned that disclosure of this information “reasonably could be expected to cause serious,
and in many instances, exceptionally grave damage to
U.S. national security.” He explained that maintaining
the confidentiality of foreign partnerships is critical, for
“if the CIA appears unable or unwilling to keep its clandestine liaison relationships secret, relationships with
other foreign intelligence or security services could be
jeopardized.”
Pompeo also explained that whether some alleged information about the requested topics was already in the
public domain was of no moment. “The absence of official confirmation from the CIA leaves an important element of doubt about the veracity of the information.”
That provided “an additional layer of confidentiality”
that “would be lost . . . if the CIA were forced to
confirm or deny the accuracy of speculation or unofficial
disclosures.”
The district court granted the United States’ motion
to quash. It agreed that the privilege covered “operational details concerning the specifics of cooperation
with a foreign government” and that such discovery “legitimately could jeopardize national security.” The
district court concluded that the existence of a CIA facility on Polish soil and Poland’s cooperation with the
CIA were not secret because they had been discussed in
publicly available documents. But it declined to allow
discovery on that basis. Instead, the district court reasoned that “the mere fact of whether operations were

91a
conducted in Poland would not seem of much, if any, assistance to a Polish investigation” in light of the public
documents, whereas proceeding with discovery would
pose an unacceptable risk of disclosing state secrets.
B
Abu Zubaydah appealed, and a divided panel of this
court reversed. Husayn v. Mitchell, 938 F.3d 1123,
1126 (9th Cir. 2019). The majority opinion acknowledged that “the government’s assertion of the state secrets privilege is valid over much of the information requested.” Id. But it held that the following information is not a state secret: “the fact that the CIA operated a detention facility in Poland in the early 2000s; information about the use of interrogation techniques and
conditions of confinement in that detention facility; and
details of Abu Zubaydah’s treatment there.” Id. at
1134. According to the majority, these facts were no
longer “secret” because they were the subject of a Polish
investigation and had been discussed in publicly available documents, such as media reports. Id. at 1127,
1132-34. The majority opinion also held that because
Mitchell and Jessen are “private parties,” their testimony would not be “equivalent to the United States confirming or denying anything”—even though Mitchell
and Jessen were the government contractors who “proposed and developed” the CIA’s interrogation techniques and “supervise[d]” Abu Zubaydah’s interrogation. Id. at 1127, 1133.
Although the majority determined that most of the
requested discovery was privileged, it remanded to the
district court “to disentangle nonprivileged from privileged information,” because, in the panel’s view, “it is
not impossible to separate secret information.” Id. at

92a
1126, 1135. While the majority allowed that the district court could on remand “again conclude” that “it is
not possible to disentangle the privileged from [the]
nonprivileged,” the panel expressed the view that “the
record suggests that [Abu Zubaydah] can obtain nonprivileged information from Mitchell and Jessen.” Id.
at 1136-37.
Judge Gould dissented. At the outset, he observed
that he is “not in a position as an Article III judge” to
say that certain matters were nonprivileged due to public reporting and would have thus “defer[red]” to Director Pompeo’s views. Id. at 1138 (Gould, J., dissenting).
Regardless, Judge Gould would have dismissed the
§ 1782 application because “an attempt to disentangle
the details of Abu Zubaydah’s treatment in Poland could
expose a broader mosaic of clandestine ‘intelligence activities, sources, or methods,’ ” thereby “jeopardiz[ing]
critical national security concerns.” Id. at 1138, 1139
(quoting Mohamed v. Jeppesen Dataplan, Inc., 614 F.3d
1070, 1086 (9th Cir. 2010) (en banc)). Indeed, Judge
Gould wrote, the requested information will be used in a
“Polish prosecution seeking to discover aspects of the
CIA’s presence in Poland and any foreign nationals
working with the CIA there, topics the majority recognizes to be privileged.” Id. at 1140.
Judge Gould also warned that these national security
concerns are heightened in a § 1782 proceeding, where
discovered information “is ultimately destined for a foreign tribunal.” Id. In his view, the balance of interests “should recognize that information produced in domestic proceedings remains under the supervision of the
United States court system in a way that information
produced in discovery for overseas tribunals does not.”

93a
Id. In this case, any resulting documents and testimony would be exported for use in a quasi-criminal proceeding in Poland, “totally out of control” of the U.S.
courts. Id.
II
The serious legal errors in the majority opinion, and
the national security risks those errors portend, qualified this case for en banc review. The majority opinion
treats information that is core state secrets material as
fair game in discovery; it vitiates the state secrets privilege because of information that is supposedly in the
public domain; it fails to give deference to the CIA Director on matters uniquely within his national security
expertise; and it discounted the government’s valid national security concerns because the discovery was only
sought against government contractors—even though
these contractors were the architects of the CIA’s interrogation program and discovery of them is effectively
discovery of the government itself.
The majority then tasked the district court with “disentangling” supposedly non-privileged information from
information the majority acknowledged was clearly
privileged. And all of this is happening in the context
of a § 1782 application, where any resulting discovery
will be transferred overseas to a foreign proceeding in
Poland that purports to be investigating our country’s
intelligence efforts. This is not the result that precedent allowed, and I fear the majority’s decision will pose
unnecessary risks to our country’s safety and security.

94a
A
The state secrets privilege is a “privilege against revealing military secrets, a privilege which is well established in the law of evidence.” United States v. Reynolds, 345 U.S. 1, 6-7 (1953). The privilege ensures the
non-disclosure of information if “there is a reasonable
danger that compulsion of the evidence will expose military matters which, in the interest of national security,
should not be divulged.” Id. at 10; see also Gen. Dynamics Corp. v. United States, 563 U.S. 478, 484-85
(2011); Mohamed, 614 F.3d at 1081-82; Al-Haramain
Islamic Found., Inc. v. Bush, 507 F.3d 1190, 1196 (9th
Cir. 2007).
Given the competing interests at stake, “[w]here
there is a strong showing of necessity, the claim of privilege should not be lightly accepted.” Reynolds, 345
U.S. at 11. But the Supreme Court has also instructed
that “even the most compelling necessity cannot overcome the claim of privilege if the court is ultimately satisfied that military secrets are at stake.” Id. Applying
these principles, we have upheld application of the state
secrets privilege on various occasions, as have other circuits. See Mohamed, 614 F.3d at 1073; Al-Haramain,
507 F.3d at 1204-05; Kasza v. Browner, 133 F.3d 1159,
1165-67, 1168-70 (9th Cir. 1998); see also, e.g., El-Masri
v. United States, 479 F.3d 296, 299-300 (4th Cir. 2007);
Zuckerbraun v. Gen. Dynamics Corp., 935 F.2d 544, 545
(2d Cir. 1991).
Applying the Supreme Court’s leading decision in
Reynolds, we analyze the United States’ assertion of the
state secrets privilege in three steps:

95a
First, we must ascertain that the procedural requirements for invoking the state secrets privilege have
been satisfied. Second, we must make an independent determination whether the information is privileged. . . . Finally, the ultimate question to be resolved is how the matter should proceed in light of
the successful privilege claim.
Mohamed, 614 F.3d at 1080 (ellipsis in original) (quotations omitted). Everyone agrees that through declarations from then-CIA Director Pompeo, the United States
has formally asserted the state secrets privilege. Husayn, 938 F.3d at 1131. It is on steps two and three
that my fine colleagues in the panel majority regrettably
but manifestly erred.
B
In concluding that the United States had not demonstrated that the information sought in this case was entirely privileged, the majority opinion contradicts governing precedent, jeopardizing national security.
While the majority agreed that “much . . . of the information requested by [Abu Zubaydah] is covered by
the state secrets privilege,” it held that “a subset of information is not” privileged, specifically: “the fact that
the CIA operated a detention facility in Poland in the
early 2000s; information about the use of interrogation
techniques and conditions of confinement in that detention facility; and details of Abu Zubaydah’s treatment
there.” Id. at 1134. The majority also held that “the
record suggests that [Abu Zubaydah] can obtain nonprivileged information from Mitchell and Jessen,” which
the majority says would also include “the story around
[Abu Zubaydah’s claims in Poland],” “the narrative,”

96a
and “what sort of treatment was Mr. Zubaydah subjected to.” Id. at 1136 (second alteration in original)
(quotations omitted).
This is serious error because the state secrets privilege should preclude discovery of these sensitive topics.
In our en banc decision in Mohamed, we held that the
state secrets doctrine “indisputably” may cover “information about whether any foreign government cooperated with the CIA in clandestine intelligence activities,”
“information about the scope or operation of the CIA
terrorist detention and interrogation program,” and
“any other information concerning CIA clandestine intelligence operations that would tend to reveal intelligence activities, sources, or methods.” 614 F.3d at
1086; see also El-Masri, 479 F.3d at 309 (state secrets
privilege covers “information regarding the means and
methods by which the CIA gathers intelligence”); Sterling v. Tenet, 416 F.3d 338, 348 (4th Cir. 2005) (privilege
covers “the methods and operations of the Central Intelligence Agency”).
This is substantially the same information Abu Zubaydah seeks in this case. The state secrets privilege
recognizes that “protecting our national security sometimes requires keeping information about our military,
intelligence, and diplomatic efforts secret.” Gen. Dynamics, 563 U.S. at 484. Contrary to precedent, the
majority opinion in this case treats topics that lie at the
core of our counterterrorism efforts as permissible areas of inquiry.
Although “we must make an independent determination whether the information is privileged,” Mohamed,
614 F.3d at 1081 (quoting Al-Haramain, 507 F.3d at
1202), we have also held that some level of deference is

97a
due to the government’s assertion of privilege. As our
en banc court explained in Mohamed, “[i]n evaluating
the need for secrecy, ‘we acknowledge the need to defer
to the Executive on matters of foreign policy and national security and surely cannot legitimately find ourselves second guessing the Executive in this arena.’ ”
Id. at 1081-82 (quoting Al-Haramain, 507 F.3d at 1203);
see also Kasza, 133 F.3d at 1166 (explaining that a
“claim of privilege is accorded the ‘utmost deference’
and the court’s review of the claim of privilege is narrow”).
In this case, then-CIA Director Pompeo submitted
two substantial declarations attesting to the national security risks that Abu Zubaydah’s discovery requests
would present. Based on his expertise and vantage
point, Director Pompeo identified specific categories of
information that would pose a risk to national security.
He then explained how disclosure of this information
would harm the United States’ intelligence and counterterrorism activities, including its clandestine partnerships with other governments that assist the United
States in its covert operations.
Contrary to our precedents and my colleague Judge
Gould’s compelling dissent, the panel decision does not
reflect any apparent deference to the CIA Director’s
declarations. Instead, the majority reaches a conclusion directly at odds with that of the CIA Director:
that “disclosure of certain basic facts would not cause
grave damage to national security.” Husayn, 938 F.3d
at 1133 (emphasis added) (quotations omitted).
This is very concerning. Our deference to the Executive Branch is not unyielding, but when it comes to

98a
the sorts of counterintelligence and counterterrorism issues presented here, courts must recognize that their
field of vision is limited. Such deference is not an abdication of judicial duty, but reflects a justified appreciation for the constitutional and national security considerations that a request like Abu Zubaydah’s necessarily
implicates. See, e.g., CIA v. Sims, 471 U.S. 159, 179
(1985) (“The decisions of the [CIA] Director, who must
of course be familiar with ‘the whole picture,’ as judges
are not, are worthy of great deference given the magnitude of the national security interests and potential
risks at stake.”).
The majority’s reason for not deferring to Director
Pompeo’s informed views marks an even further departure from precedent: that aspects of the government’s
program of interrogating suspected terrorists “are basically public knowledge.” Husayn, 938 F.3d at 1132;
see also id. at 1134 (“These facts have been in the public
eye for some years now . . . .”); id. at 1138 (“[W]e
have engaged in a public debate over the CIA’s conduct
during the early years of the war on terror.”). As
proof, the majority points to statements made by media
outlets, the Polish government, and the European Court
of Human Rights. See id. at 1132-33. The majority’s
refusal to accord state secret protection on grounds of
“public knowledge” conflicts with precedent and underscores the national security risks that the court’s decision poses.
The majority opinion’s reliance on publicly available
information to narrow the privilege is a stark departure
from the bedrock principle that “[t]he privilege belongs
to the Government” and “can neither be claimed nor
waived by a private party.” Reynolds, 345 U.S. at 7

99a
(footnotes omitted). In Mohamed, our en banc court
thus specifically rejected the theory that public disclosure of information (by entities other than the United
States itself ) could defeat an otherwise valid state secrets claim. The Mohamed court “recognize[d] that
plaintiffs ha[d] proffered hundreds of pages of publicly
available documents . . . that they say corroborate
some of their allegations concerning [a government contractor’s] alleged participation in aspects of the extraordinary rendition program,” including numerous media
reports. 614 F.3d at 1089-90. Mohamed likewise recognized that “[a]ccording to plaintiffs, ‘[v]irtually every
aspect of [one plaintiff ’s] rendition, including his torture
in Egypt, has been publicly acknowledged by the Swedish government.’ ” Id. at 1074.
Yet notwithstanding all of this, we held the discovery
could not proceed based on the state secrets privilege
because “partial disclosure of the existence and even
some aspects of the extraordinary rendition program
does not preclude other details from remaining state secrets if their disclosure would risk grave harm to national security.” Id. at 1090 (emphasis in original).
The majority opinion in this case rejected this point on
the theory that “[t]he world has moved on since we discussed the state secrets privilege in Mohamed.” Husayn, 938 F.3d at 1138. That commentary is unsupported, but regardless, the principle that only the government may waive the state secrets privilege is not a
time-limited one. If anything, that principle has even
greater resonance in a technology-driven world in which
information can quickly become “publicly available”
through so many means.

100a
Director Pompeo’s declaration also directly addressed
the public disclosure issue and explained why the CIA
believed that discovery should not proceed in this matter notwithstanding the information already in the public domain. As Director Pompeo attested, while “the
media, nongovernmental organizations, and former
Polish government officials have publicly alleged that
the CIA operated a detention facility in Poland,” “[t]hese
allegations do not constitute an official acknowledgment
by the CIA.” This “absence of official confirmation from
the CIA” is critical: it “carries with it an additional
layer of confidentiality” and preserves “an important element of doubt.” That, in turn, reduces the “motivat[ion of ] hostile entities or foreign governments to take
action against the CIA,” while ensuring that foreign
partners can “trust our ability to honor our pledge to
keep any clandestine cooperation with the CIA a secret.”
Courts, including ours, have recognized that the government has a national security interest in neither confirming nor denying a sensitive fact or event. See Mohamed, 614 F.3d at 1089 (“[T]here is precious little
Jeppesen could say about its relevant conduct and knowledge without revealing information about how the United
States government does or does not conduct covert operations.”) (emphasis in original); Kasza, 133 F.3d at
1163 (enforcing privilege where the government maintained that the privilege “barred the presentation of any
evidence tending to confirm or disprove” certain facts
relating to a classified facility); see also Weinberger v.
Catholic Action of Haw./Peace Educ. Project, 454 U.S.
139, 146 (1981) (holding that allegations were “beyond
judicial scrutiny” because “[d]ue to national security
reasons, . . . the Navy can neither admit nor deny

101a
that it proposes to store nuclear weapons at [the facility]”).
The panel majority in this case thus failed to recognize that regardless of whether some information is in
the public domain, the concerns animating the state secrets privilege remain. Indeed, the notion that our
country’s state secrets privilege should turn on “what
the rest of the world” has supposedly acknowledged, as
Judge Paez’s concurrence in the denial of rehearing en
banc maintains, is antithetical to the core principles on
which the privilege is founded. 1
The majority offered a specific reason for disregarding Director Pompeo’s determination about the national
security significance of the United States’ refusal to confirm or deny CIA operations in Poland: Mitchell and
Jessen are “private parties,” so their “disclosures are
not equivalent to the United States confirming or denying
anything.” Husayn, 938 F.3d at 1133; see also id.
(“[N]either Mitchell nor Jessen are agents of the government.”); id. at 1133 n.15 (“[N]othing about the government’s participation in discovery would constitute
The majority’s reliance on findings of the European Court of Human Rights is especially troubling. Husayn, 938 F.3d at 1127-28,
1133-34. The ECHR reached conclusions about Abu Zubaydah’s
torture in Poland in part by drawing negative inferences from Poland’s past “denial, lack of cooperation with the inquiry bodies and
marked reluctance to disclose information of the CIA rendition activities in Poland.” Husayn (Abu Zubaydah), ¶ 435. If a foreign
partner refused to confirm allegations to protect U.S. state secrets,
and if a foreign court later relied on that refusal to infer the truth of
the allegations, then under the majority’s reasoning the allegations
would become “public knowledge.” It cannot be the law that foreign partners would destroy the U.S. state secrets privilege by trying to protect it.
1

102a
governmental acknowledgement or denial of the site’s
existence.”); id. at 1135 n.18 (same). This reflects another substantial legal error in the majority’s opinion
that creates national security risk and warranted en
banc review.
I am aware of no court that has held the state secrets
privilege is removed or diminished when the discovery
is directed to a government contractor. To the contrary, in Mohamed itself, we held that the state secrets
privilege applied in a suit against a government contractor because the contractor could “reveal[] information
about how the United States government does or does
not conduct covert operations.” 614 F.3d at 1089 (emphasis omitted); see also El-Masri, 479 F.3d at 299-300
(applying state secrets privilege in suit involving government contractors). A contrary rule would enable an
end-run around the privilege, as litigants could simply
subpoena current or former contractors to avoid the
privilege’s strictures. That cannot be the law, especially when the United States regularly relies on contractors in national security functions.
According to Judge Paez’s concurrence, the majority
opinion “states only that the government failed to explain why discovery by Mitchell or Jessen would amount
to an official confirmation.” (Emphasis in original).
The majority opinion is not so limited, but even so, the
“why” here is abundantly clear. Mitchell and Jessen
are not just any contractors. They are the experts
who, by the majority’s description, “proposed and developed” the CIA’s enhanced interrogation techniques,
“supervise[d] the interrogations” that are the subject of
this proceeding, and were “involve[d] in Abu Zubaydah’s

103a
torture.” Husayn, 938 F.3d at 1127. Their knowledge of CIA operations and interrogations in Poland is
based on their work with the CIA. It is thus inconceivable that documents and testimony from such persons
would not reflect U.S. “official acknowledgment, implicit
or otherwise,” as the majority opinion holds. Id. at
1135 n.18. That is especially the case when the United
States will need to be actively involved in these proceedings to protect its interests the best it can. 2
In short, while the majority opinion does not itself order the disclosure of state secret material, it introduces
a legal framework under which privileged information is
treated as non-privileged, for reasons that conflict with
precedent. This improper framework poses untold
risks for our national security, both in this case and in
the future cases that must try to comply with the majority’s decision.
C
Of course, even if some of the requested discovery
here is non-privileged, the panel decision is still deeply
problematic. Under our case law applying Reynolds, a
matter cannot go forward when “it may be impossible to
proceed with the litigation because—privileged evidence
being inseparable from nonprivileged information that
will be necessary to the claims or defenses—litigating
the case to a judgment on the merits would present an
I do not understand how Judge Paez’s concurrence can claim that
“the government can still argue on remand that it should not disclose
any information from Mitchell and Jessen that would amount to an
official confirmation.” The majority opinion forecloses that argument by holding that “[a]s private parties, Mitchell’s and Jessen’s
disclosures are not equivalent to the United States confirming or
denying anything.” Husayn, 938 F.3d at 1133.
2

104a
unacceptable risk of disclosing state secrets.” Mohamed, 614 F.3d at 1083. Judge Gould’s panel dissent
persuasively shows the majority’s critical errors under
this standard.
As Judge Gould explained, “even otherwise innocuous information that provides a more coherent and complete narrative should not be produced where it may risk
exposing a broader picture.” Husayn, 938 F.3d at 1139
(Gould, J., dissenting). That risk is acutely present
here because the timing, location, and manner of Abu
Zubaydah’s alleged detention and interrogation are
bound up in a “broader mosaic of clandestine ‘intelligence activities, sources, or methods.’ ” Id. (quoting
Mohamed, 614 F.3d at 1086).
The risk is even more severe given the nature of this
proceeding. This is not a case where potentially secret
information is relevant to some claim or defense in a lawsuit. Instead, exposing the classified “mosaic” is the
entire point of the Polish criminal proceeding. As the
panel majority explains, the requested discovery will ultimately be used to “provide context” to foreign prosecutors seeking to identify and prosecute Polish individuals who aided the CIA. Id. at 1136 (majority opinion).
But the identities and roles of these individuals are privileged, as is much of their work with the CIA—as the
panel concedes. See id. at 1134. The majority opinion
thus creates a perfect storm, because any supposedly
non-privileged information “will inevitably be placed in
the context of a Polish prosecution seeking to discover
aspects of the CIA’s presence in Poland and any foreign
nationals working with the CIA there, topics the majority recognizes to be privileged.” Id. at 1140 (Gould, J.,
dissenting).

105a
How, then, is the district court on remand supposed
to “disentangle” all of this, id. at 1126, 1137 (majority
opinion), without inadvertently disclosing highly sensitive intelligence and counterterrorism information that
could jeopardize our national security? The majority
has no plausible answer. But what we know is that if a
district court in this case is expected to undertake that
impossible task, under the majority opinion district
courts in virtually any case would be required to do so,
because the information at issue here is at least as sensitive as any other. 3
It was thus not accurate for the majority to frame its
decision as a “narrow” and “limited” one. Id. at 1126,
1137. The decision instead conveys the broad message
to district courts that even in the face of the Supreme
Court’s decision in Reynolds and declarations from the
CIA Director, district courts risk reversal if they do not
undertake a “disentanglement” process that will be
fraught with peril. That should not be the law of this
circuit.
Judge Paez’s concurrence now suggests the problem
here was merely that “the district court never conducted
the third step of ” the Reynolds analysis because it never
“us[ed] any discovery tools at its disposal,” such as “in
The majority suggested that depositions “could proceed in this
case” “with the use of code names and pseudonyms, where appropriate,” as was done in Salim v. Mitchell, No. 2:15-cv-286-JLQ (E.D.
Wash. 2016). See Husayn, 938 F.3d at 1137. That suggestion is
not workable here. As the district judge—who also presided in
Salim—explained, because the focus of Abu Zubaydah’s proposed
discovery is so plain, “[a]llowing the matter to proceed with a code
word, such as ‘detention site blue’ to replace Poland seems disingenuous.”
3

106a
camera review, protective orders, or restrictions on testimony.” But these “tools” all entail the district court
reviewing or holding proceedings involving clearly privileged information, as part of an effort to “disentangle”
supposedly non-privileged items. The suggestion that
these “tools” must be utilized here is mistaken and only
further jeopardizes national security.
Reynolds is clear that even an in camera review, the
least intrusive and least risky of the options, is not necessary to enforce the privilege. See Reynolds, 345 U.S.
at 10 (“[W]e will not go so far as to say that the court
may automatically require a complete disclosure to the
judge before the claim of privilege will be accepted in
any case”). As the Reynolds Court explained, when
“there is a reasonable danger that compulsion of the evidence will expose” state secrets, “the court should not
jeopardize the security which the privilege is meant to
protect by insisting upon an examination of the evidence, even by the judge alone, in chambers.” Id.
We acknowledged that in camera review is not always
necessary in Mohamed. 614 F.3d at 1081. And other
circuits are in accord. See, e.g., Doe v. CIA, 576 F.3d
95, 104 (2d Cir. 2009); Sterling, 416 F.3d at 345; Zuckerbraun, 935 F.2d at 548. As the Fourth Circuit explained, “when a judge has satisfied himself that the
dangers asserted by the government are substantial and
real, he need not—indeed, should not—probe further”
with an in camera proceeding. Sterling, 416 F.3d at
345. These observations apply perforce to other proceedings, like the concurrence’s reference to potential
depositions of Mitchell and Jessen, which would create
even greater risk that privileged information is improperly disclosed.

107a
The suggestion in Judge Paez’s concurrence that
Reynolds requires an in camera review, or other proceedings that are even more treacherous, is therefore
contrary to settled law. The district court here thus
did not somehow fail to evaluate the third part of a
three-part test. But regardless, further proceedings
involving privileged information is now the perilous
course that the district court must follow, a course the
majority opinion regrettably foreordains for many future cases where our country’s sensitive military and intelligence information may be at stake.
D
This would all be troubling enough if the resulting
discovery were being used in domestic litigation. But
here, any materials that are released will be sent over to
a foreign legal system that we do not control. We
should have recognized that when the state secrets privilege is asserted, the considerations are vastly different
when the materials are being sought for use exclusively
in a foreign proceeding. See 28 U.S.C. § 1782. That is
particularly so when the foreign proceeding is dedicated
to investigating our country’s counterintelligence operations abroad.
As we explained in Mohamed, courts evaluating state
secrets claims must ensure “that an appropriate balance
is struck between protecting national security matters
and preserving an open court system.” 614 F.3d at
1081 (quotations omitted). But when we have addressed state secrets issues in prior cases, we were considering whether the materials could be used in U.S. litigation. See id. at 1075-76 (claims brought under Alien
Tort Statute against U.S. corporation for its alleged in-

108a
volvement in the CIA’s extraordinary rendition program); Al-Haramain, 507 F.3d at 1193, 1195 (claims for
damages and declaratory relief brought against United
States by Muslim charity allegedly subjected to surveillance program); see also Reynolds, 345 U.S. at 2-3
(claims under Tort Claims Act brought against United
States concerning military aircraft accident).
The state secrets privilege was held to apply in these
cases notwithstanding the resulting impediments it
caused in our court system. Here, however, our courts
are being used as a vehicle for obtaining information
that will be sent to Poland, which has already tried but
failed to obtain this information through diplomatic
channels. I agree with Judge Gould’s panel dissent
that it is “very troubling that the majority’s analysis
. . . does not acknowledge and evaluate the consequences of the fact that the information sought in a discovery proceeding here under § 1782 is ultimately destined for a foreign tribunal.” Husayn, 938 F.3d at 1140
(Gould, J., dissenting). The balance of interests must
be different when “the sought discovery will be shipped
overseas for the benefit of another country’s judicial
system, and at that point, totally out of control of a domestic court.” Id.
What message does the majority opinion send to persons and regimes around the world desirous of our country’s secret information? It is that even if they strike
out with the Executive Branch, they can come to the
U.S. courts and try their chances by pointing to the supposed need for information in a foreign proceeding
whose rules and approach may be very different than
our own. In some cases, these § 1782 requests will

109a
yield nothing. But in other cases, the imprecise “disentanglement” process may shake loose a few nuggets
of information, or even more. What will then be done
with that information we cannot know. These are risks
we should not tolerate and that a fair application of the
state secrets privilege should protect against.
I respectfully dissent from the denial of rehearing en
banc.

110a
APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WASHINGTON

Misc. Case No. [2:17-CV-0171-JLQ]
IN RE APPLICATION OF ZAYN AL-ABIDIN MUHAMMAD
HUSAYN (ABU ZUBAYDAH) AND JOSEPH MARGULIES,
PETITIONERS

Filed:

May 22, 2017

EX PARTE APPLICATION FOR DISCOVERY
ORDER PURSUANT TO 28 U.S.C. § 1782
IN AID OF FOREIGN PROCEEDING

Petitioners Zayn Al-Abidin Muhammad Husayn (“Abu
Zubaydah”) and Joseph Margulies, by their counsel,
hereby apply to the Court for an order under 28 U.S.C.
§ 1782(a) granting them leave to issue subpoenas to
James Elmer Mitchell and John “Bruce” Jessen to produce documents and give Elmer Mitchell and John
“Bruce” Jessn to produce documents and give testimony
for use in an ongoing criminal investigation in Kraków,
Poland. 1
This Application is supported by the memorandum of
points and authorities below, as well as the Declaration
Although Section 1782 applications are properly made ex parte,
Petitioners have provided advance notice of this Application to counsel for Messrs. Jessen and Mitchell and will provide a courtesy
copy of the Application and accompanying materials after filing.
1

111a
of Joseph Margulies (“Margulies Decl.”). A proposed
discovery order and subpoenas have been contemporaneously filed as attachments to this Application.
MEMORANDUM OF POINTS AND AUTHORITIES
I.

Overview of 28 U.S.C. § 1782

Section 1782 authorizes a federal district court to order discovery of documents and testimony for use in a
foreign proceeding from any person who resides or is
found in the court’s district:
The district court of the district in which a person resides or is found may order him to give his testimony
or statement or to produce a document or other thing
for use in a proceeding in a foreign or international
tribunal, including criminal investigations conducted
before formal accusation. The order may be made
. . . upon the application of any interested person
and may direct that the testimony or statement be
given, or the document or other thing be produced,
before a person appointed by the court.
28 U.S.C. § 1782(a).
A successful application must meet three requirements: (1) the person(s) from whom discovery is sought
must reside or be “found” in the district of the court issuing the discovery order; (2) the applicant must be a
foreign tribunal or “interested person”; and (3) the discovery must be sought “for use in a proceeding in a foreign or international tribunal.” Govan Brown & Assocs. Ltd. v. Does 1 & 2, No. C 10-02704 PVT, 2010 WL
3076295, *2 (N.D. Cal. Aug. 6, 2010). Because all three
requirements are met here, this Application should be
granted.

112a
II. Factual Background
A.

Abu Zubaydah’s Detention

Abu Zubaydah is a stateless Palestinian currently
held in Guantánamo Bay, Cuba. Margulies Decl. ¶ 5.
Joseph Margulies is his counsel. Id. ¶¶ 1-3. Abu
Zubaydah was captured in Pakistan in March 2002 by
U.S. and Pakistani agents and is now being held as an
“enemy combatant.” Id. ¶ 5. The U.S. Government
initially alleged that Abu Zubaydah was the “third or
fourth man” in al Qaeda and had a role in every major al
Qaeda terrorist operation, including as a planner of the
attacks on September 11, 2001. Id.; Margulies Decl.
Ex. A. However, a Senate Select Intelligence Committee report subsequently revealed that these allegations
were unfounded, based on a review of contemporaneous
CIA records. Margulies Decl. ¶ 5; Executive Summary
of the Senate Select Committee on Intelligence—Study
of the CIA’s Detention and Interrogation Program, at
410-411. (“Senate Select Committee Report”) (relevant excerpts appended to Margulies Decl. as Ex. B).
For several years after his capture, Abu Zubaydah
was imprisoned in various CIA “black sites” in foreign
countries, where he was subjected to so-called “enhanced interrogation techniques”—torture—including
waterboarding, starvation, and other serious abuses.
Margulies Decl. ¶¶ 7-24; see generally Senate Select
Committee Report (describing the interrogations of
Abu Zubaydah and others). Such acts of torture would
be illegal on U.S. soil. 2 However, the executive branch
The U.S. Supreme Court and other federal courts have long cited
the use of force amounting to torture, or other forms of ill treatment
in custody or during interrogations, as violating rights under the
2

113a
has maintained that these black sites operated beyond
the protections of U.S. law. Regardless of their domestic legal status, the sites existed with the knowing complicity of the sovereign nations in which they were located. Margulies Decl. ¶ 6. Without the complicity of
foreign states, the CIA’s black sites could not have existed and the torture performed there would not have
happened.
From December 2002 until September 2003, Abu
Zubaydah was imprisoned in a black site in Stare
Fourth, Fifth, Eighth and Fourteenth Amendments to the Constitution. Some of the practices the federal courts have condemned include whipping, slapping, depriving a victim of food or sleep, keeping
him naked or in a small cell for prolonged periods, holding a gun to
his head, or threatening him with mob violence. See, e.g., Hope v.
Pelzer, 536 U.S. 730, 731, 741 (2002) (exposing prisoner to the heat
of the sun and use of stress positions were cruel and unusual punishment); DeShaney v. Winnebago, 489 U.S. 189, 199-200 (1989) (failure
to provide food and clothing violated Eighth Amendment and Due
Process Clause); Ashcraft v. Tennessee, 322 U.S. 143, 156 (1944)
(sleep deprivation violated prisoner’s due process rights); Chambers
v. Florida, 309 U.S. 227 (1940) (holding prisoner incommunicado for
five days of continuous questioning violated due process rights);
Brown v. Mississippi, 297 U.S. 278, 282, 286 (1936) (whipping suspect to coerce confession violated due process); Moore v. Dempsey,
261 U.S. 86, 91 (1923) (threatening prisoner with mob violence violated due process); Bram v. United States, 108 U.S. 532, 565 (1897)
(forcing suspect to strip before interrogation contributed to violation
of Fifth Amendment due process rights); Keenan v. Hall, 83 F.3d
1083, 1091 (9th Cir. 1996) (keeping cell constantly illuminated interfered with prisoner’s sleep and violated Eighth Amendment); Gray
v. Spillman, 925 F.2d 90, 93 (4th Cir. 1991) (beating and threatening
prisoner violated Fifth and Fourteenth Amendments); Burton v.
Livingston, 791 F.2d 97, 99, 100-01 (8th Cir. 1986) (pointing loaded
pistol at prisoner violated his substantive due process rights); Ware
v. Reed, 709 F.2d 345, 351 (5th Cir. 1983) (custodial use of force against
prisoner violated his constitutional rights).

114a
Kiejkuty, Poland. Id. ¶ 7. The Senate Select Committee Report refers to this site by the alias “Detention
Site Blue.” Id. ¶ 11. In 2010, attorneys for Abu Zubaydah filed a criminal complaint in Poland seeking to hold
Polish officials accountable for their complicity in Abu
Zubaydah’s unlawful detention and torture. Id. ¶ 31.
However, the case closed without any prosecutions or
convictions. Id.
In 2013, attorneys for Abu Zubaydah—including Petitioner Joseph Margulies and his Polish co-counsel,
Bartłomiej Jankowski—filed an application against the
Republic of Poland before the European Court of Human Rights, alleging that Poland had failed to conduct a
full and proper investigation into violations of international and Polish domestic law. Id. ¶ 32. The court
agreed that Poland’s actions violated the European Convention for the Protection of Human Rights and Fundamental Freedoms, and that the investigation was inadequate; as a result, Poland reopened the criminal investigation of Polish official complicity in the operation of the
black site. Id. ¶ 33; Abu Zubaydah v. Poland, No.
7511/13 (2014) (Ex. C to Margulies Decl.).
The Polish criminal investigation is charged with examining whether Polish officials violated domestic law
by opening, operating, and conspiring with the United
States to detain and mistreat prisoners, including Abu
Zubaydah. Abu Zubaydah has the right to submit evidence in aid of the investigation through his attorneys,
and the Polish prosecutor has invited counsel for Abu
Zubaydah to do so. Id. ¶ 35.
Because Abu Zubaydah continues to be held incommunicado at the U.S. Naval Base at Guantánamo Bay,
Cuba, he is unable to give direct testimony in the Polish

115a
criminal investigation or any other public proceeding,
making it even more critical to obtain evidence from
other sources. Margulies Decl. ¶ 36.
B.

Respondents Mitchell and Jessen

Respondent Mitchell is a former CIA contractor and
was one of the architects of the CIA enhanced interrogation program. Margulies Decl. ¶ 12. Mitchell was
the chief psychologist at the U.S. Air Force Survival,
Evasion, Resistance and Escape training program at
Fairchild Air Force Base, Washington. Id. From
2001 to 2005, Mitchell worked as an independent contractor for the CIA. Id. From 2005 to 2009 Mitchell
was CEO of a company he co-founded with Jessen,
called Mitchell, Jessen & Associates, with headquarters
and offices in Spokane, Washington. Margulies Decl.
¶ 12. Mr. Mitchell resides at 20727 Lake Vienna Dr. in
Land O’Lakes, Florida.
Respondent Jessen is also a former CIA contactor
and, together with Mitchell, a co-architect of the CIA’s
enhanced interrogation program. Margulies Decl. ¶ 13.
In July 2002, the CIA contracted with Jessen on Mitchell’s recommendation. Margulies Decl. ¶ 14. From
2005 to 2009, Jessen was president of Mitchel, Jessen &
Associates. Id. Jessen currently resides at 8719 South
Palouse Highway in Spokane, Washington.
By their own admission as defendants in other legal
proceedings, Respondents subjected Abu Zubaydah to
waterboarding and other so-called “enhanced interrogation techniques.”
Margulies Decl. ¶ 15; Salim v.
Mitchell, No. 2:15-CV-286-JLQ (E.D. Wash., June 21,
2016), Def.’s Am. Answer and Affirm. Defs. ¶¶ 47-53 (Ex.

116a
E to Margulies Decl.). And according to the Senate Select Committee on Intelligence’s report on the CIA’s detention and interrogation program, Mitchell and Jessen
visited the Polish black site at least twice. Margulies
Decl. ¶ 27, Ex. B at 17-18. Accordingly, Petitioners expect Respondents to have relevant documents and personal knowledge regarding the identities of Polish officials complicit in the establishment and operation of the
black site and the nature of their activities. Margulies
Decl. ¶ 37.
Specifically, Respondents are in a position to describe or produce evidence relating to the following:
the crimes committed against Abu Zubaydah on Polish
soil; the identities of all perpetrators of those crimes;
the presence of Polish officials at the facility in general,
and during the commission of the various crimes; agreements between Polish and U.S. officials; the identities of
other witnesses to the crimes against Abu Zubaydah;
contracts or other agreements between the two governments regarding interrogations of Abu Zubaydah and
other victims of crimes in Poland; knowledge or documentation of the day-to-day operations of the black site,
including the provision of daily necessities such as food,
water, medicine, etc.; interaction with the community
surrounding the black site; flight arrival and departure
operations; upkeep and provision of the black site
grounds; and any interaction those working on the black
site may have had with the local population. Respondents’ production of documents and testimony would aid
the Polish prosecutors in their understanding of Polish
civilian and governmental complicity in the operation of
Detention Site Blue.

117a
III. ARGUMENT

Congress enacted Section 1782 to “facilitate the conduct of litigation in foreign tribunals, improve international cooperation in litigation, and put the United
States into the leadership position among world nations
in this respect.” In re Application Pursuant to 28
U.S.C. § 1782 for an Order Permitting Bayer AG to
Take Discovery (In re Bayer AG), 146 F.3d 188, 191-92
(3d Cir. 1998). Liberal application of Section 1782 in
appropriate cases furthers the statute’s twin aims of
“provid[ing] efficient means of assistance to participants
in international litigation in our federal courts and encourag[ing] foreign countries by example to provide
similar means of assistance to our courts.” Schmitz v.
Bernstein, Liebhard & Lifshitz, 376 F.3d 79, 84 (2d Cir.
2004).
This Application presents a paradigmatic case for judicial assistance. Other attempts by Polish investigators to obtain similar discovery have been thwarted.
Margulies Decl. ¶ 39. The need for discovery is particularly acute because Abu Zubaydah, who remains incommunicado, cannot offer direct testimony on his own
behalf. And, as explained below, the three threshold
requirements for granting a Section 1782 application are
readily met.
A.

Respondent Jessen resides in this district and
Respondent Mitchell is “found” in this district.

Mr. Jessen resides in Spokane, Washington, and is
therefore subject to this Court’s authority under Section
1782.
Mr. Mitchell is “found” in this district and is therefore also subject to this Court’s authority under Section

118a
1782. Mr. Mitchell has served as the CEO of a company headquartered in this district. Margulies Decl.
¶ 12. He is also a defendant in ongoing civil litigation
in this district and is already subject to this Court’s
power to compel discovery from him in that matter.
Additionally, although Mr. Mitchell contested the
court’s subject matter jurisdiction in that litigation, he
did not contest that the court had personal jurisdiction
over him. Id., Ex. G (Def.’s Mot. to Dismiss). Because the requirement that a litigant be “found” in a district should not be more restrictive than the requirement of personal jurisdiction, 3 Mitchell is properly
“found” in this district for purposes of Section 1782.
B.

Petitioners are “interested persons” under the
statute.

The Supreme Court has held that the term “interested person” in the statute is broad, encompassing any

While the Ninth Circuit does not appear to have addressed
whether a litigant is “found in” a federal court district for purposes
of Section 1782 in circumstances like Mr. Mitchell’s, the Second Circuit has analogized the “found in” requirement to the requirement
of personal jurisdiction, remarking that “the question of what it
means to be found in a particular locale is already the subject of wellsettled case law on territorial jurisdiction.” In re Edelman, 295
F.3d 171, 179 (2d Cir. 2002). Given that Section 1782 “is simply a
discovery mechanism and does not subject a person to liability,” the
court determined that the requirements for subjecting an individual
to a Section 1782 order were not more stringent than those required
to subject to an individual to civil suit. Id.; cf. First Am. Corp. v.
Price Waterhouse LLP, 154 F.3d 16, 20 (2d Cir. 1998) (emphasis in
original) (“[A] person who is subjected to liability by service of process far from home may have better cause to complain of an outrage
to fair play than one similarly situated who is merely called upon to
supply documents or testimony.”).
3

119a
individual who “possesses a reasonable interest in obtaining judicial assistance.” Intel Corp. v. Advanced
Micro Devices, Inc., 542 U.S. 241, 256-57 (2004) (citation
and alteration omitted). This includes a complainant
before a foreign commission who “has the right to submit information . . . and may proceed to court if the
Commission discontinues the investigation or dismisses
the Complaint.” Id.
Here, Abu Zubaydah is the complaining victim in a
criminal investigation. He has significant procedural
rights in that investigation, including the right to submit
evidence. Margulies Decl. ¶ 35. In short, Petitioners
are precisely the types of interested persons contemplated in the statute and in the Supreme Court’s Intel
opinion.
C.

The requested discovery is for use in a criminal
investigation before a foreign tribunal.

“Proceedings” qualifying for issuance of a discovery
order under Section 1782 specifically include “criminal
investigations conducted before formal accusation.”
28 U.S.C. § 1782(a). Adjudicatory proceedings need
not be imminent or pending “for an applicant to invoke
§ 1782(a) successfully.” Intel, 542 U.S. at 253. Indeed,
as the legislative history shows, “[T]he [district] court[s]
have discretion to grant assistance when proceedings
are pending before investigation magistrates in foreign
countries.” S. Rep. No. 1580, at 7, U.S. Code Cong. &
Admin. News 1964, pp. 3782, 9788.
The discovery requested in this Application falls
squarely within the statute’s purview. It is sought in
furtherance of an ongoing criminal investigation by prosecutorial authorities in Kraków, Poland. The scope of

120a
that investigation extends to all Polish officials who
were in any way involved in facilitating or permitting the
existence and operation of the CIA black site in Poland.
Margulies Decl. ¶ 34.
The requested discovery, which is related to Respondents’ interactions with Polish officials and knowledge of Polish official actions, will be shared with Polish
prosecutors “for use” in that criminal investigation.
Margulies Decl. ¶ 38. Official government reports and
Respondents’ own admissions illustrate their central
role in the implementation and oversight of that same
torture program, which was conducted on Polish soil.
Margulies Decl. ¶¶ 12-15. The information in Respondents’ possession would be not only relevant, but essential to the progress of the Polish investigation.
Other efforts to obtain evidence regarding official
conduct towards Abu Zubaydah have been substantially
impeded. The U.S. government has rejected multiple
mutual legal assistance requests lodged by the Polish
government under the 2006 U.S.-Poland Mutual Legal
Assistance Agreement, and signaled that it would ignore
further requests relating to the same subject matter.
Margulies Decl. ¶ 39.
D.

The Application should be granted in the exercise
of the Court’s discretion.

Where, as here, Section 1782’s threshold requirements are met, the decision whether to grant the application rests within the district court’s discretion. The
Supreme Court has articulated several factors for a
court to consider in determining whether to grant an application, including (1) whether the person from whom

121a
discovery is sought is a participant in the foreign proceeding; (2) the nature of the foreign tribunal and proceedings, and the receptivity of the foreign government,
court, or agency to the assistance of the U.S. federal
courts; (3) whether the application conceals an attempt
to circumvent foreign proof-gathering restrictions or
other public policies; and (4) whether the discovery
would be unduly intrusive or burdensome. Intel, 542
U.S. at 264-66. All of these factors weigh in favor of
granting this Application.
First, Respondents are not participants in the underlying foreign proceeding, and Polish authorities have no
independent means of securing their cooperation.
Second, the Polish Prosecutor’s office has invited
counsel for Abu Zubaydah to submit evidence, negating
any concern that the Polish government is unreceptive
to the Court’s assistance. Margulies Decl. ¶ 35.
Third, the Application does not seek to circumvent
proof-gathering restrictions, but rather to fill a gap in
foreign discovery devices—a goal firmly in line with the
statute’s overarching purpose of “providing efficient
means of assistance to participants in international litigation in our federal courts.” Application of Malev
Hungarian Airlines, 964 F.2d 97, 100 (2d Cir. 1992).
Finally, the discovery sought is restricted to Respondents’ oral testimony and documents within their personal
possession, and is not unduly intrusive or burdensome.
This is especially so in light of the potential benefit to Petitioners and the Polish prosecutorial authorities from the
requested discovery. The Polish investigation represents a government’s historic effort to ensure its sovereign

122a
accountability, and the accountability of individuals purporting to act on its behalf, for gross violations of international humanitarian law.
Moreover, notwithstanding
their own role in the events under investigation, Respondents are not and cannot be charged in those proceedings.
The relatively de minimis burden on Respondents’ resources and time is an insufficient basis for declining to aid
the investigation’s critical truth-seeking mission.
CONCLUSION

WHEREFORE, Petitioners respectfully request the
Court grant Petitioners leave to serve Respondents
Mitchell and Jessen with the subpoenas attached to this
Application.
Dated:

May 22, 2017
Respectfully submitted,
/s/

JERRY MOBERG
JERRY MOBERG
jmoberg@jmlawps.com

JERRY MOBERG & ASSOCIATES

124 Third Avenue, SW
Ephrata, WA 98823
(509) 754-2356

David Klein
david.klein@pillsburylaw.com
John Chamberlain
john.chamberlain@pillsburylaw.com

PILLSBURY WINTHROP SHAW PITTMAN
LLP

1200 Seventeenth Street, NW
Washington, DC 20036
(202) 663-8000

Attorneys for Petitioners

123a
APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WASHINGTON
AT SPOKANE

Civil Action No. 2:17-cv-00171-JLQ
IN RE APPLICATION OF ZAYN AL-ABIDIN MUHAMMAD
HUSAYN (ABU ZUBAYDAH) AND JOSEPH MARGULIES,
PETITIONERS

Filed:

Oct. 24, 2017

DECLARATION AND FORMAL CLAIM OF STATE
SECRETS AND STATUTORY PRIVILEGES BY
MICHAEL POMPEO, DIRECTOR OF THE
CENTRAL INTELLIGENCE AGENCY

I, MICHAEL POMPEO, hereby declare and state:
1. I continue to serve as the Director of the Central
Intelligence Agency (“CIA” or “Agency”). For background and biographical information, I respectfully refer the Court to my declaration, dated March 2, 2017,
that was submitted to this Court in a separate civil suit
that two former CIA detainees (Sulieman Abdullah
Salim and Mohamed Ahmed Ben Soud) and the personal
representative of a deceased former CIA detainee (Gul
Rahman) filed against Dr. James Mitchell (“Mitchell”)
and Dr. Bruce Jessen (“Jessen”), two former contractors employed by the CIA to assist in the interrogation
of detainees. My prior declaration is attached as Exhibit A and incorporated herein by reference.

124a
2. The purpose of this declaration is to assert, in
my capacity as the Director of the CIA, a formal claim
of the state secrets privilege, as well as statutory privileges discussed below, to protect the national security of
the United States. The statements made herein are
based on my personal knowledge, on information provided to me in my official capacity, and on my evaluation
of that information. The judgments expressed in this
declaration are my own. I do not assert the state secrets privilege lightly, nor do I assert the privilege to
conceal violations of law, inefficiency, or administrative
error, or to prevent embarrassment to a person, organization, or agency, or to prevent or delay the release of
information that does not require protection in the interest of the national security. Rather, I assert this
privilege after careful and personal consideration of this
matter to protect and preserve national security information, the disclosure of which reasonably could be expected to cause serious, and in many instances, exceptionally grave damage to U.S. national security. 1

The current basis for classification of national security information is found in Executive Order 13526. In accordance with section 1.3(a)(2) of the Executive Order, the President designated the
Director of the CIA as an official who may classify information up to
the TOP SECRET level. See 70 Fed. Reg. 21,609 (Apr. 21, 2005).
Part I of the Executive Order authorizes an Original Classification
Authority to classify information owned, produced, or controlled by
the United States government if it could reasonably be expected to
cause damage to the national security and pertains to one or more specific categories, to include intelligence activities, intelligence sources
and methods, foreign government information and foreign activities
of the United States. Section 1.2 of the Executive Order permits
information to be classified at one of three classification levels depending upon the reasonable likelihood of damage to the national se1

125a
3. In addition to asserting the state secrets privilege, I am also asserting statutory privileges under the
National Security Act of 1947 (“The National Security
Act”) and the Central Intelligence Agency Act of 1949
(“the CIA Act”). Section 102A(i)(1) of the National Security Act provides that the DNI “shall protect intelligence sources and methods from unauthorized disclosure.” 50 U.S.C. § 3024(i)(1). Pursuant to this section
of the National Security Act, and consistent with Section
1.6(d) of Executive Order 12333 and guidance from the
DNI, the CIA is required to protect intelligence sources
and methods from unauthorized disclosure. In addition, Section 6 of the CIA Act provides that the CIA
shall be exempted from the provisions of any other law
which requires the publication or disclosure of the organization, functions, names, official titles, salaries, or
numbers of personnel employed by the CIA. 50 U.S.C.
§ 3507.
4. Through the exercise of my official duties I have
become familiar with the Ex Parte Application for Discovery (the “Application”) filed by Abu Zubaydah
(“Zubaydah”) and his counsel, Joseph Margulies (together, “Petitioners”). I understand that this matter
traces its origins to an action Zubaydah filed for damages against the Republic of Poland in the European
Court of Human Rights. I understand that Zubaydah
was successful in that action, and was awarded a monetary judgment against the Polish Government. I further understand that, as a result of that court’s determination that the Polish Government had not conducted a
curity from unauthorized disclosure: CONFIDENTIAL for damage; SECRET for serious damage; and TOP SECRET for exceptionally grave damage.

126a
full and proper investigation into alleged violations of
law that resulted from Poland’s alleged participation in
the CIA’s former detention and interrogation program
(the “program”), the Polish criminal investigation has
been reopened. To assist the Polish investigation, I
understand that pursuant to 28 U.S.C. 1782(a) Petitioners seek discovery in the form of records and depositions
from Mitchell and Jessen about Zubaydah’s alleged detention in Poland. I also understand that Petitioners’
Application and the subpoenas served on Mitchell and
Jessen are predicated entirely on allegations that the
CIA conducted detention and interrogation operations
in Poland and/or with the assistance of the Polish Government.
5. As explained below, I am submitting this declaration and formally asserting the state secrets and statutory privileges in support of the Department of Justice’s motion to quash the discovery requests in their entirety because Mitchell and Jessen cannot produce documents or answer any deposition questions that would
tend to confirm or deny whether or not the CIA conducted detention and interrogation operations in Poland
and/or with the assistance of the Polish Government.
The specific foreign countries where the CIA operated
detention facilities and the foreign governments that
clandestinely assisted the CIA program are classified at
the TOP SECRET level, and it is my judgment that allowing Mitchell and Jessen to respond to the subpoenas
reasonably could be expected to cause serious, and in
many instances, exceptionally grave damage to U.S. national security.
6. In the prior lawsuit against Mitchell and Jessen,
which was recently dismissed after the parties entered

127a
into a settlement agreement, I understand that the Court
upheld my assertion of the state secrets and other statutory privileges to protect against the unauthorized disclosure of specific categories of classified national security information concerning the CIA’s former detention
and interrogation program. In particular, I asserted
the state secrets and other statutory privileges to protect seven categories of information:
•

Information that could identify individuals involved in the program;

•

Information regarding foreign government cooperation with the CIA;

•

Information pertaining to the operation or location of any clandestine overseas CIA station,
base, or detention facility;

•

Information regarding the capture and/or transfer of detainees;

•

Intelligence information about detainees and terrorist organizations, to include intelligence obtained or discussed in debriefing or interrogation sessions;

•

Information concerning CIA intelligence sources
and methods, as well as specific intelligence operations; and

•

Information concerning the CIA’s internal structure and administration.

7. Petitioners’ discovery requests in this case implicate these same seven categories of classified information and would require Mitchell and Jessen to answer
questions or produce documents that would tend to confirm or deny whether or not they have information about

128a
these categories as they pertain to whether or not the
CIA conducted detention and interrogation operations
in Poland and/or with the assistance of the Polish Government. Accordingly, for a detailed explanation of
these categories of classified information and why they
must be protected, I respectfully refer the Court to my
prior declaration, which I reaffirm for purposes of this
case.
8. Petitioner’s requested discovery cannot proceed
in this case because the central issue that underlies this
entire matter—whether or not the CIA conducted detention and interrogation operations in Poland and/or
with the assistance of the Polish Government—remains
a classified fact that cannot be divulged without risking
significant damage to the national security. In their
Ex Parte Application for Discovery, filed in May 2017,
Petitioners make clear that this case is all about Poland
and the alleged existence of a clandestine CIA detention
facility in that country. I understand that Petitioners
state, “The Polish criminal investigation is charged with
examining whether Polish officials violated domestic law
by opening, operating, and conspiring with the United
States to detain and mistreat prisoners, including Abu
Zubaydah.” (ECF No. 1, p. 7) In addition, “Petitioners expect [Mitchell and Jessen] to have relevant documents and personal knowledge regarding the identities
of Polish officials complicit in the establishment and operation of the black site and the nature of their activities.” (Id. at 9). Petitioners spell out:
Specifically, [Mitchell and Jessen] are in a position to
describe or produce evidence relating to the following: the crimes committed against Abu Zubaydah
on Polish soil; the identities of all perpetrators of

129a
those crimes; the presence of Polish officials at the
facility in general, and during the commission of the
various crimes; agreements between Polish and U.S.
officials; the identities of other witnesses to the crimes
against Abu Zubaydah; contracts or other agreements between the two governments regarding interrogations of Abu Zubaydah and other victims of
crimes in Poland; knowledge or documentation of the
day-to-day operation of the black site, including the
provision of daily necessities such as food, water,
medicine, etc.; interaction with the community surrounding the black site; flight arrival and departure
operations; upkeep and provision of the black site
grounds; and any interaction those working on the
black site may have had with the local population.
(Id. at 9-10). Petitioners conclude, “[Mitchell and Jessen’s] production of documents and testimony would aid
the Polish prosecutors in their understanding of Polish
civilian and governmental complicity in the operation of
Detention Site Blue.” (Id. at 10). In short, this whole
matter and Petitioners’ attempt to obtain discovery is
predicated on the allegation that the CIA operated a
clandestine detention facility in Poland and/or conducted detention and interrogation operations with the
assistance of the Polish Government. Whether or not
such a facility existed and whether or not the Polish Government provided assistance to the CIA remain classified facts that cannot be disclosed without significant
harm to the national security.
9. As explained in paragraphs 23-29 of my prior
declaration, two of the categories of information about
the CIA’s former detention and interrogation program
that remain classified at the TOP SECRET level and

130a
protected from disclosure under the state secrets privilege and the National Security Act of 1947 are (a) information regarding foreign government cooperation, and
(b) information pertaining to the operation or location of
any clandestine overseas CIA station, base, or detention
facility. Mitchell and Jessen cannot respond to Petitioners’ subpoenas without either confirming or denying the
existence or nonexistence of a clandestine CIA detention facility in Poland. Either way, Mitchell and Jessen’s response would reveal classified information about
whether or not the Polish government clandestinely assisted the CIA, and whether or not the CIA operated a
clandestine detention facility in Poland.
10. My prior declaration explained the harms to
U.S. national security that reasonably could be expected
to result from the disclosure of classified information regarding whether or not the Polish government clandestinely assisted the CIA and whether or not the CIA operated a clandestine detention facility in Poland. Indeed, these harms would apply to disclosure of classified
information about any of the foreign governments that
the CIA partnered with during the operation of the former detention and interrogation program. As incorporated and reaffirmed again here, every day, across the
globe, the CIA is engaged in counterterrorism operations and intelligence collection activities to keep our
country and our citizens safe. Foreign liaison services
are vital to our world-wide efforts to collect intelligence
and thwart terrorist attacks. Those services serve as a
force multiplier by directing their resources at common
goals we share in counterterrorism operations and intelligence gathering. Because foreign intelligence services serve as a direct source of intelligence and act as
partners in joint operations, such services are a critical

131a
intelligence source, and the CIA’s relationship with them
is an intelligence method that must be protected.
11. Publicly disclosing the existence of a clandestine
intelligence relationship or the extent to which a foreign
government is covertly cooperating or sharing intelligence with the CIA is likely to have serious negative
consequences for any liaison assistance the CIA may receive from that country. As a clandestine intelligence
service, the CIA has a duty to maintain the secrecy of its
liaison relationships. Disclosure of the clandestine relationship is a breach of the trust on which the relationship is based, and can lead to a less robust relationship
or even a termination of the relationship altogether.
This damage to a liaison relationship is likely to compromise the CIA’s ability to obtain critical intelligence information from the country’s intelligence service or secure cooperation from the country in current and future
high-risk counterterrorism operations. For example,
disclosing the existence of a clandestine intelligence relationship or the extent to which a foreign government
is covertly cooperating with and sharing intelligence
with CIA could embarrass the foreign government or
aggravate internal political dissent in that country.
This, in turn, would make the country less likely to share
intelligence with the CIA or assist the CIA with its operations.
12. Additionally, one predictable response to disclosing information about a clandestine liaison relationship is for the foreign government to publicly distance
itself from the U.S. Government or CIA, or take other
measures to reduce the effectiveness of the CIA. For
example, a country could demand that the CIA remove

132a
one or more officers from country and/or harass CIA officers. This could complicate CIA intelligence operations, possibly shutting down or curtailing operations,
resulting in a reduction or elimination of intelligence.
13. More broadly, if the CIA appears unable or unwilling to keep its clandestine liaison relationships secret, relationships with other foreign intelligence or security services could be jeopardized as well. It is critical that the CIA preserve the confidentiality of its liaison relationships in order demonstrate to partner governments that the CIA can be trusted to maintain the
secrecy of these agreements. For example, when trying to work with foreign intelligence services in the present day, the CIA needs them to have confidence that
we will not acknowledge our coordinated clandestine activities. If governments or intelligence services become distrustful of the CIA’s ability to maintain the confidentiality of these arrangements, they will understandably be reluctant to cooperate with the CIA if they
believe the CIA would disclose the arrangement. The
loss of trusted intelligence partners, and the intelligence
information and operational support they can provide,
would have significant harmful effects on the national
security.
14. Disclosing classified information pertaining to
countries and foreign services that clandestinely assisted the CIA would also increase the risk that terrorists or other bad actors would target those countries
with acts of extreme violence. Terrorist organizations,
in particular, often seek to plan attacks in locations that
U.S. Government personnel are perceived to frequent.
Public disclosure of the fact that the CIA has a liaison

133a
relationship with a given country increases the likelihood of an attack in that location.
15. Disclosing the location of CIA stations, bases,
and detention facilities can have similar negative repercussions. The fact that the CIA has covert overseas facilities is UNCLASSIFIED. The specific locations,
however, are generally classified SECRET, and information pertaining to the locations of specific former detention facilities is TOP SECRET. Acknowledging the
location of covert facilities can endanger the physical
safety of covert CIA officers who work at those locations
by, among other things, significantly increasing the likelihood that those locations could be targeted for terrorist attacks. Such official acknowledgments are also
reasonably likely to cause complications for host countries, given that official acknowledgment of CIA facilities within their borders could incite a backlash from elements of their citizenry. Public embarrassment for
the host country could have a negative impact on the
CIA’s relationship with the host country, to include curtailed intelligence sharing and cooperation that would
greatly diminish the CIA’s overseas intelligence collection, which in turn would diminish the quality of Agency
intelligence assessments for senior U.S. policymakers.
Further, confirming the location of covert CIA overseas
facilities signals to adversaries where the CIA has an interest and conducts operations, thus providing those entities with valuable information that they could utilize to
thwart the CIA’s intelligence mission.
16. There has been much public speculation about
which countries and services assisted the CIA’s former
detention and interrogation program, but the CIA, as it

134a
must, has steadfastly refused to confirm or deny the accuracy of such speculation. Indeed, the CIA has never
officially acknowledged whether or not any particular
foreign country hosted a clandestine CIA detention facility as part of the Agency’s former detention and interrogation program. For instance, the 2014 Senate
Select Committee on Intelligence report on the CIA’s
former detention and interrogation program intentionally refers in code to detention facilities such as “Detention Site Blue,” “Detention Site Cobalt,” and “Detention
Site Black,” rather than by their geographic location.
Similarly, the names of specific countries are identified
in the report as “Country [Redacted].”
17. Here, I understand that the media, nongovernmental organizations, and former Polish government officials have publicly alleged that the CIA operated a detention facility in Poland. These allegations do not constitute an official acknowledgment by the CIA, and
whether or not the CIA operated a clandestine detention
facility in any specific location, including Poland, remains a classified fact. Further, these allegations do
not undermine the harms to the national security discussed above that reasonably could be expected to result
from Mitchell or Jessen confirming or denying, explicitly or in connection with document production, whether
or not the CIA conducted detention and interrogation
operations in Poland and/or with the assistance of the
Polish government. As explained in my prior declaration, the concept of official acknowledgment is important to the protection of the CIA’s intelligence mission.
While the CIA obviously cannot control what former foreign government officials might choose to say publicly
for their own reasons, the CIA cannot officially acknow-

135a
ledge allegations that would confirm or deny the existence of a classified intelligence relationship with a foreign government. The absence of official confirmation
from the CIA leaves an important element of doubt
about the veracity of the information and, thus, carries
with it an additional layer of confidentiality. That protection would be lost, however, if the CIA were forced to
confirm or deny the accuracy of speculation or unofficial
disclosures, including allegations by former government
officials. Unofficial allegations may not be sufficient to
motivate hostile entities or foreign governments to take
action against the CIA in the same manner and with the
same intensity as would an official acknowledgment by
the CIA. By contrast, these entities could not ignore,
dismiss, or downplay an official acknowledgment by the
CIA.
18. I also understand that the regional prosecutor’s
office in Krakow, Poland, has an open criminal investigation into alleged CIA detention activities in Poland.
Even in situations when former officials with a foreign
government make allegations about CIA activities or
certain components of a foreign government attempt to
take action in response to alleged intelligence activities
with the CIA, there is still harm to the national security
that would result were the CIA to confirm or deny the
nature of the alleged activities. The CIA’s ability to
maintain a cooperative and productive intelligence relationship with foreign intelligence and security services
is separate from whatever activities may be undertaken
by other elements of that government or former officials
no longer connected with the government. Relationships with these intelligence and security services are
extremely sensitive and based on mutual trust that the
classified existence and nature of the relationship will

136a
not be disclosed. Therefore, it is of the utmost importance that the CIA not take any action that could
jeopardize these clandestine relationships, lest the CIA
lose the ability to receive critical intelligence and operational support from these foreign intelligence services,
as well as from other current or potential intelligence
partners, as discussed in this declaration. The resulting damage to the national security from reduced or terminated intelligence sharing relationships could be severe.
19. Although much information about the former detention and interrogation program has been declassified, the CIA has not wavered in its commitment to protecting the location of detention facilities and the identity of foreign partners who stepped forward in the aftermath of the 9/11 attacks to join the fight against alQa’ida. It is critical that the CIA maintain its commitment of confidentiality to these countries. Our foreign
partners must be able to trust our ability to honor our
pledge to keep any clandestine cooperation with the CIA
a secret even when time passes, media leaks occur, or
the political and public opinion winds change in those
foreign countries. For instance, when trying to convince foreign intelligence services to work with us in the
present day, CIA needs them to have confidence that
years down the line we will continue to stand firm in safeguarding any coordinated clandestine activities even if
new political parties or officials come to power in those
foreign countries that want to publicly atone or exact revenge for the alleged misdeeds of their predecessors.
The CIA’s ability to maintain and develop relationships
with foreign intelligence services depends on steadfast
adherence to this commitment.

137a
20. For the reasons set forth herein, I am asserting
the state secrets and related statutory privileges in support of the Department of Justice’s motion to quash Petitioners’ subpoenas in their entirety and to prevent the
disclosure of sensitive national security information, described above, that is implicated by this matter.
21. Should the Court require additional information
concerning any aspect of my claim of privilege, I respectfully request an opportunity to provide such additional information prior to the entry of any ruling regarding my privilege claims.
* * *
I hereby declare under penalty of perjury that the
foregoing is true and correct.
Executed this [24th] day of [October], 2017.
/s/ MICHAEL POMPEO
MICHAEL POMPEO
Director
Central Intelligence Agency

138a
EXHIBIT A
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WASHINGTON
AT SPOKANE

Civil Action No. 16-MC-0036-JLQ
JAMES E. MITCHELL AND JOHN JESSEN, PETITIONERS
v.
UNITED STATES OF AMERICA, RESPONDENT
Dated:

Mar. 2, 2017

DECLARATION AND FORMAL CLAIM OF STATE
SECRETS AND STATUTORY PRIVILEGES BY
MICHAEL POMPEO, DIRECTOR OF THE
CENTRAL INTELLIGENCE AGENCY

I, MICHAEL POMPEO, hereby declare and state:
1. I am the Director of the Central Intelligence
Agency (“CIA” or “Agency”). In my capacity as Director, I lead the CIA and manage intelligence collection,
analysis, covert action, counterintelligence, and liaison
relationships with foreign intelligence services. I have
held this position since January 23, 2017. Before becoming Director, I served for six years as U.S. Representative for the 4th District of Kansas. While a member of Congress, I served on the House Permanent Select Committee on Intelligence and the House Select Committee on Benghazi, as well as the Energy and Commerce
Committee. I graduated in 1986 from the United States

139a
Military Academy at West Point and served as an Army
officer for five years. After leaving active duty, I graduated from Harvard Law School and then joined the law
firm of Williams & Connolly in Washington, D.C. I
subsequently returned to Kansas, where I ran two small
businesses prior to joining Congress in 2011.
2. The purpose of this declaration is to assert, in
my capacity as the Director of the CIA, a formal claim
of the state secrets privilege, as well as statutory privileges discussed below, to protect the national security of
the United States. The statements made herein are
based on my personal knowledge, on information provided to me in my official capacity, and on my evaluation
of that information. The judgments expressed in this
declaration are my own.
3. As Director of the CIA, I am charged with
(1) collecting intelligence through human sources and by
other appropriate means; (2) correlating and evaluating
intelligence related to the national security and providing appropriate dissemination of such intelligence;
(3) providing overall direction for and coordination of
the collection of national intelligence outside the United
States through human sources and, in coordination with
other elements of the United States Government, ensuring that the most effective use is made of authorized collection resources and that appropriate account is taken
of the risks to the United States and those involved
in such collection; and (4) performing such other functions and duties related to intelligence affecting the national security as the President or the Director of National Intelligence (“DNI”) may direct. See 50 U.S.C.
§ 3036(d)(1)-(4). A more detailed statement of Director

140a
and CIA authorities is set forth in sections 1.6 and 1.7 of
Executive Order 12333, as amended.
4. The current basis for classification of national
security information is found in Executive Order 13526.
In accordance with section 1.3(a)(2) of the Executive Order, the President designated the Director of the CIA as
an official who may classify information up to the TOP
SECRET level. See 70 Fed. Reg. 21, 609 (Apr. 21,
2005). Part I of the Executive Order authorizes an
Original Classification Authority to classify information
owned, produced, or controlled by the United States
government if it could reasonably be expected to cause
damage to the national security and pertains to one or
more specific categories, to include intelligence activities, intelligence sources and methods, foreign government information and foreign activities of the United
States. Section 1.2 of the Executive Order permits information to be classified at one of three classification
levels depending upon the reasonable likelihood of damage to the national security from unauthorized’ disclosure: CONFIDENTIAL for damage; SECRET for serious damage; and TOP SECRET for exceptionally
grave damage.
CIA’S FORMER DETENTION &
INTERROGATION PROGRAM

5. On 17 September 2001, President George W.
Bush signed a Memorandum of Notification authorizing
the CIA to undertake operations designed to capture
and detain persons who posed a continuing, serious threat
of violence or death to U.S. persons and interests or who
were planning terrorist activities. Pursuant to that
Presidential grant of authority, the CIA developed what

141a
is now referred to as the CIA’s former detention and interrogation program (“the program”). The focus of the
program was to collect intelligence from High Value Detainees (“HVDs”), i.e., senior al-Qaida members and
other terrorists thought to have knowledge of active terrorist plots to murder American citizens.
6. Through the exercise of my official duties, I have
become familiar with this civil litigation brought by two
former CIA detainees and the personal representative
of a deceased former CIA detainee. I understand that
the two defendants in this matter, Dr. James Mitchell
and Dr. Bruce Jessen, were contractors employed by
the CIA to assist the CIA in interrogating CIA detainees. I further understand that this lawsuit is based on
the interrogation-related work that Doctors Mitchell
and Jessen performed for the CIA.
PRIVILEGED INFORMATION

7. State Secrets Privilege: I am submitting this
declaration to formally assert the state secrets privilege
in my capacity as head of the CIA after careful and personal consideration of the matter. I hereby assert the
privilege to protect against the unauthorized disclosure
of specific categories of classified national security information, further described below, that have been implicated in discovery in this case. I do not assert the
state secrets privilege lightly, nor do I assert the privilege to conceal violations of law, inefficiency, or administrative error, or to prevent embarrassment to a person, organization, or agency, or to prevent or delay the
release of information that does not require protection
in the interest of the national security. Rather, I assert this privilege to protect and preserve national security information, the disclosure of which reasonably

142a
could be expected to cause serious, and in many instances,
exceptionally grave damage to U.S. national security.
8. Statutory Privileges: In addition to asserting
the state secrets privilege, I am also asserting statutory
privileges under the National Security Act of 1947 (“The
National Security Act”) and the Central Intelligence
Agency Act of 1949 (“the CIA Act”). Section 102A(i)(1)
of the National Security Act provides that the DNI
“shall protect intelligence sources and methods from unauthorized disclosure.” 50 U.S.C. § 3024(i)(1). Pursuant to this section of the National Security Act, and
consistent with Section 1.6(d) of Executive Order 12333
and guidance from the DNI, the CIA is required to protect intelligence sources and methods from unauthorized disclosure. In addition, Section 6 of the CIA Act
provides that the CIA shall be exempted from the provisions of any other law which requires the publication
or disclosure of the organization, functions, names, official titles, salaries, or numbers of personnel employed
by the CIA. 50 U.S.C. § 3507.
9. I am asserting the state secrets and statutory
privileges to prevent the unauthorized disclosure of information that would reveal, or tend to reveal, sensitive
national security information related to CIA employees,
intelligence sources and methods and intelligence activities, as described in the categories below. The disclosure of this information reasonably could be expected to
cause serious, and in many instances, exceptionally
grave damage to the national security.
10. Over time, certain information about the program has been officially declassified and publicly released, such as in the Executive Summary to the Senate
Select Committee on Intelligence’s report that has been

143a
declassified in part, redacted, and publicly released.
For example, the enhanced interrogation techniques
employed with respect to specific detainees in the program, and their conditions of confinement, are no longer
classified. Nonetheless, many details surrounding the
program remain highly classified due to the damage to
national security that reasonably could be expected to
result from disclosure of that information. For this
reason, the CIA has withheld or objected to the disclosure of certain information implicated in discovery in
this case.
11. Below are categories of information 1 that have
been implicated by discovery in this matter, whether by
document production or deposition, and over which I am
asserting the state secrets and statutory privileges in
this case:
•

Information that could identify individuals involved in the program;

•

Information regarding foreign government cooperation with the CIA;

•

Information pertaining to the operation or location of any clandestine overseas CIA station,
base, or detention facility;

•

Information regarding the capture and/or transfer of detainees;

The Agency has, after careful deliberation, declassified and officially acknowledged certain discrete facts within these categories,
such as specific facts concerning the defendants’ role in the program.
My privilege assertion does not cover declassified information that
is now officially acknowledged.
1

144a
•

Intelligence information about detainees and terrorist organizations, to include intelligence obtained or discussed in debriefing or interrogation sessions;

•

Information concerning CIA intelligence sources
and methods, as well as specific intelligence operations;

•

Information concerning the CIA’s internal structure and administration.

12. In preparation for my assertion of the state secrets and statutory privileges over the above categories
of information, all of the disputed documents (172 total
documents) containing privileged information were made
available to me for review in unredacted form. I have
personally reviewed a representative sample of these
documents that contain information in each of the above
categories. In addition, I have reviewed the appendix
attached to my declaration—which was prepared by individuals assisting in this case who I understand have
reviewed the unredacted versions of every document
produced in this case—that explains with additional
specificity the information withheld or redacted from
the documents that remain in dispute. I have also discussed the details of the documents and information
sought in this case with knowledgeable members of my
staff and attorneys with the CIA Office of General Counsel, to ensure that the bases for the privilege assertions
set forth in this declaration are appropriate.

145a
INFORMATION THAT COULD IDENTIFY
INDIVIDUALS INVOLVED IN THE PROGRAM

13. As discussed further below, the TOP SECRET
information implicated in discovery in this case is generally for program­related information, and is based primarily on the need for the CIA to keep its commitment
or duty of confidentiality to its officers, agents, assets,
and foreign liaison officers who assisted the CIA in
program-related activities. Simply put, a clandestine
intelligence service needs to maintain secrecy for much
of what it does. If the Agency breaks its promises of
confidentiality, the people and organizations we rely
upon to accomplish our mission will be less likely to trust
us, and less inclined to work with us when we need their
assistance in the future. This is particularly true in the
counterterrorism arena, which has higher risk operations and necessitates closer cooperation with foreign
partners to protect against the loss of innocent lives
from terrorist attacks world-wide.
14. Doctors Mitchell and Jessen have sought to discover the names and identifying information of individuals involved, or associated through their job duties
with, the program, including current and former Agency
officers who have never been officially acknowledged by
the CIA as having had any role in, or association with,
the program. These discovery efforts include seeking
depositions of three individuals that defendants allege
were involved in the program (James Cotsana, Gina
Haspel, and John/Jane Doe) and document discovery
that would identify individuals involved in the program.
15. The CIA does not ordinarily disclose the identity
and Agency affiliation of its employees, regardless of
whether or not they are under cover. Such employees

146a
may have in the past served in sensitive positions or operations, may be doing so now, or may do so in the future. Accordingly, the CIA undertakes substantial efforts to protect its officers from exposure that could
compromise their safety and the CIA’s intelligence gathering mission.
16. With only a few exceptions, identifying information of individuals who worked in the program remains classified at the TOP SECRET level. Identifying information of individuals who did not work in the
program, but were indirectly associated with the program through their job duties (e.g., Inspector General
investigators) remains classified SECRET. This is
true regardless of an individual’s status: employee,
contractor, or agent; overt or covert; current or former/
retired. The fact of whether or not any individual
worked in, or was associated with, the program, if not
previously officially acknowledged by the CIA, remains
classified and is covered by my privilege assertion. In
the few instances where the CIA has officially acknowledged that a specific CIA staff officer was involved in
the program, it has exclusively been at the officer’s request (although their request is not the deciding factor)
and always after careful consideration and deliberation
within the Executive Branch. To reveal the names of
those individuals who worked in the program, or to
officially acknowledge public speculation about which
officers worked in the program, would confirm for the
world which persons were, and in some cases still are,
engaged in highly sensitive intelligence activities. Such
official acknowledgment would likely jeopardize the
safety of these officers and their families, and human intelligence sources who have met with these officers.

147a
Indeed, there have been death threats and security incidents involving officers who have been alleged to have
worked in the program. We owe it to our officers to
protect their identities to keep them and their families
safe.
17. In addition to the safety risks associated with
officially acknowledging the identities of officers who
worked in, or were associated with, the program, the
Agency also has a particularly heightened duty to protect the identities of those dedicated civil servants who,
at great personal sacrifice and risk, accepted difficult
and dangerous job assignments in the aftermath of the
terrorist attacks of September 11, 2001. Their country
owes it to them to, at a minimum, continue to protect
their identities and, if their names somehow surface in
the public domain in a manner that links them to the
program and where there has been no declassification
and official acknowledgement, refuse to confirm or deny
the accuracy of the allegation. If the CIA as an institution cannot honor this duty to its officers, future officers may be less willing to accept dangerous job assignments when their country needs them the most. Accordingly, the CIA cannot reveal the names of individuals
that are redacted from the documents produced in this
case, nor produce for deposition the officers alleged to
have participated in the program.
18. I am aware that there has been public speculation about whether two of the named individuals sought
to be deposed in this case (James Cotsana and Gina
Haspel) were involved in the program. The CIA, however, has never officially acknowledged whether either
individual was involved in the program. The concept of
official acknowledgement is important to the protection

148a
of the CIA’s intelligence mission and its personnel.
Public speculation about the identities of persons who
worked in the program—whether through media reporting, books written by former CIA officers, reports
from non­governmental organizations, or unauthorized
disclosures by government employees—does not equate
to declassification and official acknowledgement by the
CIA. When unofficial disclosures occur, the CIA typically cannot officially acknowledge that classified information was disclosed, as the absence of official confirmation from the CIA leaves an important element of
doubt about the veracity of the information and, thus,
carries with it an additional layer of protection and confidentiality. That protection would be lost, however, if
the government was forced to confirm or deny the accuracy of speculation or unofficial disclosures.
19. To protect the classified fact of whether or not
the potential deponents had any role in the program, the
Agency could not permit these individuals to answer any
questions pertaining to the program. This is why my
privilege assertion covers the depositions of current and
former Agency officers who have never been officially
acknowledged as having any affiliation with the program.
20. Although the CIA may have officially acknowledged that a specific person was a CIA officer, or even
that an officer worked in the counterterrorism arena,
that does not mean that the Agency has also acknowledged that the officer worked in any particular program,
nor does it mean that the Agency has officially acknowledged details of that officer’s work. For example, if the
Agency declassified and officially acknowledged that a
retired former officer worked in the counterterrorism

149a
arena, that declassification and official acknowledgement would not extend to a declassification of any specific aspect of the officer’s clandestine work, to include
whether or not the officer worked in the program.
Counterterrorism is a broad category, and the program
was but one highly-compartmented aspect of the Agency’s
world-wide counterterrorism operations.
21. The protection of CIA officers is among the highest priorities I have as Director. As explained above, releasing the names of CIA officers who were part of the
program, or officially acknowledging the veracity of information in the public domain about whether specific
CIA officers were involved in the program, would likely
lead to the harms I have discussed above. To consistently protect the classified fact of whether or not a specific person worked in, or was affiliated with, the program, the Agency must refuse to confirm or deny any
and all allegations or public speculation that a specific
individual had a role in the program. For all these reasons, information pertaining to the identities of officers
who worked in the program or became affiliated with the
program remains classified at the TOP SECRET or SECRET level and is covered by my state secrets privilege
assertion.
22. In addition, information concerning the identity
of individuals involved in the program is also protected
from disclosure under the CIA Act of 1949, which protects from disclosure not only the names of personnel
employed by the Agency but also information pertaining
to their functions.

150a
INFORMATION REGARDING FOREIGN
GOVERNMENT COOPERATION WITH THE CIA

23. It is equally important for the Agency to protect
from disclosure information concerning the foreign countries and foreign intelligence services that clandestinely
assisted the CIA with any aspect of the program. To
protect this category of TOP SECRET information from
disclosure, the CIA must also protect related details,
such as information pertaining to the travel of individuals who worked at the overseas facilities, and the names
of foreign individuals who assisted with the facilities or
with the program more broadly. As with the identities
of personnel, there has been much speculation in the media about which countries and services assisted the CIA,
but the CIA, as it must, has steadfastly refused to confirm or deny the accuracy of such speculation. Disclosing classified information pertaining to countries and
foreign services that assisted the CIA would, among
other things, increase the risk that terrorists or other
bad actors would target those countries with acts of extreme violence.
24. In addition to this very tangible terrorist threat,
disclosing information pertaining to foreign countries
and services that provided assistance to the CIA would,
as discussed above, make those countries, and any country, less likely to assist the CIA with current and future
high-risk counterterrorism operations. For example,
disclosing the existence of a foreign intelligence relationship or the extent to which a foreign government is
cooperating with and sharing intelligence with CIA could
embarrass the foreign government or aggravate internal political dissent in that country. This could have

151a
serious negative consequences for the foreign government, negatively impacting its diplomatic relations with
the United States and damaging the CIA’s liaison relationship. This, in turn, could lead to less intelligence
sharing and fewer joint intelligence operations.
25. Every day, across the globe, the CIA is engaged
in counterterrorism operations and intelligence collection activities to keep our country and our citizens safe.
Foreign liaison services are instrumental in our worldwide efforts to collect intelligence and thwart terrorist
attacks. Those services serve as a force multiplier by
directing their resources at common goals we share in
counterterrorism operations and intelligence gathering.
Because foreign intelligence services serve as a direct
source of intelligence and act as partners in joint operations, such services are a critical intelligence source, and
the CIA’s relationship with them is an intelligence method
that must be protected. For all these reasons, information pertaining to the identities of foreign countries
and foreign intelligence services that assisted the CIA
in any aspect of the program remains classified at the
TOP SECRET level and is covered by my state secrets
privilege assertion. Such information is also protected
from disclosure under the National Security Act of 1947
as those relationships constitute both intelligence sources
and intelligence methods.
INFORMATION PERTAINING TO THE OPERATION
OR LOCATION OF ANY CLANDESTINE CIA
STATION, BASE OR DETENTION FACILITY

26. My privilege assertion also applies to the location of covert Agency facilities, to include former CIA
detention facilities, CIA stations, and CIA bases, as well
as classified information pertaining to the functioning of

152a
these facilities. The fact that the CIA has covert overseas facilities is UNCLASSIFIED. The specific locations, however, are generally classified SECRET, and
information pertaining to the locations of specific former detention facilities is TOP SECRET. The CIA’s
covert overseas facilities are critical to the CIA’s mission as they provide a base for the CIA’s foreign intelligence activities. Acknowledging the location of such
covert facilities can endanger the physical safety of covert CIA officers who work at those locations by, among
other things, significantly increasing the likelihood that
those facilities could be targeted for terrorist attacks.
27. Such official acknowledgments are also reasonably likely to cause complications for host countries,
given that official acknowledgement of CIA facilities
within their borders could incite a backlash from elements of their citizenry. Public embarrassment for the
host country could have negative impact on the CIA’s
relationship with the host country, to include curtailed
intelligence sharing and cooperation that would greatly
diminish the CIA’s overseas intelligence collection, which
in turn would diminish the quality of Agency intelligence
assessments for senior U.S. policymakers.
28. In addition to protecting the specific locations of
CIA stations, bases, and former detention facilities, my
privilege assertion also protects other classified information, including information concerning operational
protocols for running clandestine overseas facilities,
such as security measures, methods of communication,
and operational duties and numbers of assigned personnel. These categories of information are classified SECRET because their unauthorized disclosure is reasonably likely to cause serious damage to national security.

153a
The likely damage includes the harm from informing our
adversaries of how we conduct our day-to-day intelligence business at clandestine overseas facilities,
thereby enabling our adversaries to identify our clandestine facilities, officers, and operations, and to diminish their effectiveness by implementing countermeasures.
29. All of these categories of information related to
the operation and location of overseas clandestine CIA
facilities are also statutorily protected from disclosure
under the National Security Act of 1947 as intelligence
sources and methods, and to the extent that they pertain
to CIA employees and their functions, also protected
from disclosure under the CIA Act of 1949.
INFORMATION REGARDING THE CAPTURE
AND/OR TRANSFER OF DETAINEES

30. My state secrets assertion also covers classified
information regarding the capture and/or transfer of detainees in the program, other than information about
their conditions of confinement or treatment. Details
concerning how the CIA came to have detainees in its
custody, and how it went about covertly moving detainees already in CIA custody also remains sensitive and
classified SECRET or TOP SECRET. Among other
things, such clandestine operations were often undertaken with the assistance of foreign partners with an understanding that those intelligence operations would remain secret. Even if conducted unilaterally, disclosing
that the CIA operated within or through a foreign country without coordinating such moves in advance could
upset foreign countries and needlessly result in curtailed intelligence relationships that we rely upon, par-

154a
ticularly in the realm of counterterrorism. The operational protocols associated with capture and transfer
missions also remain particularly sensitive and classified as this information would disclose aspects of the
CIA’s means of transportation, security measures, and
targeting. The likely damage to national security from
disclosure of this information includes providing foreign
adversaries with valuable insights into the CIA’s clandestine operations and protocols for foreign intelligence
activities, thereby enabling those adversaries to thwart
the effectiveness of our efforts by implementing specific
countermeasures.
31. In addition to being classified, the sensitive
program-related information concerning capture and/or
transfer is also protected from disclosure by the National Security Act of 1947 as protected intelligence
sources and methods, and to the extent such information
pertains to CIA employees and their functions, is also
protected from disclosure under the CIA Act of 1949.
INTELLIGENCE ABOUT DETAINEES AND TERRORIST ORGANIZATIONS, TO INCLUDE INTELLIGENCE
OBTAINED OR DISCUSSED IN DEBRIEFING OR
INTERROGATION SESSIONS

32. My state secrets privilege assertion also covers
SECRET and TOP SECRET intelligence collected by
the CIA about detainees and terrorist organizations, to
include information regarding debriefing or interrogation sessions of detainees in the program. Details of
debriefings and interrogations show the specifics of
what intelligence the CIA was trying to collect from detainees, the CIA’s analysis of available intelligence about
the detainees and their terrorist organizations, and, be-

155a
cause of the nature of questioning, also often reveals intelligence that the CIA had already collected. Information about debriefing or interrogation sessions includes strategies and actions that CIA personnel undertook (or planned to undertake) in response to information learned during debriefing or interrogation sessions. Such information remains sensitive and classified as it can help terrorist organizations piece together
what we knew about them and when we knew it, which,
in turn, would reveal our intelligence sources and methods. Even small details provide helpful information to
our adversaries, enabling them to form a fuller picture
of the CIA’s sources, capabilities, and modus operandi
that can be used to counter and diminish our intelligence
collection efforts.
33. Additionally, even outside of the interrogation or
debriefing context, the CIA collected a significant amount
of intelligence about suspected terrorists and their organizations that is referred to and discussed in CIA documents implicated in discovery in this case. Revealing
the content and sources of the CIA’s intelligence collections on these individuals and organizations is reasonably likely to harm the national security by disclosing
what the CIA knew, and did not know, about them at
specific points in time. Disclosure of that information
would likely assist our adversaries in their efforts to
counter CIA’s intelligence collection, and in turn, diminish the quality of Agency intelligence assessments for
senior U.S. policymakers, undermining our national security.
34. Intelligence collected about detainees and terrorist organizations, including the substance of debriefings or interrogation sessions, is also protected from

156a
disclosure by the National Security Act of 1947 as disclosure of this information would reveal intelligence
sources and methods, and to the extent such information
pertains to CIA employees and their functions, is also
protected from disclosure under the CIA Act of 1949.
INFORMATION CONCERNING CIA INTELLIGENCE
SOURCES AND METHODS AS WELL AS SPECIFIC
INTELLIGENCE OPERATIONS

35. Information withheld concerning CIA intelligence
sources and methods as well as details of specific intelligence operations, is classified at least at the SECRET
level and is also covered by my assertion of the state secrets privilege. To the extent such information reveals
still classified program­related information, it is classified TOP SECRET.
36. To obtain intelligence, the CIA relies on a variety of types of intelligence sources, including human
sources. Human sources can be expected to furnish information and provide assistance only when confident
that they are protected from exposure by the absolute
secrecy surrounding their relationship with CIA. In
many cases, the very nature of the information or activity at issue necessarily tends to reveal the sources because of the limited number of individuals who have had
access to that information or activity. The sensitive information in this category includes intelligence pertaining to specific terrorists that was obtained from multiple
human sources. If any such identifying information is
disclosed, the source may be vulnerable to discovery and
harm, including harassment, retaliation, imprisonment,
or death. Additionally, release of source-revealing information could seriously weaken the CIA’s ability to recruit potential sources, who would understandably be

157a
reluctant to cooperate with an intelligence service who
may not be willing or able to protect their identity.
37. The CIA must also guard against the disclosure
of the clandestine methods it uses to collect and analyze
intelligence. Intelligence methods are the techniques
and means by which an intelligence agency accomplishes
its mission, to include how we train our officers to accomplish our mission and the classified internal regulations, approvals, and authorities that govern our conduct. This category of sensitive information must be
protected from disclosure to prevent our adversaries
from gaining valuable insight into the CIA’s modus operandi and subsequently developing effective countermeasures to defeat or diminish our ability to gather intelligence.
38. Although it is widely acknowledged that the
Agency undertakes clandestine operations in support of
its mission, the CIA generally cannot confirm or deny the
existence of specific intelligence operations. Although
the existence of the former detention and interrogation
program has been declassified and officially acknowledged, numerous other counterterrorism activities and
operations remain classified, and disclosing details about
these activities and operations could reasonably be expected to cause serious harm to national security. Sensitive information concerning clandestine CIA operations includes, in some instances, the specific dates and
locations of operational activities. For example, providing the specific dates that CIA officers arrived in specific locations; engaged in certain actions; or captured or
interrogated detainees could permit our adversaries to
discover CIA overseas installations, the identities of
covert CIA officers, and the identities of human sources.

158a
The result would be increased physical danger to our officers, human sources, and facilities and diminished effectiveness of our intelligence operations. As discussed
above, when our intelligence collection efforts are diminished, so too is our ability to provide U.S. policymakers
with intelligence assessments to assist their decision
making.
39. In addition to being subject to my state secrets
privilege assertion, information pertaining to intelligence sources, methods, and activities is also protected
from disclosure under the National Security Act of 1947,
and to the extent that such information pertains to CIA
employees and their functions, is also protected from
disclosure under the CIA Act of 1949.
INFORMATION CONCERNING THE CIA’S
INTERNAL STRUCTURE AND ADMINISTRATION

40. Lastly, my state secrets privilege assertion also
covers other basic categories of sensitive and privileged
information that pertain to the CIA’s day-to-day operations. This includes information, classified at the SECRET level, about the CIA’s internal structure and administration, such as human, financial, communication,
and technological resources; specific code words, cryptonyms, and pseudonyms (an intelligence method used
to obfuscate operations, sources, and true names of
Agency officers); and classification and dissemination
control markings, which are a form of intelligence method
used to protect against unauthorized disclosures.
41. While not as sensitive as the other categories of
information described above, this category of information remains classified because it covers a spectrum
of granular details about the CIA’s overseas clandestine

159a
intelligence activities. Sensitive information in this category includes specific details of how CIA Headquarters
communicates with CIA covert overseas facilities; how
the CIA files, stores, and retrieves information; how
various components within the CIA coordinate and interact with each other; and how the CIA compartments
intelligence to protect against unauthorized disclosure.
If such sensitive information were to be disclosed, our
adversaries would gain knowledge about our clandestine
activities that they would almost certainly use to harm
our national security by reducing the effectiveness of
our intelligence collections, and thereby depriving U.S.
policymakers of more complete intelligence assessments
to inform their decisions. Accordingly, the CIA must
withhold a broad spectrum of information about how the
CIA performs its mission, to include how operations are
staffed, approved, and directed; how officers are trained;
and how resources are allocated. The unauthorized
disclosure of such information could reasonably be expected to cause serious harm to the national security by
impairing the CIA’s ability to collect intelligence, engage
in clandestine operations, and recruit human sources.
42. In addition to my state secrets assertion, information within this category is also protected from disclosure, to the extent it pertains to intelligence sources
and methods, by the National Security Act of 1947, and
to the extent it pertains to Agency personnel and their
functions, by the CIA Act of 1949.
CONCLUSION

43. For the reasons set forth herein, I am asserting
the state secrets and related statutory privileges to prevent the disclosure of sensitive national security infor-

160a
mation, described above, that has been implicated in discovery in this case. Should the Court desire additional
information concerning any aspect of my claim of privilege prior to entry of any ruling, I respectfully request
an opportunity to address the matter further with the
Court.
I hereby declare under penalty of perjury that the
foregoing is true and correct.
Executed this [2nd] day of [March], 2017.
/s/ MICHAEL POMPEO
MICHAEL POMPEO
Director
Central Intelligence Agency

161a
APPENDIX G

1. 28 U.S.C. 1782 provides:
Assistance to foreign and international tribunals and to
litigants before such tribunals

(a) The district court of the district in which a person resides or is found may order him to give his testimony or statement or to produce a document or other
thing for use in a proceeding in a foreign or international
tribunal, including criminal investigations conducted before formal accusation. The order may be made pursuant to a letter rogatory issued, or request made, by a
foreign or international tribunal or upon the application
of any interested person and may direct that the testimony or statement be given, or the document or other
thing be produced, before a person appointed by the
court. By virtue of his appointment, the person appointed has power to administer any necessary oath and
take the testimony or statement. The order may prescribe the practice and procedure, which may be in
whole or part the practice and procedure of the foreign
country or the international tribunal, for taking the testimony or statement or producing the document or other
thing. To the extent that the order does not prescribe
otherwise, the testimony or statement shall be taken,
and the document or other thing produced, in accordance with the Federal Rules of Civil Procedure.
A person may not be compelled to give his testimony
or statement or to produce a document or other thing in
violation of any legally applicable privilege.
(b) This chapter does not preclude a person within
the United States from voluntarily giving his testimony

162a
or statement, or producing a document or other thing,
for use in a proceeding in a foreign or international tribunal before any person and in any manner acceptable
to him.

